             April 1, 1999 - September 30, 1999




                               OFFICE OF INSPECTOR GENERAL




Semiannual Report
      to Congress
Including Significant Activities of the Inspection Service
001_008_jdl 4/14/00 7:25 PM Page 1




                                      A Message from the
                                      Inspector General
                                      From Vision to Value

                                      A
                                                 s we near completion of our third year, we recognize what a produc-
                                                 tive, gratifying, and rewarding time it has been since our inception.
                                                 Since we began hiring staff in 1997, many hardworking, dedicated
                                      people have contributed their skills, talents, and professional expertise to
                                      building an organization and producing a body of work that is emerging as a
                 KARLA W. CORCORAN    valuable contribution to the United States Postal Service. In the last six
                  Inspector General   months, with the support of the Postal Service Governors and the assistance
                                      of the management and employees, we issued over 100 reports representing
                                      over $1.1 billion in savings and potential cost avoidance during the current
                                      and future years. We also performed investigations resulting in $2.1 million
                                      in fines, recoveries, and restitution.
                                           We are extremely proud of these accomplishments and will strive to con-
                                      tinually provide high quality work and add value to the United States Postal
                                      Service. In addition to the results you will read about in this report, we have
                                      had many other significant accomplishments over the past six months. Some
                                      of these include:
                                      ◆ submitting written testimony regarding sweepstakes mailings to the
                                           House Subcommittee on the Postal Service;
                                      ◆   being recognized within the Inspector General community with 12
                                          awards acknowledging our innovation and leadership, including four
                                          Awards of Excellence; and
                                      ◆   attending the 22nd Universal Postal Union Congress in Beijing,
                                          China, as a U.S. delegate.
                                           With all of our recent accomplishments, it is hard to believe that three
                                      years ago we were merely a concept. At that time, Congress recognized that
                                      the American public needed an independent and objective perspective on
                                      Postal Service operations and activities. Since 1997, we have built our orga-
                                      nization based on a vision of “A Constellation of Talented People Making a
                                      Difference.” In a recent oversight hearing before the House Subcommittee
                                      on the Postal Service, Chairman John McHugh characterized the Postal
                                      Service Office of Inspector General (OIG) as a “valuable partner” in the
                                      effort to combat fraud, waste, abuse, and mismanagement.
                                           Our successes have been the result of unending and sometimes exhaust-
                                      ing hard work, unflinching determination of staff, and the welcome support
                                      and assistance of so many others. As the OIG has evolved, we have moved
                                      through several levels of development: from building our infrastructure, to
                                      learning about the Postal Service, to identifying systemic issues and measur-
                                      ing results.
                                           This Semiannual Report to Congress details our significant activities
                                      and accomplishments, as well as those of the Inspection Service from April 1
                                      to September 30, 1999. Submission of this report fulfills our reporting
                                      requirements under the Inspector General Act and Inspection Service
                                      requirements under the Mail Order Consumer Protection Act. This also rep-
                                      resents a comprehensive reporting of the work of both our office and the
                                      Inspection Service’s efforts to combat fraud, waste, abuse, and mismanage-
                                      ment within the Postal Service.
001_008_jdl 4/14/00 7:25 PM Page 2




                                                      In this reporting period, we issued 22 audit reports, 81 management advisory reports and other
                                                products, and closed 36 investigations. The work of the over 2,100 Postal Inspectors included 36
                                                contract audits that identified approximately $16.3 million in questioned and unsupported costs
                                                and more than $35.9 million in funds put to better use. The Inspection Service also issued 255 other
                                                audits and 121 expenditure, financial, and revenue investigative reports. Our combined efforts
                                                resulted in more than 500 written products to strengthen Postal Service programs and operations.
                                                      In addition, our investigations resulted in arrests of five individuals and in the convictions of
                                                five individuals. Inspection Service investigations resulted in the arrests of 5,246 individuals and in
                                                the convictions of 4,864 individuals stemming from charges brought during this and prior report-
                                                ing periods.
                                                      The last six months have also brought many changes. One of those changes was the retirement
                                                from the Postal Service of Deputy Postmaster General Michael Coughlin in June. Mr. Coughlin was
                                                one of the first Postal Service executives to openly support the OIG through his letter to Postal Ser-
                                                vice officers informing them that they could not retaliate against employees who reported wrong-
                                                doing to us. Chief Postal Inspector Kenneth J. Hunter also announced his retirement. His assistance
                                                was invaluable in helping us establish a separate OIG. We also welcomed the new Chief Postal
   Deputy Postmaster General Michael Coughlin   Inspector, Kenneth C. Weaver, with whom we share the same goal—to improve Postal operations.
   at his retirement in June with Inspector     We have agreed to renew the teambuilding started with former Chief Inspector Hunter, with the
   General Karla W. Corcoran.
                                                objective of increasing communications, trust, and coordination between the two organizations.
                                                      We have also changed the format of this Semiannual Report to Congress to make it easier for
                                                readers to locate information and to more clearly articulate what we have done and where we are
                                                headed. We have added a new Customer Service section that explains how the OIG strives to serve
                                                its customers, specifically in the areas of Congressional and Governors’ requests, Freedom of Infor-
                                                mation Act requests, Hotline operations, Postal management requests for reviews, and legislative
                                                and regulatory reviews. The Inspection Service and our work is now highlighted under six subject
                                                areas: performance; technology; financial management; labor management; oversight of the Inspec-
                                                tion Service; and other significant issues. In addition, we have incorporated relevant legislative and
                                                regulatory reviews into each appropriate section instead of reporting them in a separate section as
                                                in past reports.
                                                      As we enter our fourth year, we believe that the establishment of an independent Postal
                                                Inspector General by Congress in late 1996 has resulted in the:
                                                ◆ enhancement of Postal Service economy, efficiency, and integrity;
                                                ◆   creation of a truly independent voice;
                                                ◆   development of a venue for all employees and other stakeholders to confidentially report
                                                    allegations of fraud, waste, abuse, and mismanagement; and
                                                ◆   delivery of objective information and analyses of Postal Service operations to all Postal
                                                    stakeholders, including Congress and the Postal Service Governors.
                                                     As the Postal Service reevaluates the role it will play in a highly technological and increasingly
                                                competitive environment, we will continue to provide the Postal Service, the Governors, and Con-
                                                gress with accurate, timely, and objective information. We look forward to continuing to work with
                                                the Governors, the Postmaster General, and Postal Service management and staff to improve Postal
                                                operations.
                                                Sincerely,




                                                Karla W. Corcoran
                                                Inspector General

                                                October 31, 1999


                                      PAGE 2    A MESSAGE FROM THE INSPECTOR GENERAL
001_008_jdl 4/14/00 7:25 PM Page 3




       Table of Contents
       EXECUTIVE SUMMARY............................................................................................5
       MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ............................9
       POSTAL SERVICE REPORTED ACCOMPLISHMENTS ..............................................15
       OVERVIEW ............................................................................................................17
          Office of Inspector General ........................................................................18
          Inspection Service........................................................................................24
       ORGANIZATION....................................................................................................27
          Office of Inspector General ........................................................................28
          Inspection Service........................................................................................32
       OIG GOALS ........................................................................................................33
       CUSTOMER SERVICE ............................................................................................35
       PERFORMANCE REVIEWS ......................................................................................41
          Office of Inspector General ........................................................................42
          ◆ Accepting and Processing ......................................................................42
          ◆ Transportation ..........................................................................................44
          ◆ Delivery ....................................................................................................45
          ◆ Marketing ................................................................................................46
          ◆ Legislative and Regulatory Reviews ......................................................47
          Inspection Service........................................................................................50
          ◆ Accepting and Processing ......................................................................50
          ◆ Transportation ..........................................................................................51
          ◆ Delivery ....................................................................................................51
          ◆ Mail Theft ................................................................................................52
       FINANCIAL MANAGEMENT REVIEWS ..................................................................53
          Office of Inspector General ........................................................................54
          ◆ Financial Related Reviews ......................................................................54
          ◆ Financial Data Processing Systems ........................................................55
          ◆ Contracting and Facilities ......................................................................56
          ◆ Legislative and Regulatory Reviews ......................................................58
          Inspection Service........................................................................................59
          ◆ Financial Installations..............................................................................59
          ◆ District Accounting Offices ....................................................................60
          ◆ Contracting and Facilities ......................................................................60
          ◆ Revenue Investigations ..........................................................................61
          ◆ Embezzlements..........................................................................................62
          ◆ Workers’ Compensation ........................................................................62
       TECHNOLOGY REVIEWS ......................................................................................65
          Office of Inspector General ........................................................................66
          ◆ Year 2000 Issues ......................................................................................66
          ◆ Developmental Reviews ..........................................................................67
          ◆ Computer Security ..................................................................................67
          ◆ Information Systems ................................................................................69
          ◆ Electronic Commerce..............................................................................69
          ◆ Legislative and Regulatory Reviews ......................................................70


                                                                                                                                 PAGE 3
001_008_jdl 4/14/00 7:25 PM Page 4




                                          Inspection Service........................................................................................70
                                          ◆ Electronic Commerce..............................................................................70
                                       LABOR MANAGEMENT REVIEWS ........................................................................71
                                          Office of Inspector General ........................................................................72
                                          ◆ Violence in the Workplace ....................................................................72
                                          ◆ Workplace Climate..................................................................................73
                                          ◆ Healthcare ................................................................................................74
                                          ◆ Postal Employees Safety Enhancement Act ..........................................74
                                          ◆ Legislative and Regulatory Reviews ......................................................74
                                          Inspection Service ......................................................................................76
                                          ◆ Workplace Climate..................................................................................76
                                          ◆ Postal Robberies ......................................................................................76
                                          ◆ Drugs in the Workplace ..........................................................................76
                                       OVERSIGHT REVIEWS OF INSPECTION SERVICE ..................................................77
                                          Office of Inspector General ........................................................................78
                                          ◆ Legislative and Regulatory Reviews ......................................................79
                                       OTHER SIGNIFICANT REVIEWS ............................................................................81
                                          Office of Inspector General ........................................................................82
                                          ◆ Integrity Reviews......................................................................................82
                                          ◆ Executive Investigations..........................................................................82
                                          ◆ Government Performance and Results Act ..........................................82
                                          ◆ Legislative and Regulatory Reviews ......................................................83
                                          Inspection Service ......................................................................................84
                                          ◆ Physical Security ....................................................................................84
                                          ◆ Narcotics Offenses and Trafficking ........................................................84
                                          ◆ Fraud Against Consumers ......................................................................84
                                          ◆ Fraud Against Businesses ........................................................................85
                                          ◆ Fraud Against the Government..............................................................85
                                          ◆ Child Exploitation ..................................................................................85
                                          ◆ Prohibited Mail ........................................................................................85
                                          ◆ Postal Burglaries ......................................................................................85
                                       APPENDICES ........................................................................................................87
                                          Appendix A - Closed Congressional Inquiries..........................................88
                                          Appendix B - Reports Issued to Postal Management ..............................92
                                          Appendix C - Findings of Questioned Costs ..........................................109
                                          Appendix D - Recommendations That Funds Be Put to Better Use....110
                                          Appendix E - Unresolved Reports ..........................................................112
                                          Appendix F - Summary of Inspection Service Actions
                                              Under 39 USC 3005 and 3007 ..........................................................116
                                          Appendix G - Criminal Statistics ............................................................118
                                       EXHIBITS ............................................................................................................119



                              PAGE 4   TABLE OF CONTENTS
001_008_jdl 4/14/00 7:25 PM Page 5




                                     Executive Summary




                                       DID YOU
                                       KNOW?
                                      What is the value of jointly reporting
                                      OIG and Inspection Service results in a
                                      unified Semiannual Report?
                                      A unified Semiannual Report to Congress
                                      provides a complete accounting to the
                                      Postal Service stakeholders on joint efforts
                                      to prevent and detect fraud, waste, abuse,
                                      and mismanagement in the major programs
                                      and operations of the Postal Service.



                                                                                     PAGE 5
001_008_jdl 4/14/00 7:25 PM Page 6




                                                                                           This Executive Summary highlights the               Postal Service, which include:
                                                                                           Office of Inspector General (OIG) and               ◆   achieving Y2K readiness;
                                                                                           Inspection Service accomplishments from
                                                                                                                                               ◆   remaining viable in a highly competitive
                                                                                           April 1, 1999 through September 30,
                                                                                                                                                   environment;
                                                                                           1999, that are contained in this
                                                                                           Semiannual Report to Congress.                      ◆   leveraging technology;
                                                                                                                                               ◆   ensuring data reliability;
                                                                                                                                               ◆   enhancing financial and operational per-
                                                                                           EXECUTIVE SUMMARY                                       formance;
                                                                                                                                               ◆   increasing customer service and satisfac-


                                                                                           T
                                                                                                   his Executive Summary provides a brief
                                                                                                                                                   tion; and
                                                                                                   synopsis of the work reported during this
                                                                                                   six-month period. This issue of our         ◆   improving work climate and labor rela-
                                                                                           Semiannual Report addresses the major chal-             tions.
                                                                                           lenges the Postal Service faces as it enters the       The following highlights the OIG
                                                                                           21st century, and the many reviews performed        and Inspection Services’ accomplish-
                                            The OIG Management Committee consists of       —from preparing for Year 2000 (Y2K) readi-
                                            (left to right) Assistant Inspectors General                                                       ments as reported in the body of this
                                                                                           ness, to exploring electronic commerce and
 THIS PAGE TEARS OUT FOR YOUR CONVENIENCE




                                            Richard Chambers, Sylvia Owens, Ronald
                                                                                           computer intrusion issues, to investigating mail
                                                                                                                                               report under the six subject areas.
                                            Merryman; Inspector General Karla
                                            Corcoran; Assistant Inspectors General         thefts and workplace violence—that help             (1) The area of performance focuses on per-
                                            Norm Hancock and Billy Sauls; and General      improve Postal operations.                          forming critical core business processes needed
                                            Counsel Tom Coogan.                                 The OIG and the Inspection Service con-        to succeed in a competitive environment. The
                                                                                           duct reviews and investigations—independent-        OIG conducted 28 reviews in this area, which
                                                                                           ly and collaboratively—that play a vital role in    included projects that will help save the Postal
                                                                                           helping the Postal Service make improvements.       Service over $1.1 billion in current and future
                                                                                           Work performed by both the OIG and the              years. A few examples of work in this area
                                                                                           Inspection Service is included in this report.      include reviews on the:
                                                                                           We have included examples of Inspection Ser-
                                                                                           vice work to present Congress and the Gover-        ◆ Corporate Call Management Program;
                                                                                           nors with a unified report of the work being        ◆   emergency trip expenditures on highway
                                                                                           done within the Postal Service to combat fraud,         routes;
                                                                                           waste, abuse, and mismanagement.                    ◆   rail detention costs; and
                                                                                                In this, our sixth Semiannual Report, we
                                                                                                                                               ◆   Priority Mail Processing Center Network.
                                                                                           have changed the report organization from the
                                                                                           “Voice of the Employee,” “Voice of the Cus-         The Inspection Service focused on:
                                                                                           tomer,” and “Voice of the Business,” to six sub-    ◆   improving registered, priority, and First-
                                                                                           ject matter areas:                                      Class Mail service;
                                                                                           ◆   performance,                                    ◆   vehicle utilization; and
                                                                                           ◆   technology,                                     ◆   mail thefts amounting to over $4 million.
                                                                                           ◆   financial management,                           (2) In the area of technology, which encom-
                                                                                                                                               passes Y2K preparation, information systems
                                                                                           ◆   labor management,
                                                                                                                                               and infrastructure, developmental systems,
                                                                                           ◆   oversight of the Inspection Service, and        telecommunications, and computer security,
                                                                                           ◆   other significant issues.                       the OIG:
                                                                                                We also created a new section called “Cus-
                                                                                                                                               ◆   issued four reviews on Postal Service Y2K
                                                                                           tomer Service” which outlines OIG and Inspec-
                                                                                                                                                   readiness;
                                                                                           tion Service commitment to providing the best
                                                                                           quality customer service available. We believe      ◆   reviewed the Point of Service (POS)
                                                                                                                                                   ONE system; and
                                                                                           this new format provides a clearer understand-
                                                                                           ing of where our work falls within the major        ◆   made several recommendations to
                                                                                           management and program challenges facing the            improve computer security.

                                                                              PAGE 6       EXECUTIVE SUMMARY
001_008_jdl 4/14/00 7:25 PM Page 7




       The Inspection Service:                            ◆    an examination of processing employee
       ◆   helped ensure that Postal Service elec-             injury claims which led to recommenda-
           tronic commerce products and services               tion to improve the process.
           remain secure.                                 The Inspection Service:
                                                          ◆    conducted a workplace behavior audit
                                                                                                                           DID YOU
       (3) In the area of financial management,
       which incorporates financial management,                which led to recommendations to ensure                      KNOW?
       contracting, and facilities practices, the OIG          threat assessment team activity
       completed 33 reviews, and conducted investi-            consistency;
       gations resulting in five convictions, five        ◆    investigated 62 robberies, one of which           What is the OIG’s primary
       arrests, and recoveries and restitution of over         resulted in the sentencing of a ringleader        responsibility?
       $2.1 million, which included:                           and his accomplice of three robberies in
                                                               California and restitution of $53,000;            The primary responsibility of the
       ◆   reviewing the Dinero Seguro money                   and                                               OIG is to prevent, detect and
           transfer program and subsequent discov-
                                                          ◆    arrested 14 Postal Service employees for
           ery of a money laundering scheme;                                                                     report fraud, waste and program
                                                               narcotics violations.
       ◆   monitoring Postal Service compliance                                                                  abuse and to promote efficiency
                                                          (5) In the area of oversight of the Inspection
           with the Bank Secrecy Act; and
                                                          Service, the OIG completed 10 reviews. A               in the programs and operations of
       ◆




                                                                                                                                                     THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
           reviewing five contracts and facilities        sampling of those include:
           that resulted in over $2 million in                                                                   the Postal Service.
           recovered costs.                               ◆    an audit to determine if inspectors
       In addition to other work, the Inspection               performing audits were properly classified
       Service:                                                as law enforcement officers; and

       ◆   conducted 111 financial installation and       ◆    a review of a contractor’s allegation of
           17 district office audits to review the ade-        misconduct by Postal inspectors.
           quacy of internal controls;                    (6) Other significant reviews included
       ◆   performed numerous contracting and             projects that do not readily fall into the other
           facilities audits, one of which focused on     five categories. The OIG reviews include:
           services related to Mail Transportation
           Equipment Service Centers and identi-          ◆    an effort to improve the administration
           fied approximately $6.7 million in ques-            of Postal Service’s ethics program;
           tioned and $1.8 million in unsupported         ◆    ongoing investigations of senior-level
           costs; and                                          Postal Service executives; and
       ◆   investigated a major printer of catalogs       ◆    monitoring of the Government Perfor-
           and magazines for underreporting charges            mance and Results Act.
           due to the Postal Service, which led to a           The Inspection Service conducts numer-
           $22 million settlement.
                                                          ous audits and investigations covering signifi-
       (4) The labor management area focuses on           cant issues in the areas of: physical security, nar-
       issues related to violence in the workplace,       cotics trafficking, fraud against businesses, fraud
       workplace climate, health care, and the Postal     against consumers, fraud against the govern-
       Employees Safety Enhancement Act. During           ment, child exploitation, mail bombs and
       this reporting period, the OIG conducted 36        threats, and prohibited mail.
       reviews in this area, including:                        In addition to these six subject matter
                                                          areas, the section “Major Management Issues
       ◆   an audit of the violence prevention pro-
                                                          Facing the Postal Service” expands on the most
           gram in the Suncoast district that found
                                                          significant issues currently facing the Postal Ser-
           proper violence prevention procedures
                                                          vice. The “Overview” and “Organization” sec-
           were not followed;
                                                          tions provide a snapshot of the internal work-
       ◆   a review that disclosed that a plant man-      ings of the OIG and the Inspection Service; and
           ager endangered employees by encourag-         the “Goals” section describes our visions and
           ing the purchase of a pistol which was
                                                          future direction.
           brought to an official function; and


                                                                                                                  PAGE 7
001_008_jdl 4/14/00 7:25 PM Page 8
 THIS PAGE TEARS OUT FOR YOUR CONVENIENCE




                                            PAGE 8   EXECUTIVE SUMMARY
009_040_jdl 4/14/00 7:48 PM Page 9




                                     Major Management Issues
                                     Facing the Postal Service




                                           DID YOU
                                           KNOW?
                                          Does the Postal Service have to follow
                                          Federal Government laws and rules like other
                                          agencies?
                                          No. Except for certain laws and regulations expressly
                                          made applicable to the Postal Service, most federal laws
                                          of government-wide applicability do not apply to the
                                          Postal Service. This permits the Postal Service, an
                                          independent establishment of the executive branch,
                                          to operate in a business-like manner.



                                                                                     PAGE 9
009_040_jdl 4/14/00 7:48 PM Page 10




                                                                                                         will be indistinguishable from the Year 1900,
                                                  MAJOR MANAGEMENT                                       thereby causing potential system failures. The
                                                  ISSUES FACING THE                                      Postal Service is heavily dependent on its own
                                                  POSTAL SERVICE                                         internal automation to carry out its processing
                 DID YOU                                                                                 and distribution functions as well as on its many


                                                  T
                                                           he mission of the Postal Service is to
                 KNOW?                                     provide prompt, reliable, and efficient       suppliers that are highly automated. Because of
                                                                                                         this dependency, the Postal Service is highly
                                                           universal mail service at reasonable
                                                  rates. To fulfill this mission, the Postal Service’s   susceptible to the Y2K problem.
       Is the OIG responsible for all                                                                         Both the private sector and government
                                                  goals are to satisfy its customers, improve
       audits with the Postal Service?            employee and organizational effectiveness, and         have indicated that they may need to rely on
                                                  strengthen financial performance. To achieve           the Postal Service as a contingency plan if their
       Yes. In January 1999, the
                                                  these goals, the Postal Service must address a         systems fail on January 1, 2000. The Postal Ser-
       Postmaster General re-emphasized           number of significant issues. Some of these            vice has made significant progress in areas such
       to all Postal Service officers the         issues arise from external factors such as new         as systems correction (remediation), systems
                                                  legislation, regulations, and competition. Other       readiness verification (validation), reporting
       audit roles of the OIG. Specifically,                                                             quality, budgeting, and contracting. However,
                                                  issues are internally based such as enhancing
       the OIG is responsible for per-            productivity, managing costs, and improving            with only two months remaining until the Year
                                                  labor management.                                      2000, work still needs to be completed in the
       forming or contracting for all                                                                    areas of continuity planning and testing.
                                                       In order to identify the highest priority
       Postal Service audits, as well as          issues facing the Postal Service, the OIG - with            To address this major management issue in
                                                  the assistance of Postal Service Governors,            FY 2000, among other reviews, the OIG will:
       establishing procedures for
                                                  management, unions, and management associa-            ◆   Monitor testing of business continuity
       management-requested audits.               tions - responded in 1998 to a Congressional               and contingency plans in the months
       In addition, the OIG will serve as         request and identified 10 major management                 that remain before the Year 2000;
                                                  issues facing the Postal Service. Given the            ◆   Assess the Postal Service’s response if
       the focal point with other agencies,
                                                  dynamic environment in which the Postal Ser-               Y2K recovery efforts are necessary; and
       to coordinate work efforts and             vice is operating, management issues are evolv-
                                                                                                         ◆   Provide Congress, the Governors, and
                                                  ing rapidly. As a result, OIG recently updated
       avoid any duplication. Postal                                                                         senior Postal Service management with
                                                  the list of major issues facing Postal Service
                                                                                                             accurate and timely information on the
       Inspectors have continued to               management at the beginning of a new century.              status of Y2K readiness within the Postal
       perform audits to assist OIG                    The revised list consists of 7 issues that con-       Service.
                                                  solidate the previously identified 10 issues. The
       during the transitional period.            current list includes: (1) achieving Y2K readi-        REMAINING COMPETITIVE IN A
                                                  ness; (2) remaining competitive in a dynamic           DYNAMIC ENVIRONMENT
                                                  environment; (3) leveraging technology; (4)                 The Postal Service is operating in a highly
                                                  ensuring data reliability; (5) enhancing financial     competitive environment unprecedented in its
                                                  and operational performance; (6) increasing cus-       history. Maintaining or building market share
                                                  tomer service and satisfaction; and (7) improving      will prove to be a significant challenge given the
                                                  the work climate and labor relations.                  emergence of the private delivery industry,
                                                       The following information discusses the           aggressive foreign competitors, the Internet,
                                                  significance of each issue in more detail and          electronic communications, and electronic
                                                  identifies some of the reviews OIG has sched-          commerce.
                                                  uled to address each issue during Fiscal Year               Competition from the Internet, electronic
                                                  (FY) 2000.                                             communications, and electronic commerce may
                                                                                                         prove even more formidable than that experi-
       Achieving Y2K readiness is a major man-    ACHIEVING Y2K READINESS                                enced from private and foreign competitors.
       agement issue facing the Postal Service.       The Y2K challenge remains the most                 The Postal Service recently projected that First-
                                                  urgent and critical technology issue facing the        Class Mail volume will decline at an annual rate
                                                  Postal Service. The Y2K problem results from           of 2.5 percent beginning in FY 2003. The most
                                                  the way in which automated systems store and           significant threat is posed by the Internet,
                                                  process dates. In many systems, the Year 2000          which may siphon off as much as $17 billion



                                      PAGE 10     MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
009_040_jdl 4/14/00 7:48 PM Page 11




       annually in remittance mail revenue. A decline       consists not only of traditional information sys-
       of such a magnitude in the Postal Service’s core     tems, but also of information technology infra-
       mail products could significantly threaten uni-      structure, automated equipment, systems, and
       versal service. The Postal Service has recog-        processes. The Postal Service technology strat-
       nized this challenge, and is developing strategies   egy is to provide convenient access to every cus-
       to mitigate the impact of competition on rev-        tomer, everywhere, every day. The Postal Ser-
       enues and postal rates.                              vice plans to achieve this strategy by fielding
            In addition, the Postal Service’s private       smarter retail systems, expanding into new elec-
       delivery competitors have been particularly crit-    tronic access channels, and providing electron-
       ical of what they view as the competitive            ic linkages that integrate customer and Postal
       advantage accruing from the Postal Service’s         Service processes. However, at a recent confer-
       monopoly on First-Class Mail service. Further,       ence of Postal executives, a major mailer
       the Postal Service has been criticized for intro-    advised that in the field of technology, “it is the
       ducing non-postal products, and has generally        fourth quarter, and the Postal Service needs to
       been restricted to offering “traditional postal      get in the game.”
       services.” Therefore new initiatives have not             To address this major management issue in
       been a significant factor in generating revenue.     FY 2000, among other reviews, the OIG will:
       To address this major management issue in FY
                                                            ◆    Assess efforts to establish a Postal-wide
       2000, among other reviews, the OIG will:                  computer security program and other
       ◆   Assess the use of the “Electronic Post-               critical infrastructure initiatives;
           mark” in establishing a Postal Service           ◆    Examine specific aspects of Internet secu-
           role in Internet commerce;                            rity;
       ◆   Review strategic and operational                 ◆    Assess the effectiveness of security con-
           planning for electronic commerce;                     trols over telecommunications;
       ◆   Evaluate the infrastructure needed to            ◆    Evaluate the integrity of key electronic
           support electronic commerce activities;               commerce systems;
       ◆   Assess the status of PC Postage and its          ◆    Evaluate the performance and costs
           potential for revenue generation;                     associated with the Tray Management
       ◆   Examine the role of marketing in                      System;
           maintaining and promoting the Postal             ◆    Monitor and evaluate the research of
           Service’s competitiveness;                            new automation initiatives critical to
       ◆   Evaluate the marketing strategy effective-            the Integrated Postal Facility;
           ness of local advertising initiatives; and       ◆    Evaluate the performance and costs asso-
       ◆   Evaluate planning in transportation                   ciated with the Robotics Program; and
           contracting to prepare for the potential         ◆    Provide continuous review of the POS
           loss of First-Class Mail to electronic                ONE development and deployment.
           commerce.
                                                            ENSURING DATA RELIABILITY
       LEVERAGING TECHNOLOGY                                     Reliable data is a key ingredient for effec-
            Like everyone else, the Postal Service is       tive decisionmaking, and is also vital to measur-
       seeking ways to use the constantly changing          ing performance and gauging the overall success
       technology to improve its service, productivity,     of an organization. For the Postal Service, reli-
       and profitability. While it depends on technol-      able data is also essential in the rate-making
       ogy to deliver more than 650 million pieces of       process. Further, in many instances, we have
       mail every day, the Postal Service must contin-      found that the Postal Service does not capture
       ue to adapt to each new wave of technology           the necessary data for effective decisionmaking.
       quickly to maintain its market presence. The         Despite the importance of reliable data, a
       Postal Service budgeted almost $1 billion in FY      recent study on data reliability within the Postal
       1999 for the information systems portion of the      Service concluded that the increasing pace of
       technology arena alone. However, technology          change in the environment and technology of


                                                                                                                  PAGE 11
009_040_jdl 4/14/00 7:48 PM Page 12




                                                the Postal Service’s operations have led partici-    ◆   Determine whether the Mail Transporta-
                                                pants, including ratemakers, to raise criticisms         tion Equipment Service Centers are
                                                about the quality of the Postal Service’s data           achieving stated performance and finan-
                                                systems and procedures.                                  cial goals;
                                                     Observations in the study parallel those in     ◆   Ascertain if the Postal Service is ade-
                                                OIG reports to date. The long-term success of            quately identifying and handling
                                                the Postal Service will depend on its ability to         hazardous materials shipments;
                                                generate timely and reliable data for decision       ◆   Evaluate the Postal Service’s policies
                                                makers.                                                  and procedures for developing capital
                                                     To address this major management issue in           budgets;
                                                FY 2000, among other reviews, the OIG will:
                                                                                                     ◆   Examine the Postal Service’s policies and
                                                ◆   Evaluate the accuracy and reliability of             procedures for developing annual appro-
                                                    the External First Class Measurement                 priation requests;
                                                    System;                                          ◆   Review potential environmental liabili-
                                                ◆   Examine the integrity and reliability of             ties;
                                                    data used to compute Total Factor                ◆   Determine the effectiveness of the
       Increasing service and satisfaction to       Productivity;                                        process for making major investment
       over seven million customers every day
       is a major management issue facing the
                                                ◆   Monitor implementation of the Govern-                decisions within the Postal Service
       Postal Service.                              ment Performance and Results Act;                    Decision Analysis Reports; and
                                                ◆   Evaluate the reliability of information          ◆   Assess the accuracy of payments to high-
                                                    supporting the construction of new                   way contractors.
                                                    facilities; and
                                                                                                     INCREASING CUSTOMER SERVICE
                                                ◆   Assess the reliability of vehicle mainte-        AND SATISFACTION
                                                    nance data.                                            In today’s marketplace, customers have
                                                ENHANCING FINANCIAL AND                              choices about how they conduct transactions,
                                                OPERATIONAL PERFORMANCE                              transmit messages, and deliver merchandise.
                                                      The Postal Service must improve its finan-     The Postal Service views its access to the Amer-
                                                cial and operational performance to ensure uni-      ican household as a unique asset that it can rely
                                                versal mail service at affordable rates. Unlike      on in the face of increasing competition.
                                                other government agencies, the Postal Service        Increasing service delivery and customer satis-
                                                is funded almost entirely from revenues generat-     faction will be key to building loyalty and grow-
                                                ed by operations. The Postal Service’s ability to    ing new business. Timely, reliable, and consis-
                                                maintain affordable rates is dependent on con-       tent delivery performance is one measure of
                                                trolling costs, protecting revenues, and improv-     quality service as perceived by customers.
                                                ing productivity. Postal Service management          Increasing flexibility within the Postal Service
                                                must concentrate on streamlining operations          network to match the diversity of its customers
                                                and providing competitively priced products          will also be important to enhancing customer
                                                and services. Monitoring performance and             satisfaction.
                                                making sound business decisions is critical if the         To address this major management issue in
                                                Postal Service is to be a viable provider of mail    FY 2000, among other reviews, the OIG will:
                                                and package delivery service in the future.          ◆   Evaluate the appropriateness of the mea-
                                                      To address these major management issues           sures used to assess air carrier perfor-
                                                in FY 2000, among other reviews, the OIG will:           mance;
                                                ◆   Assess the financial impact of the Postal        ◆   Examine the sufficiency and appropriate-
                                                    Service’s FY 1999 budget reductions and              ness of the Priority End-to-End Measure-
                                                    cost containment initiatives;                        ment System;
                                                ◆   Evaluate the Postal Service’s Christmas          ◆   Review the effectiveness of performance
                                                    operations to identify means of better               standards in place for retail clerks;
                                                    aligning transportation costs with
                                                    corresponding revenues;

                                     PAGE 12    MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
009_040_jdl 4/14/00 7:48 PM Page 13




       ◆   Assess the effectiveness and attainment               To address these major management issues
           of established performance measures for          in FY 2000, among other reviews, the OIG will:
           the Kansas City Stamp Fulfillment Cen-
                                                            ◆   Review Postal Service initiatives to
           ter;
                                                                improve the organizational climate;
       ◆   Perform a comprehensive review of retail
                                                            ◆   Assess implementation of the Postal
           operations in a major metropolitan area;
                                                                Employees Safety Enhancement Act and
           and
                                                                its impact on the organizational climate
       ◆   Evaluate delivery confirmation to assess             and operations;
           whether packages are being scanned
                                                            ◆   Evaluate the criteria supporting violence-
           properly at the time of delivery, attempt-
                                                                prevention strategies;
           ed delivery, forwarding, or returning to
           sender.                                          ◆   Review the violence prevention program
                                                                to determine the impact on workplace
       IMPROVING THE WORK CLIMATE                               climate and operations;
       AND LABOR RELATIONS
                                                            ◆   Ascertain the effectiveness of workplace
             The Postal Service has characterized labor
                                                                climate assessments;
       management as one of its most important chal-
       lenges in achieving its goals in the 21st century.   ◆   Examine administration of light and lim-
       With approximately 800,000 career and                    ited duty assignments; and
       100,000 part-time employees, improving work-         ◆   Review the consistency of disciplinary
       place relations among labor, management, and             actions.
       the unions and associations that represent
       them, is a key objective within the Postal Ser-
       vice.
             To operate effectively in a rapidly changing
       environment, the Postal Service will need to
       give the needs of its employees a higher priority
       and enhance each employee’s contributions to
       organizational performance. To think creative-
       ly and perform in their greatest capacity,
       employees must not only have the technical
       skills needed to perform the work but also have
       a safe and healthy workplace.
             To excel in this dynamic environment, the
       Postal Service needs to resolve persistent labor
       management problems, such as adversarial atti-
       tudes, disparate treatment of employees, and
       management styles that negatively affect pro-
       ductivity. Eliminating these problems and
       embracing technological advancements will
       require partnering with employees and the
       unions that represent them.
             In addition to traditional labor manage-
       ment challenges, the Postal Service faces a new                                                       OIG and other Postal officials attended
       challenge as a result of the Postal Employees                                                         the Universal Postal Union Congress in
                                                                                                             Beijing, China, which was opened by
       Safety Enhancement Act. This statute extends                                                          China’s President Jiang Zemin.
       many of the provisions of the Occupational
       Safety and Health Act to the Postal Service. In
       addition, the Postal Service faces the continu-
       ing challenge of managing employee injuries
       and the resulting costs relating to workers’
       compensation claims.


                                                                                                              PAGE 13
009_040_jdl 4/14/00 7:48 PM Page 14




                              PAGE 14   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
009_040_jdl 4/14/00 7:48 PM Page 15




                                      Postal Service Reported
                                      Accomplishments




                                         DID YOU
                                         KNOW?
                                        What is a “performance” audit?
                                        Performance audits assess whether
                                        Postal Service operations are managed
                                        economically and efficiently, achieve
                                        desired results, and are in compliance
                                        with applicable laws and regulations.




                                                                                 PAGE 15
009_040_jdl 4/14/00 7:48 PM Page 16




                                            O
                                                     ur goal is to work in concert to assist   TECHNOLOGY
                                                     the Postal Service in ensuring that the   ◆   Accomplished the Y2K remediation of its
                                                     American people continue to receive           137 mission-critical systems; created
                                            the best postal service in the world. Highlight-
              DID YOU                       ing the Postal Service’s accomplishments for
                                                                                                   more than 500 contingency plans to
                                                                                                   work around potential Y2K disruptions;
              KNOW?                         this six months provides context to OIG and            continued to field test the Y2K readiness
                                            Inspection Service activities.                         of systems under “real world” conditions;
                                                 During this period, senior Postal Service     ◆   Launched PC Postage, a service that
       How is the OIG funded?               management reported the following accom-               enables customers to purchase postage
                                            plishments:                                            via the Internet and to imprint a valid
       The OIG budget is approved by the
                                                                                                   indicia on envelopes and letters; and
       Postal Service Governors and fund-   PERFORMANCE
                                            ◆   Added 163 ZIP Code areas to those mea-         ◆   Announced the establishment of a
       ed with Postal Service revenues.
                                                sured by the independent External First-           “public key” infrastructure to protect
       The FY 2000 budget for OIG is                                                               the security of postal services which
                                                Class Measurement System; measured
       $72 million.                                                                                include an electronic component.
                                                on-time performance in 465 regions
                                                nationwide;
                                                                                               LABOR MANAGEMENT
                                            ◆   Established the information infrastructure
                                                                                               ◆   Supported landmark agreements to
                                                necessary to confirm the delivery of
                                                                                                   formalize cooperation with the National
                                                parcels; called “Delivery Confirmation,”
                                                                                                   Postal Mail Handlers Union and the
                                                the service requires a nominal up-front
                                                                                                   National Rural Letter Carriers Associa-
                                                fee; delivery reports are available to cus-
                                                                                                   tion to create a safer, healthier work-
                                                tomers via a toll-free number and the
                                                                                                   place; the agreements parallel an earlier
                                                world-wide web;
                                                                                                   agreement with the American Postal
                                            ◆   Earned three “Closing the Circle” awards           Workers Union.
                                                from the White House for programs that
                                                conserve resources and protect the envi-       INSPECTION SERVICE
                                                ronment; the awards recognize accom-           ◆   Named Kenneth C. Weaver as the new
                                                plishments in the recycling of electronic          Chief Postal Inspector, succeeding
                                                components and batteries and the con-              Kenneth J. Hunter, who retired having
                                                struction of “green” buildings; and                recently received an award from the
                                            ◆   Authorized the purchase of 500 electric            Association of Certified Fraud Examiners
                                                vehicles, making the Postal Service one            for his lifetime work in preventing and
                                                of the biggest investors in zero-emissions         detecting fraud.
                                                vehicles in the world; present inventory
                                                of alternate fuel vehicles is more than        OTHER SIGNIFICANT ISSUES
                                                8,000 and is expected to grow to more          ◆   Supported the 1999 Tour de France
                                                than 30,000 by 2001.                               winning team; publicity boosted aware-
                                                                                                   ness of Postal products and services
                                            FINANCIAL MANAGEMENT                                   worldwide, providing encouragement
                                            ◆   Challenged managers at every level to              and hope to cancer victims through the
                                                boost productivity and reduce costs to             remarkable accomplishments of Lance
                                                make up shortfalls from the deferred rate          Armstrong.
                                                increase; in spite of lower than expected          This summarizes the Postal Service’s
                                                revenues, projected year-end net income        accomplishments over the last six months
                                                was $300 million; and                          as reported to the OIG by senior Postal
                                            ◆   Increased to more than $8 million the          management.
                                                total raised for breast cancer research by
                                                the Breast Cancer “semi-postal” stamp.




                                PAGE 16     POSTAL SERVICE REPORTED ACCOMPLISHMENTS
009_040_jdl 4/14/00 7:48 PM Page 17




                                      Overview




                                        DID YOU
                                        KNOW?
                                       Does the OIG have access to all Postal
                                       Service documents and information?
                                       The Inspector General Act specifically
                                       provides that the Inspector General is
                                       authorized “to have access to all records,
                                       reports, audits, reviews, documents, papers,
                                       recommendations, or other material available
                                       to the applicable establishments.”




                                                                                    PAGE 17
009_040_jdl 4/14/00 7:48 PM Page 18




                                                  The following section provides an overview              analyses of Postal Service operations.
                                                  of OIG and Inspection Service internal              ◆   provides expanded audit and investiga-
                                                  operations. To differentiate between the                tive coverage of all Postal Service opera-
                                                  work reported by the OIG and Inspection                 tions and activities, including rate-mak-
                                                  Service, the pages containing the Inspec-               ing, contract administration, labor man-
                                                  tion Service work have been color screened.             agement, computer intrusion, electronic
                                                                                                          commerce, and marketing;
                                                                                                      ◆   conducts technological evaluations and
                                                                                                          investigations in areas such as Y2K, elec-
                                                  OFFICE OF INSPECTOR                                     tronic commerce, and computer intrusion
                                                  GENERAL                                                 with experienced, specially trained staff;
                                                                                                      ◆   provides oversight of the Inspection Ser-
                                                  AN INDEPENDENT MISSION, A                               vice and performs independent reviews of
                                                  COMMON GOAL
                                                                                                          complaints against Inspection Service
                                                       The OIG is independent of Postal Service           employees;
                                                  management and is under the general supervi-
                                                                                                      ◆   facilitates audit resolution and follow-up,
                                                  sion of nine Presidentially-appointed Postal
                                                                                                          which provides meaningful mechanisms
      OIG Information Technology staff help       Governors who also oversee Postal Service
      maintain our computer proficiency.
                                                                                                          for resolving findings and recommenda-
                                                  management. In January 1997, Karla W.                   tions where the OIG and Postal Service
                                                  Corcoran was appointed the first independent            management are in disagreement, and for
                                                  Inspector General for the Postal Service. From          assuring that management implements
                                                  1988 until the establishment of this newly              corrective actions;
                                                  established OIG, the Chief Postal Inspector per-
                                                                                                      ◆   adds value to Postal Service operations,
                                                  formed dual roles as the Inspector General and
                                                                                                          contributes to a more economical and
                                                  Chief Postal Inspector and reported to the Post-        efficient organization, and helps the
                                                  master General.                                         Postal Service maintain its integrity
                                                       In carrying out its responsibility under the       through independent investigations,
                                                  Inspector General Act, the OIG:                         audits, and reviews;
                                                  ◆   conducts independent audits and investi-        ◆   serves as a venue for all employees and
                                                      gations of Postal Service programs and              other stakeholders to report fraud, waste,
                                                      operations to ensure the efficiency and             abuse, mismanagement, and other impro-
                                                      integrity of the Postal Service;                    prieties and concerns, with protection
                                                  ◆   exercises oversight responsibility for all          from retaliation; and
                                                      activities of the Inspection Service; and       ◆   achieves cost savings, enhances contract
                                                  ◆   keeps the Congress, the Postal Service              and program administration, and increas-
                                                      Governors, and management fully and                 es employee and program efficiency and
                                                      currently informed about problems, defi-            integrity.
                                                      ciencies, and the progress of corrective              The OIG has demonstrated its indepen-
                                                      actions.                                        dence in a variety of ways, including reporting
                                                      The OIG is independent, but it shares with      its results to the Governors and Congress. For
                                                  the Inspection Service a common goal -- to          example, the OIG issued 14 reports within three
                                                  improve Postal Service operations.                  years in the areas of new product development,
                                                                                                      new business processes, new and redesigned
                                                  Benefits of an Independent Office of                automated equipment, and automated systems
                                                  Inspector General                                   development. Synopses of these reports were
                                                       As an independent and distinct entity          provided to Congress and the Governors in this
     Tray Management is one of the Postal
     Service developmental systems that OIG       within the Postal Service, the OIG, which is        and prior semiannual reports. In contrast, records
     has reviewed and provided information to     separate from Postal management:                    indicate that for the five-year period before this
     the Governors and management.
                                                  ◆   provides management and the Gover-              OIG was established, reviews of 15 developmen-
                                                      nors, as well as the Congress, with timely,     tal projects had been opened, but not officially
                                                      objective, and complete information and         reported. While this office understands


                                        PAGE 18   OVERVIEW
009_040_jdl 4/14/00 7:48 PM Page 19




       issues were discussed with management, devel-            the contributions and opinions of others;
       opmental projects were not reported in the           ◆   Creativity - cultivating fresh perspectives
       Semiannual Report to Congress until Septem-              in the development of new processes and
       ber 1998, after this OIG office was established.         techniques that will improve Postal Ser-
            In addition, the OIG is developing an               vice operations; and
       audit resolution process for ensuring that man-      ◆   Conceptualization - developing viable
       agement addresses and implements complete                solutions, based on OIG employees
       and timely corrective action on recommenda-              understanding the Postal Service per-
       tions. This will be a new process because prior          spectives and needs.
       to the establishment of the new OIG, when
       management disagreed with a recommenda-              OIG Culture
       tion, the recommendation would not be pur-                 The OIG culture demands that all people
       sued, tracked, elevated to the audit resolution      be treated fairly and be given the opportunity to
       official, or reported to the Governors or Con-       develop their unique and diverse skills and abil-
       gress. Sections of prior semiannual reports did      ities to their fullest potential. The OIG is com-
       identify unresolved findings. However, this          mitted to attracting a diverse and highly quali-    A diverse and talented group of employees
       information only described issues for which          fied workforce from government, the private         attending an OIG orientation class.
       management had agreed to take corrective             sector, the Postal Service, and colleges and uni-
       action that had not been fully implemented.          versities.
       These reports did not state where management               The OIG is proud of its diversity and is
       had disagreed with the findings as envisioned by     committed to developing and utilizing the tal-
       the requirement of the Inspector General Act.        ents of all its employees. Many of its employees
       The new process will correct this lack of infor-     have advanced degrees and are Certified Public
       mation by reporting recommendations with             Accountants, Certified Internal Auditors, Cer-
       which management did not agree.                      tified Information Systems Auditors, Certified
            The purpose of the OIG in providing             Fraud Examiners, and Certified Acquisition
       objective information, analysis, and recommen-       Auditors. In addition, a number of its investi-
       dations is to improve Postal Service programs        gators hold law enforcement specialty certifica-
       and operations. However, sometimes the infor-        tions in areas such as polygraph examinations
       mation and analysis provided by the OIG might        and seized computer evidence recovery. OIG
       cause consternation for program and Postal Ser-      criminal investigators receive rigorous training
       vice management who may need to rethink pre-         at the Federal Law Enforcement Training Cen-
       vious decisions. The OIG is still working with       ter or an equivalent law enforcement academy.               Diversity Statistics
                                                                                                                        COMPARISON OF OIG TO CENSUS INFORMATION
       Postal Service officials to inform them of the       Employee education and professional certifica-
       duties and responsibilities of an independent        tion enhances the OIG’s ability to add value to       30%
                                                                                                                            28
       OIG.                                                 the Postal Service.                                                                                   OIG      CENSUS



                                                                                                                  25%
       OIG Vision and Values                                OIG Diversity
            The vision of the OIG is “A Constellation            During the past six months, OIG hired a
       of Talented People Making a Difference.” This        total of 110 employees. As of September 30,           20%

       vision is important because the mission of an        1999, 403 individuals are on board, of which
       Inspector General’s office is to shed light on the   175 (43 percent) are women and 168 (42 per-           15%
       problems of its agency and ensure that correc-       cent) are minorities. Minorities include:
       tive action is taken. The OIG emphasizes these                                                             10%
                                                                                                                                     11
                                                            ◆   116 Blacks (28 percent),                                                         10

       five fundamental values:
                                                            ◆   27 Hispanics (7 percent),                                                 7
                                                                                                                                                      6
       ◆   Teamwork - combining diverse talents                                                                    5%
           to achieve synergy;                              ◆   23 Asians (6 percent), and                                                                    4

                                                                                                                                                                   5.7 1      1

       ◆   Leadership - encouraging each other to           ◆   2 Native Americans (1 percent).                    0%        BLACK        HISPANIC    ASIAN         NATIVE AMERICAN

           be the best each can be;                             Based on the latest U.S. Bureau of the
       ◆   Communication - facilitating honesty,            Census estimates, the OIG has met or exceeded
           openness, respect, and consideration for         the U.S. percentage of total population for each



                                                                                                                  PAGE 19
009_040_jdl 4/14/00 7:48 PM Page 20




                                                   of these groups, except for Hispanics. The OIG      ◆   designing a unique pay-for-performance
                                                   senior-level staff is 35 percent female and 26          system that rewards employees who
                                                   percent minority.                                       demonstrate superior performance and
                                                        In August 1999, the Governors approved a           share the vision and values of the
                                                   FY 2000 budget of $72 million, which will allow         organization.
                                                   OIG to expand to 648 employees and five addi-       NOTABLE OIG ACHIEVEMENTS
                                                   tional locations. To identify a diverse pool of
                                                   highly qualified candidates for the 245 positions   OIG Recognized Within the IG
                                                   that need to be filled in FY 2000, OIG staff has    Community
                                                   attended numerous conferences, visited col-              On September 28, the OIG was recognized
                                                   leges, and gone to career fairs. With the unem-     at the President’s Council on Integrity and Effi-
                                                   ployment rate at historic lows, hiring compe-       ciency and the Executive Council on Integrity
                                                   tent, talented individuals continues to be one of   and Efficiency Awards Ceremony with four
                                                   OIG’s greatest challenges. In addition, the OIG     Awards of Excellence and eight Honorable
                                                   may need to increase its staffing levels and hir-   Mentions. The Awards of Excellence recog-
                                                   ing efforts because of a recent decision by the     nized our work in the areas of Y2K, labor man-
                                                   Inspection Service not to perform “Yellow           agement, computer intrusion, and electronic
                                                   Book” audits in the future. The OIG is review-      subpoenas.
       Assistant Inspector General for Employee    ing this decision of the Inspection Service to
       Billy Sauls accepted the Award of
                                                                                                       OIG Submits Testimony Concerning
                                                   determine what effect it will have on the OIG.
       Excellence for his teams’ work in Labor                                                         Consumer Fraud
       Management.                                 Striving To Be a Model Organization                        At the invitation of the House Subcom-
                                                         The OIG strives to be a model organization    mittee on the Postal Service, Committee on
                                                   by using the latest available technology, the       Government Reform, the OIG submitted writ-
                                                   most innovative ideas of its employees, and the     ten testimony on legislation concerning sweep-
                                                   best business practices of both the public and      stakes mailings. The legislation is an effort to
                                                   private sectors. Its internal goal is to build an   help protect the American public from decep-
                                                   efficient, effective, and economical organiza-      tive mailings and would give the Postal Service
                                                   tion. The OIG staff works to establish best         subpoena authority in the area of sweepstakes
                                                   practices by benchmarking with other organiza-      mailings. The OIG testimony supported the
                                                   tions and exemplary performers. The OIG is          legislation; however, it suggested ways to
                                                   also working to develop streamlined policies to     improve the administrative subpoena authority
                                                   facilitate innovation. By making its policies       if it is granted to the Postal Service.
                                                   broad and flexible, the OIG encourages innov-
                                                                                                       OIG Pioneers Computer Intrusion
                                                   ative thought and the development of improved
                                                                                                       Training
                                                   processes and procedures. These include:
                                                                                                            In cooperation with the National Aero-
                                                   ◆   forming interdisciplinary project teams of      nautics and Space Administration OIG, the
                                                       investigators, evaluators, statisticians, and   Postal OIG sponsored 9 two-week computer
                                                       attorneys for greater diversity and objec-      intrusion training courses. Over 250 investiga-
                                                       tivity;                                         tors, auditors, attorneys, and computer security
                                                   ◆   using technology-based teams for com-           officials in the Postal Service and in 25 other
                                                       puter intrusion, information systems            federal and local law enforcement agencies
                                                       audits, and electronic commerce;                received specialized training.
                                                   ◆   analyzing more data in a shorter time
                                                                                                       OIG Receives Combined Federal
                                                       through specialized teams that use com-
       The OIG received twelve awards, including                                                       Campaign Award
                                                       puter retrieval and system command lan-
       four Awards of Excellence from the                                                                   OIG was featured in the 1999 Combined
                                                       guages;
       Inspector General community for its work.                                                       Federal Campaign, “Catalog of Caring,” as a
                                                   ◆   using electronic work papers and devel-         “Pacesetter Award” winner, the only OIG so
                                                       oping automated investigative programs          recognized. The Pacesetter Award is given to an
                                                       that aid in the documentation and
                                                                                                       agency that achieves at least a 2.8 percent
                                                       analysis of data; and
                                                                                                       increase over the previous year’s results. In addi-


                                      PAGE 20      OVERVIEW
009_040_jdl 4/14/00 7:48 PM Page 21




       tion, the OIG received the Chairman’s Award,         responsibility of the Inspection Service. The
       which is the second highest award that can be        changes also describes the designation of audit
       issued to an agency for achieving 67 percent         and investigative functions between the OIG
       participation and a $225 per capita gift dona-       and the Inspection Service.
       tion.
                                                            Assistant Inspector General Receives
       New OIG Offices Established                          Award
            The OIG established new offices by                   Assistant Inspector General for Investiga-
       acquiring space and hiring staff in Atlanta,         tions Sylvia L. Owens received the “Breaking
       Georgia, and Denver, Colorado, and moved             the Glass Ceiling” Award from the National
       into permanent space in St. Louis, Missouri.         Center for Women and Policing. This award is
       The approval of the FY 2000 budget enables the       given to women who have been promoted into
       OIG to establish additional offices in Chicago,      executive positions in the federal, state, and
       Illinois; New York, New York; Los Angeles,           local law enforcement community.
       California; and Raleigh, North Carolina.
                                                            OIG Workplace Climate Survey Yields
       Inspector General Serves as Delegate to              Favorable Results
       Universal Postal Union                                     Over two-thirds of OIG employees volun-
             The Inspector General attended the 22nd        tarily participated in a workplace climate survey
       Universal Postal Union in China as an official       conducted by an expert in the law enforcement
       U.S. delegate in August 1999. She was accom-         field. The survey indicated that even though
       panied by the Assistant Inspector General for        the OIG is still a developing agency, it is a solid
       Audits, who attended the World Conference            organization, posting scores that compare favor-
       on Direct Mail at the same time. During this         ably to long-established government agencies
       visit, they were able to view the role of the        and Fortune 500 companies.
       Postal Service in the international arena first-
                                                            PROGRESS IN BUILDING THE
       hand.
                                                            OIG INFRASTRUCTURE
       OIG Successfully Enforces Subpoenas                       As the OIG has continued to build its
            The OIG continues its success in court          infrastructure, it established:
       enforcement of administrative subpoenas.             Human relations processes and systems,
       Generally, the OIG goes to court to compel a         including:
       party to comply with a subpoena after the party
                                                            ◆    a 360-degree feedback evaluation system;
       refuses to comply. In an unusual enforcement
       action, the OIG, together with the Department        ◆    an interim pay-for-performance system;
       of Justice, successfully overturned a court’s pre-   ◆    an extensive screening process for poten-
       liminary injunction obtained by the subject of            tial new employees;
       an investigation to prevent the OIG from sub-        ◆    a thorough pre-employment background
       poenaing information from the subject’s data              investigation process;
       processor.
                                                            ◆    10 one-week orientation classes for new
       Notification to Postal Service Employ-                    employees;
       ees of OIG Roles and Authorities                     ◆    a biweekly employee newsletter; and
            In a joint effort, the OIG and the Inspec-      ◆    a three-week Postal-specific investigative
       tion Service updated the Postal-wide guidance             training program.
       published in the Administrative Support Man-
       ual to reflect the responsibilities of the OIG.      Administrative resources services, including:
       The chapter, entitled “Audits and Investiga-         ◆    placement of management controls over
       tions,” appeared in the July 1999 edition of the          its internal processes;                          Chapter 2 describes the OIG’s audit
       manual. Specifically, the changes identify the       ◆    development of its own contracting               and investigation responsibilities.
       OIG as an independent entity with the author-             function;
       ity and responsibility to conduct audits and
                                                            ◆    establishment of OIG offices by identify-
       investigations as well as having oversight
                                                                 ing, leasing, and developing space to


                                                                                                                  PAGE 21
009_040_jdl 4/14/00 7:48 PM Page 22




                                                      accommodate OIG staff in various loca-            employees;
                                                      tions throughout the country;                 ◆   detailing a member of the OIG staff to
                                                  ◆   performance of numerous quality assur-            the Office of Management and Budget to
                                                      ance and internal reviews; and                    serve as a technical expert on Inspector
                                                  ◆   implementation of an automated system             General matters; and
                                                      that tracks work hours and projects.          ◆   establishing computer intrusion and
                                                                                                        electronic commerce units.
                                                  Critical audit, investigative, and administra-
                                                  tive processes, including:
                                                                                                    CHALLENGES FACING THE OFFICE
                                                  ◆   developing internal policies for describ-     OF INSPECTOR GENERAL
                                                      ing OIG authorities and responsibilities;          A developing Postal Service OIG has
                                                  ◆   continuing to notify Postal employees at      numerous challenges, the majority of which fall
                                                      all levels of their right to report wrong-    into three broad categories: OIG infrastructure,
                                                      doing to OIG without fear of retaliation;     internal to the Postal Service, and external to
                                                  ◆   engineering an electronic subpoena sys-       the Postal Service. As the OIG looks to the
                                                      tem to improve processing of Inspector        future, the key challenges in these categories
                                                      General administrative subpoenas;             are:
                                                  ◆   deploying a report processing review staff    OIG Infrastructure:
       OIG has established quarterly firearms         to expedite and standardize issuance of       ◆   hiring additional talented and diverse
       training for its criminal investigators.       reports;                                          staff;
                                                  ◆   working with the Postal Service to ensure     ◆   building its processes, policies, and proce-
                                                      the development of a valid tracking sys-          dures;
                                                      tem for recommendations from the exter-       ◆   promoting its values and culture; and
                                                      nal auditor, General Accounting Office,
                                                      Inspection Service, and OIG;                  ◆   continuing to forge ahead with its mis-
                                                                                                        sion while being sensitive to the variety
                                                  ◆   entering into an agreement with the               of extensive demands that are being
                                                      Financial Crimes Enforcement Network              placed on its employees in its evolving
                                                      to access numerous commercial, finan-             environment.
                                                      cial, and law enforcement databases to
                                                      help with criminal financial investiga-       Internal to the Postal Service:
                                                      tions and audits;                             ◆   continuing to add value by providing
                                                  ◆   processing over 40 Freedom of Informa-            meaningful results on a timely basis;
                                                      tion Act requests and closing 50 Con-         ◆   educating Postal Service management on
                                                      gressional responses;                             the independence of the OIG and its
                                                  ◆   issuing 143 subpoenas (103 for the                duty to report any significant issues to
                                                      Inspection Service and 40 for the OIG);           the Postal Service Governors and Con-
                                                      and                                               gress;
                                                  ◆   providing quarterly firearms qualifications   ◆   resolving differences, including those
                                                      and defensive tactics training to OIG             concerning authority, roles, and responsi-
                                                      criminal investigators.                           bilities of OIG and the Inspection
                                                                                                        Service;
                                                  Strategic processes, including:
                                                                                                    ◆   maximizing the impact of OIG work
                                                  ◆   revising OIG’s five-year Strategic Plan;          by instituting effective resolution
                                                  ◆   developing a universe of over 1,000 pro-          processes to enable Postal management
                                                      jects;                                            to better respond to audit findings and
                                                  ◆   preparing the FY 2000 Annual Perfor-              recommendations;
                                                      mance Plan;                                   ◆   informing Postal Service officials of
                                                  ◆   achieving over 80 percent of the perfor-          OIG’s authority to make independent
                                                      mance measurements for FY 1999, which             decisions on areas to review; and
                                                      resulted in a Team Award for OIG


                                        PAGE 22   OVERVIEW
009_040_jdl 4/14/00 7:48 PM Page 23




       ◆      performing work and continuing to gain
              expertise in Postal Service programs,
              operations, and emerging issues.
       External to the Postal Service:
       ◆      making the results of OIG’s work
              publicly available without affecting the
              Postal Service’s competitive position;
       ◆      educating Postal stakeholders on the
              OIG role;
       ◆      continuing to establish the OIG as a
              significant player in the Inspector
              General and federal law enforcement
              communities; and
       ◆      effectively dealing with Hotline and
              Congressional inquiries.




                                                                                        US Postal Service Areas
                                                                                        Districts, Employess and Facilities
                                                                                                                                                                                                                                                             NORTHEAST
                                                                                                                                                                                                                                                                                                              MAINE

                 ALASKA




                                                                              WESTERN                                                 MID-WEST                                                                                                                                              VT



                                                WASHIN
                                                                                                                                                                                                    GREAT LAKES                                                                                          NH
                                                      GTON
                                                                                                                                                                                                                                                                                                   MA
                                                                                                                                N. DAKOTA
                                                                                                                                                       MINNESOTA
                                                                                            MONTANA                                                                                                                                                                                                 CT        RI
                                                                                                                                                                                                                                                               NEW YORK

                                                                                                                                                                                       WISCONSIN



                                                                                                                                                                                                                                                             ALLEGHENY
                                                                      IDAHO
                                       OREGON
                                                                                                                                S. DAKOTA




                                                                                                                                                                                                                                                                                                                        NEW YORK METRO
                                                                                                                                                                                                                                                NIA
                                                                                                                                                                                                                                     PENNSYLVA
                                                                                                                                                                                                                                                                                      NIA
                                                                                                       WYOMING                                                                                                            MICHIGAN                                          PENNSYLVA
                                                                                                                                                                   IOWA                              ILLINOIS
                                                                                                                               NEBRASKA                                                                                                               OHIO
                                                                                                                                                                                                                    INDIANA

                                                    NEVADA
                          CALIFO                                                 UTAH
                                RNIA

                                                                                                                                                                                                                                                                                                                         NJNJ
                                                                                                                                                               MISSOURI                                                                                                                           MD
                                                                                                                                            KANSAS                                                                                                                                                                 DE
                                                                                                          COLORADO
                                                                                                                                                                                                                                                                    W. VA




                                                                                                                                                                                                                                                                                                 VIRGINIA
                                                                                                                       OKLAHOMA
                                                                                                                                                                                                                                            KENTUCKY
                                                                              ARIZONA                                                                                       ARKANSAS                                                                                        N. CAROLINA

                                                                                                      NEW MEXICO

                                                                                                                                                                                                                                                                  S. CAROLINA
                                                                                                                                                                                                                    TENNESSEE



                                                                                                                                                                                                                                      GEORGIA
                                                                                                                                                                                                     MISSISSIPPI    ALABAMA
                                                                                                                       TEXAS


                                                                                                                                                                                                                                                                                          MID-ATLANTIC
                PACIFIC                                                                                                                                                   LOUISIANA
                                                                                                                                                                                                                           FLORIDA
                                                             HAWAII




                                                                                                                                                                                                                   SOUTHEAST

                                                                                                            SOUTHWEST
                                                                                                                                                                                                                                                                                                         PUERTO RICO



                                       DISTRICTS                                        EMPLOYEES                    FACILITIES                                                                    DISTRICTS                                          EMPLOYEES                                                         FACILITES

              Allegheny                                      10                             89,513                    3,960                           Northeast                                                     9                                         75,742                                                    3,506
              *Mid-Atlantic                                  9                            104,606                     4,798                           Pacific                                                      10                                        100,562                                                    2,348
              Great Lakes                                    7                              89,555                    2,899                           Southest                                                      9                                        103,949                                                    3,877
              Mid-West                                       7                              91,084                    6,391                           Southwest                                                     7                                         86,014                                                    4,205
              New York Metro                                 7                              83,803                    1,780                           Western                                                      10                                         78,629                                                    3,956
                                                                                                                                                                               TOTALS                              85                                   903,457                                                37,720
           (*Includes Capitol Metro & HQ's, Related REC)                                                                                             Facilities data as of end of 9/27/99; Employee data as of 9/24/99



       This chart illustrates the magnitude of Postal Service operations and the workforce that OIG reviews.




                                                                                                                                                                                                                                                                                                                                         PAGE 23
009_040_jdl 4/14/00 7:48 PM Page 24




                                                                                                       Inspectors, uniformed Postal Police Officers
                                                  INSPECTION SERVICE                                   provide security around the clock at Postal facil-
                                                       For more than two centuries, the role of        ities. Postal Police Officers, located at facility
                                                  the Inspection Service has been to preserve the      control centers, monitor robbery and burglar
                                                  public trust in the Postal Service. The Inspec-      alarms to provide protection for Postal employ-
                                                  tion Service enforces over 200 statutes related      ees, property, and assets. The Postal Police Offi-
                                                  to crime against the U.S. mail, the Postal Ser-      cers also provide escorts for the Postal Service
                                                  vice, and Postal employees and customers. The        for high-valued shipments, such as certain reg-
                                                  Inspection Service’s mission has been refined        istered mail and Postal remittances.
                                                  over the years by statutes related to the U.S.             Postal Inspectors work cooperatively
                                                  mail, creation of a separate OIG, and the needs      nationwide with the OIG; Department of
                                                  and requirements of the Postal Service and its       Justice; and other federal, state, and local law
                                                  customers. Through investigations and audits,        enforcement agencies. The expertise of the
                                                  the Inspection Service provides an essential ser-    Inspection Service is recognized internationally,
                                                  vice to the American public and the Postal Ser-      with Inspectors assigned to the U.S. National
                                                  vice. The Inspection Service has almost 4,500        Central Bureau of Interpol in Washington,
                                                  employees, which includes over 2,100 Postal          D.C., and to Interpol Headquarters in Lyon,
                                                  Inspectors, over 1,500 uniformed Postal Police       France. The Inspection Service has a leading
                                                  Officers, and almost 850 professional support        role within the Universal Postal Union, which
                                                  associates.                                          has established the following priorities:
                                                       The national headquarters of the Inspec-        ◆   prevent injuries to customers resulting
                                                  tion Service is organized into functional groups         from dangerous goods in the mail;
                                                  that report to the Deputy Chief Inspectors for:
                                                                                                       ◆   prevent the loss or theft of mail entrust-
                                                  ◆    Business Investigations;                            ed by customers to world Postal adminis-
                                                  ◆    Criminal Investigations;                            trations;
                                                  ◆    Professional Standards & Resource               ◆   prevent revenue and asset losses of world
                                                       Development; and                                    Postal administrations; and
                                                  ◆    Administration.                                 ◆   preserve customers’ confidence in the
                                                                                                           mail.
                                                       The Inspection Service includes 23 field
                                                  divisions that report directly to two Deputy         Postal Inspectors are active members in coun-
                                                  Chief Inspectors for Field Operations. The field     cils and groups, such as the:
                                                  offices are also supported by five Operations        ◆   Financial Crimes Enforcement Network;
                                                  Support Groups. The Inspection Service               ◆   Organized Crime Council;
                                                  Forensic Laboratories, located at five sites, sup-
                                                                                                       ◆   International Policy Committee of the
                                                  port field office investigations and provide
                                                                                                           International Association of Chiefs of
                                                  state-of-the-art technology. Inspection Service
                                                                                                           Police;
                                                  offices are linked nationally through electronic
                                                  systems with on-line connections to the              ◆   International Association of Financial
                                                  National Crime Information Center and the                Crimes Investigations;
                                                  National Law Enforcement Telecommunica-              ◆   Securities and Commodities Fraud
       Postal Police Officers play an integral    tions System.                                            Working Group;
       role in protecting Postal employees,
                                                       Postal Inspectors conduct criminal investi-     ◆   Economic Crimes Council;
       facilities, and assets.
                                                  gations, perform audits delegated to them from
                                                                                                       ◆   National Health Care Anti-Fraud Asso-
                                                  the OIG, make arrests for Postal offenses, serve         ciation;
                                                  warrants and subpoenas, and present evidence
                                                                                                       ◆   National Law Enforcement Explorers’
                                                  to prosecutors for action. Inspectors respond to
                                                                                                           Committee; and
                                                  emergencies involving Postal Service crimes,
                                                  natural disasters, and other problems that affect    ◆   Asset Forfeiture Policy Advisory Group.
                                                  the Postal Service.                                  Postal Inspectors also work with the following
                                                       Along with the coverage of the Postal           organizations regarding child pornography


                                        PAGE 24   OVERVIEW
009_040_jdl 4/14/00 7:49 PM Page 25




       cases: the Child Exploitation and Obscenity          schemes, such as the credit card industry, the
       Section of the Department of Justice; the            mail-in rebate industry, and the mail order
       National Center for Missing and Exploited            industry.
       Children; and the Standing Working Party on
                                                            Postal Inspector Receives Officer of the
       Offenses Against Minors, which is an interna-
                                                            Year Award
       tional organization sponsored by Interpol.
                                                                 Postal Inspector Robert C. Adams of the
            The Inspection Service’s forensic specialists   Southwest Division was presented with the
       and technical financial analysts play a vital role   Officer of the Year Award in May 1999 by
       in supporting investigative, audit, and security     Attorney General Janet Reno. Inspector
       functions of the Inspection Service. These pro-      Adams was recognized for his outstanding work
       fessional technical employees perform a variety      in investigating a child sex ring that sexually
       of tasks, which include:                             abused minors, videotaped the abuse, and dis-
       ◆   Providing forensic examinations;                 tributed the tapes across the country. As a result
                                                            of the investigation, eight men were charged in
       ◆   Developing, procuring, and deploying
                                                            federal and state courts for abusing at least 16
           electronic security and surveillance
           equipment;                                       children, although the exact number may never
                                                            be known.
       ◆   Providing photography, video, and graph-
           ics support;                                     Postal Inspector Receives Federal Bar
       ◆   Publishing policies, reports, manuals,           Association Achievement Award
           handbooks, and consumer publications;                 Postal Inspector Joseph Taranto of the
                                                            Southern California District received the Feder-
       ◆   Developing and maintaining manage-
                                                            al Bar Association’s Distinguished Achieve-
           ment systems;                                                                                         Kenneth Hunter retired after serving as
                                                            ment Award for his dedication to excellence
       ◆   Providing direct contact with Congress                                                                Chief Postal Inspector from 1992 to
                                                            and skilled leadership in investigating two car      1999.
           and the public; and                              bombings and identifying suspects within 48
       ◆   Supplying administrative support.                hours. Thanks to Inspector Taranto’s efforts,
            Kenneth J. Hunter, who was appointed            the suspect was convicted on all six counts,
       Chief Postal Inspector in 1992, announced that       including mailing a deadly explosive device, as
       he would retire in October 1999 to pursue a          well as for the two car bombings. The suspect
       career in the private sector. Kenneth C.             was sentenced to two life terms, plus 10 years.
       Weaver, who has worked for the Postal Service        Postal Inspection Service Videos
       for over 28 years as an Assistant Secretary to the   Receive Telly Awards
       Board of Governors and as a Postal Inspector,              A video produced by the Inspection
       has been appointed by the Postmaster General         Service won a silver Telly Award and 4 others
       as the new Chief Postal Inspector.                   earned bronze awards, given in recognition for
       NOTABLE INSPECTION SERVICE                           outstanding non-network television commer-
       ACHIEVEMENTS                                         cial, film and video productions. The award-
                                                            winning video, entitled “Little Favor, Big
       Former Chief Postal Inspector Honored                Mistake,” was distributed to bank tellers nation-
            Former Chief Postal Inspector Kenneth J.        wide to alert them to deceptive techniques used
       Hunter was chosen as the 1999 recipient of the       to secure cash advances from stolen credit cards.
       Cressey Award, the Association of Certified          Other bronze award-winning videos dealt with
       Fraud Examiners’ highest honor. Bestowed             polygraphs, mail security, and job scams.
       annually to signify lifetime achievement in the
       detection and deterrence of fraud, the award
       was named after one of the country’s foremost
       experts on fraud, who was a founding father of
       the association. Under Mr. Hunter’s direction,
       the Inspection Service initiated partnerships
       with national groups most affected by fraud


                                                                                                                   PAGE 25
009_040_jdl 4/14/00 7:49 PM Page 26




                              PAGE 26   OVERVIEW
009_040_jdl 4/14/00 7:49 PM Page 27




                                      Organization




                                        DID YOU
                                        KNOW?
                                       What are the locations of the OIG
                                       Headquarters and field offices?
                                       The OIG is headquartered in Rossyln, VA, and its
                                       other major office is the Western Duty Station in
                                       Dallas, TX. Other OIG field offices are located in
                                       Atlanta, Minneapolis, St. Louis, San Mateo, and
                                       Denver. OIG plans to open offices in Chicago,
                                       New York, Raleigh, and Los Angeles.




                                                                                  PAGE 27
009_040_jdl 4/14/00 7:49 PM Page 28




                                                    Office of Inspector General

                                                                          AL                                             INSPECTOR
                                                                       NER                                            NT
                                                                     GE                                            ST
                                                                                                                     A STRATEGIC EN
                                                                                                                                   G
                                                                   R
                                                                  O AUDITS                                       SI    PLANNING




                                                                                                                                                      ER
                                                                                                         AS
                                                             CT




                                                                      Richard Chambers                                 & QUALITY




                                                                                                                                                        AL
                                                           PE




                                                                      Deputy Robert Emmons                             MANAGEMENT
                                                SISTANT INS




                                                                      Deputy Colleen McAntee                           Ronald Merryman
                                                                      Accepting/Processing
                                                                                                                       Deputy Wayne Goleski
                                                                      (Vacant)
                                                                                                                       Electronic Commerce
                                                                      Delivery
                                                                                                                       Robert Batta
                                                                      Bennie Cruz                                      Forensic & Technical Services
                                                                      Developmental                                    John DeMaggio
                                                                      Tracy LaPoint                                    Information Technology
                                                                      Financial Audit                                  David Sidransky
                                              AS




                                                                      John M. Seeba                                    Internal Quality
                                                                      Support                                          Jim Nugent
                                                                      Gwen Johnson                                     Quality Assurance/Internal Affairs
                                                                      Transportation                                   George Davis
                                                                      Debra Ritt                                       Strategic Planning
                                 AL                                                                                    Russ Barbee
                               ER
                             EN
                                                                                                                                                     EMPLOYEE
                                G




                                    INVESTIGATIONS
                             OR




                                                                                                                                                     Billy Sauls
                                    Sylvia L. Owens                                        INSPECTOR                                                 Deputy Ronnie Wainwright




                                                                                                                                                                                          R G E N ER AL
                    T INSPECT




                                    Deputy Ronald K. Stith                                 GENERAL                                                   Administrative Resources
                                    Deputy Richard S. Trinidad                             Karla W. Corcoran                                         Alan Lamoreaux
                                    Contracts
                                                                                           Special Assistant                                         Human Resources
                                    Kim Stroud
                                                                                           (Vacant)                                                  Connie Ambush
                                    Facilities
                                    Anthony T. Cannarella                                  Executive Assistant                                       Information Systems
                  AN




                                    Healthcare Fraud                                       Cindy Monahan                                             David I. Berran                     TO
                                    Katherine K. Johnson                                                                                             Labor Management
                ST




                                    Revenue Generation                                                                                               Joyce Hansen
                                                                                                                                                                                         EC
               I




                                    (Vacant)
              S




                                                                                                                                                     Chris Nicoloff
             S




                                    Revenue Protection
                                                                                                                                                                                    SP
            A




                                    Dan O'Rourke
                                                                                                                                                                                    IN
                                    Mike Shiohama
                                                                                                                                                                      N         T
                                                                                                                    CUSTOMER                                  ASSISTA
                                                                                                                    Norm Hancock
                                                                   GENERAL                                          Deputy Debra Pettitt
                                                                   COUNSEL TO THE                                   Computer Intrusion
                                                                   INSPECTOR                                        Howard Cox
                                                                                                                                                              E N ER AL




                                                                   GENERAL                                          Consulting Services
                                                                                                                    (To be established in FY 2001)
                                                                   Thomas Coogan
                                                                                                                    Executive Investigations
                                                                   Congressional                                    Tommy Hampton
                                                                   and Public Relations
                                                                                                                                                           RG




                                                                   Laura A. Whitaker                                Hotline
                                                                                                                    Joe Oliva
                                                                   Legal Services
                                                                                                                    Oversight
                                                                                                                                                          TO




                                                                   Kirt West
                                                                                                                    Bob Pemberton
                                                                                                                                                     EC




                                                                                                                    Quick Response
                                                                                                                    (To be established in FY 2001)   SP
                                                                                                                                   IN
                                                                                                                         ASSISTANT




                                               PAGE 28                 ORGANIZATION
009_040_jdl 4/14/00 7:49 PM Page 29




       The following section describes the                 QUALITY ASSURANCE/INTERNAL
       organization of the OIG and the Inspection          AFFAIRS TEAM
       Service. The OIG is organized consistent            Director, George Davis - conducts internal
       with the three voices of the Postal Service         reviews of OIG operations and procedures to
       CustomerPerfect! Program: Voice of the              ensure that they are effective and appropriate,
       Customer, Voice of the Employee, and                provides advice on improving operations, and
       Voice of the Business. The Inspector                conducts reviews of allegations made against
       General, General Counsel, the five                  OIG employees.
       Assistant Inspectors General, and the
       seven Deputy Assistant Inspectors General           STRATEGIC PLANNING TEAM
       form the OIG Management Committee.                  Director, Russ Barbee - anticipates and
                                                           plans for current and future changes in the
                                                           Postal Service, OIG operations, and technolo-
                                                           gy by identifying workload, providing research
       OFFICE OF INSPECTOR                                 and statistical analyses, informing Postal Ser-
       GENERAL                                             vice employees and customers about the OIG         Deputy Assistant Inspectors General
                                                           mission, and promoting the vision of the OIG.      Wayne Goleski, Debra Pettitt, Richard
       ASSISTANT INSPECTOR GENERAL                                                                            Trinidad, Ronnie Wainwright, Ronald Stith,
       FOR STRATEGIC PLANNING &                                                                               Colleen McAntee, and Robert Emmons.
                                                           ASSISTANT INSPECTOR GENERAL
       QUALITY MANAGEMENT,                                 FOR AUDITS (PERFORMANCE),
       Ronald Merryman                                     Richard Chambers
       Deputy Assistant Inspector General,                 Deputy Assistant Inspectors General,
       Wayne Goleski                                       Robert Emmons and Colleen McAntee
       ELECTRONIC COMMERCE TEAM                            ACCEPTING AND PROCESSING TEAM
       Director, Robert Batta - conducts reviews           Director, (Vacant) - conducts audits and
       of Postal Service initiatives in the emerging       reviews focusing on mail acceptance and col-
       field of electronic commerce, including areas       lection operations, and mail processing and dis-
       such as information-based indicia and electron-     tribution processes.
       ic bill payment.
                                                           DELIVERY OPERATIONS TEAM
       FORENSIC AND TECHNICAL SERVICES
                                                           Director, Bennie Cruz - conducts audits and
       TEAM
                                                           reviews to enhance delivery processes and oper-
       Director, John DeMaggio - provides tech-            ations and to improve customer satisfaction.
       nical support in such areas as surveillance, evi-
       dence recovery, firearms, computer forensics,       DEVELOPMENTAL TEAM
       and polygraph examinations; and maintains           Director, Tracy LaPoint - conducts audits
       close liaison with technical experts in the law     and reviews of new or redesigned Postal Service
       enforcement community.                              systems, programs, and operations that are
                                                           under development.
       INFORMATION TECHNOLOGY TEAM
       Director, David Sidransky - manages com-            FINANCIAL TEAM
       puter operations and telecommunications             Director, John M. Seeba - conducts audit
       within the OIG; operates the local and wide-        work in support of the independent public
       area networks; provides computer security and       accounting firm’s annual financial audit opin-
       technical support to OIG staff; and manages         ion and conducts other financial-related audits
       agency-wide information systems.                    to identify areas for improvement.
       INTERNAL QUALITY TEAM
       Director, Jim Nugent - instills continuous
       internal process improvement and facilitates
       internal communications through orientation,
       teambuilding, and mentoring.

                                                                                                                PAGE 29
009_040_jdl 4/14/00 7:49 PM Page 30




                                             SUPPORT TEAM                                          REVENUE PROTECTION TEAMS
                                             Director, Gwen Johnson - provides inves-              Directors, Dan O’Rourke and
                                             tigative support to all Performance teams, and        Mike Shiohama - investigates, bribery, kick-
                                             conducts audits and reviews of the Postal Ser-        backs, embezzlement, and other cases involv-
               DID YOU                       vice enabling operations to include quality,          ing revenue losses and contract fraud, such as
               KNOW?                         government relations, and customer service.           defective pricing, product substitution, and
                                                                                                   cost mischarging.
                                             TRANSPORTATION TEAM
       How many employees work               Director, Debra Ritt - conducts audits and            ASSISTANT INSPECTOR GENERAL
                                             reviews focusing on domestic and internation-         FOR EMPLOYEE, Billy Sauls
       for the OIG?                          al transportation, and logistics operations,          Deputy Assistant Inspector General,
       As of September 30, 1999, OIG         specifically addressing Postal Service fleet oper-    Ronnie Wainwright
                                             ations and contracts for airline, highway, and
       had 403 employees onboard.                                                                  ADMINISTRATIVE RESOURCES TEAM
                                             rail services.
       OIG plans to hire an additional                                                             Director, Alan Lamoreaux - provides the
                                             ASSISTANT INSPECTOR GENERAL                           OIG staff with facility, procurement, financial,
       245 staff in the next 12 months.
                                             FOR INVESTIGATIONS (REVENUE                           budget, and other services necessary to accom-
                                             & COST CONTAINMENT),                                  plish the OIG mission.
                                             Sylvia L. Owens
                                             Deputy Assistant Inspectors General,                  HUMAN RESOURCES TEAM
                                             Ronald K. Stith and Richard S. Trinidad               Director, Connie Ambush - delivers full-
                                                                                                   service human resources programs for the OIG
                                             CONTRACT AUDIT TEAM
                                                                                                   in the areas of employee relations, ethics, pay
                                             Director, Kim Stroud - improves Postal Ser-           and benefits, retirement, awards, performance
                                             vice contracting by conducting audits and             management, counseling, diversity opportuni-
                                             investigations of purchasing activities and           ties, and training.
                                             operations.
                                                                                                   INFORMATION SYSTEMS TEAM
                                             FACILITIES TEAM
                                                                                                   Director, David I. Berran - audits major
                                             Director, Anthony T. Cannarella -                     automated Postal management and informa-
                                             conducts audits, management reviews, and              tion systems to determine Y2K readiness, and
                                             investigations of all aspects of facilities includ-   whether applications are properly established
                                             ing repair, renovation, and new construction.         and systems are properly designed to provide
                                                                                                   accurate data to management; and provides
                                             HEALTH CARE TEAM
                                                                                                   computer assisted audit techniques to support
                                             Director, Katherine K. Johnson - identi-              OIG staff.
                                             fies and investigates medical providers that
                                             have falsely billed the Postal Service for work-      LABOR MANAGEMENT TEAMS
                                             related injury claims, and conducts audits of         Directors, Joyce Hansen and
                                             systemic issues involving the Workers’ Com-           Chris Nicoloff - conduct audits and evalua-
                                             pensation Program.                                    tions of labor management and employee rela-
                                                                                                   tions issues within the Postal Service to assist
                                             REVENUE GENERATION TEAM
                                                                                                   in fostering and maintaining a healthy organi-
                                             Director, (Vacant) - examines and evaluates           zational climate for employees and improving
        “Practice makes perfect” when        the major sources of revenue from marketing,          operational efficiency; also audits and evaluates
        executing law enforcement
                                             advertising, stamp services, retail, and interna-     Postal Service systems and operations involv-
        responsibilities.
                                             tional mail business operations, and also moni-       ing violence prevention.
                                             tors Postal rate cases.




                                   PAGE 30   ORGANIZATION
009_040_jdl 4/14/00 7:49 PM Page 31




       ASSISTANT INSPECTOR GENERAL                          GENERAL COUNSEL TO THE
       FOR CUSTOMER, Norm Hancock                           INSPECTOR GENERAL,
       Deputy Assistant Inspector General,                  Thomas Coogan
       Debra Pettitt                                        CONGRESSIONAL AND PUBLIC
                                                            RELATIONS TEAM
       COMPUTER INTRUSION TEAM
                                                            Director, Laura A. Whitaker - serves as
       Director, Howard Cox - detects and investi-
                                                            liaison to Congress, the Board of Governors,
       gates “computer hacking” and other high-tech-
                                                            and the media; coordinates congressional testi-
       nology crimes involving Postal Service com-
                                                            mony and presentations; reviews legislation
       puters and telecommunications systems; and
                                                            and regulations; coordinates internal policies
       assists in identifying computer systems vulnera-
                                                            and procedures; and reviews and comments on
       bilities so that appropriate counter-measures
                                                            Postal Service policies and procedures.
       may be implemented.
                                                            LEGAL SERVICES TEAM
       CONSULTING SERVICES TEAM
                                                            Director, Kirt West - provides legal advice
       Director, (Vacant) - will assist Postal Service
                                                            to the Inspector General and OIG staff on
       management by identifying best practices for                                                           Teams include various disciplines, which
                                                            criminal, civil, and administrative issues;
       improving the effectiveness of Postal Service                                                          provide OIG a synergistic approach to
                                                            processes subpoenas; responds to Freedom of
       operations. (This team will be established in                                                          accomplishing tasks.
                                                            Information and Privacy Act requests; and
       FY 2001.)
                                                            serves as liaison with the Postal Service Law
       EXECUTIVE INVESTIGATIONS TEAM                        Department and Department of Justice legal
                                                            staffs.
       Director, Tommy Hampton - investigates
       allegations of criminal activities and miscon-
       duct involving Postal Service executives.

       HOTLINE TEAM
       Director, Joe Oliva - operates the OIG Hot-
       line to provide a vital and confidential com-
       munication link between the Postal Service
       and the public.

       OVERSIGHT TEAM
       Director, Bob Pemberton - conducts audits
       and evaluations of Inspection Service programs
       and operations.

       QUICK RESPONSE TEAM
       Director, (Vacant) - will evaluate critical, time-
       sensitive issues. This team will assist in
       responding to requests from Congress and the
       Governors. (This team will be established in
       FY 2001.)




                                                                                                                PAGE 31
009_040_jdl 4/14/00 7:49 PM Page 32




                                            Newly appointed Chief Postal Inspector
                                            Kenneth C. Weaver is the 34th Chief
                                            Postal Inspector.




                 Inspection Service Organizational Structure
                                                                                                  Chief Postal Inspector
                                                                                                       K. C. WEAVER



         Inspector in Charge   Deputy Chief Inspector     Deputy Chief Inspector    Deputy Chief Inspector     Deputy Chief Inspector      Deputy Chief Inspector   Deputy Chief Inspector   Inspector in Charge
          Officer of Counsel      Administration          Business Investigations   Criminal Investigations     Field Operations East      Field Operations West      Prof. Standards &      Office of Inspections
                                                                                                                                                                        Resource Dev.
         H. J. BAUMAN              J. K. BELZ                   A. KIEL                   (Vacant)             L. S. CRAWFORD                J. J. DUPILKA            D. P. WRIGHT           J. M. SOMERSET


                AIC                    INC                         INC                       INC                 Inspectors in Charge       Inspectors in Charge            INC
           Deputy Counsel       Finance and Admin.               Financial               International                 Florida -                Gulf Coast -          Strategic Plng. &              AIC
              Z. HILL                Services                T. DENNENY                   D. HILL                    M. GREY                    R. DODD              Management Process         E. CRESPO
                                  M. MUNLEY                                                                                                                          J. STINCHFIELD
                                                                                                                      Mid Atl. -                 Michigan -
                AIC                                                INC                       INC                 A. CRAWFORD                 W. MITCHELL
                                                                                                                                                                            INC
           Deputy Counsel              INC                     Performance                  Security                 NY Metro -                  Midwest -             Career Develop.
             L. KATZ                Congressional           A. CLEMMONS                 F. MARION                   L. HEATH                   R. TERLEP                  Division
                                   & Public Affairs
                                                                                                                                                                       C. MURPHY
                                  D. MIHALKO                        INC                                         North Jersey/Caribbean -         No. Calif. -
                                                             Fraud, Child Expl.              INC                  J. SKIDMORE                   D. DAVIS
                                                                  & Asset               Mail Theft &                                                                  Manager Workforce
                                        INC                                             Violent Crimes               Northeast -                No. Illinois -
                                                               Forfeiture Grp.                                      M. AHERN                     I. GILLIS             Strategic Plng.
                                    Information                                          J. ROWAN
                                                             L. MAXWELL                                                                                                N. ARROYO
                                    Technology                                                                   Philadelphia Metro -           Northwest -
                                   R. COCCIA                                                                     B. CHAMBERS                  R. MORGAN
                                                                   INC                       INC                                                                           Manager
                                                              Revenue Assets           Forensic & Tech.               Southeast -            Rocky Mountain -           Exec. Resources
                                        INC                   Protection Prog.             Services                  I. CARIFE                  M. COBOS               and Ldrship. Dev.
                                Corporate Information                                      Division
                                                           S. SCHMERBECK                                         Washington Metro -              So. Calif. -           E. LUCERO
                                    Management                                           R. GEFFEN
                                    R. LUERS                                                                         (Vacant)                 J. FREEMAN
                                                                 Manager                   INC                     W. Allegheny -                Southwest -          Manager Employee
                                                                 ISOSG               Computer Crimes &            K. NEWMAN                    A. HOLMES                Development
                                      Managers                   Chicago                Commerce                                                                       N. JOHNSON
                                      ISOSGs
                                                              D. HARRIS
                                                                                         J. EASLEY
                                    Bala Cynwyd                                                                                                                        Manager Training
                                    L. KLAUS                                                                                                                             Assessment
                                                                                           AIC                                                                           S. CLARK
                                       Newark                                         Money Laundering
                                 V. BELLINGER                                          & Bank Secrecy
                                                                                         C. GIUSTI
                                  So. San Francisco
                                 K. PARAMORE
                                                                                           Manager
                                                                                            IS0SG
                                                                                           Memphis
                                                                                        L. BROOKS




       AIC - Assistant Inspector in Charge
       INC - Inspectors in Charge
       ISOSG - Inspection Service Operations Support Groups




                                                PAGE 32          ORGANIZATION
009_040_jdl 4/14/00 7:49 PM Page 33




                                      OIG Goals




                                        DID YOU
                                        KNOW?
                                       What are the OIG “values”?
                                       The OIG’s values are teamwork,
                                       leadership, creativity, communication,
                                       and conceptualization, and are
                                       incorporated into a 360-degree
                                       employee evaluation system
                                       nicknamed “TLC3.”




                                                                                PAGE 33
009_040_jdl 4/14/00 7:49 PM Page 34




                                                                                                                 ◆ level of Postal Service labor and capital
                                                           The following section describes the OIG
                                                                                                                  resources;
                                                           vision and goals for assisting the Postal
                                                         OUR VISION
                                                           Service in achieving its operational,                 ◆ impact on Postal-wide operations and
                                                                                                                  goals; and
                                                         Aperformance,
                                                            constellationand    financial goals
                                                                            of talented   peopleinto the
                                                                                                  making
                                                           21st  century.
                                                         a difference.     In  addition, this section            ◆ degree of sensitivity and level of visibility.
                                                           describes the process by which the OIG                    OIG management selected the highest
                                                              To achieve this vision, we have identified
                                                           translates its vision into an annual                priority projects for inclusion in the annual per-
                                                         goals and measures by which to gauge our
                                                           performance plan.                                   formance plan, the second component of its
                                                         progress.
                                                                                                               planning process. For FY 2000, this plan con-
     Planning System                                     STRATEGIC GOALS                                       sists of over 200 projects, many of which are
     Interrelationships                                                                                        identified in the Major Management Chal-
                                                               In January 1998, the OIG issued its first
                                                                                                               lenges section of this report. The third compo-
                                                         five-year strategic plan. As a result of its dynam-
     POSTAL                                                                                                    nent is the OIG audit workload plan, which is
                         ANNUAL               AUDIT      ic, internal operations and the changing envi-
     PROJECT             PERFORMANCE          WORKLOAD                                                         extracted from the annual performance plan.
     UNIVERSE            PLAN                 PLAN       ronment of the Postal Service, the OIG is revis-
                                                                                                               This audit workload plan, which includes
                                                         ing its five-year strategic plan.
                                                                                                               Inspection Service audits, is presented to the
                                                               In the published Strategic Plan for FYs
      AUDITS & AUDIT RELATED PROJECT                                                                           Postal Governors each year.
                                                         1998-2002, three external and three internal
      INVESTIGATIONS

      OTHER PROJECTS
                                       CONSULTING
                                       QUICK RESPONSE
                                                         goals aligned with each of the Postal Service’s       THE ROAD AHEAD
                                       FACT-FINDINGS     CustomerPerfect! goals were identified. The
      INTERNAL ENABLING FUNCTIONS                        revised plan will reflect one external and one             As the OIG expands its infrastructure, it
                                                         internal goal aligned with the CustomerPerfect!       will transition its focus to more intensive pre-
                                                         goal that reduces the amount of duplication           vention and detection of fraud, waste, abuse,
                                                         between goals. These five-year goals are:             and mismanagement, as well as the promotion
                                                                                                               of effectiveness, efficiency, and economy
                                                         External Goal                                         throughout the Postal Service. The OIG will
                                                           Enhancing the Postal Service’s:                     continue to work with the Inspection Service to
                                                           ◆ customer service and value,                       transition additional responsibilities to support
                                                           ◆ employee and workplace environment,               CustomerPerfect! goals and help the Postal Ser-
                                                            and                                                vice meet its major management challenges.
                                                           ◆ financial integrity and business viability.

                                                         Internal Goal
                                                           ◆ effective use of OIG resources.


                                                         OIG PLANNING
                                                         PROCESS
                                                              These goals play a critical role in the OIG’s
                                                         planning process. The planning process has
                                                         three interrelated components: the project uni-
                                                         verse, the annual performance plan, and the
                                                         annual audit workload plan. The project uni-
                                                         verse, which includes all projects that could be
                                                         considered, is the umbrella of the plan. This
                                                         year, the OIG identified nearly 1,000 projects
                                                         for consideration. To hire staff to complete the
                                                         entire universe of projects in one year would be
                                                         unrealistic. Therefore, the OIG management
                                                         selects projects from the universe on the basis of
                                                         risk. These risk factors include:


                                              PAGE 34    OIG GOALS
009_040_jdl 4/14/00 7:49 PM Page 35




                                      Customer Service




                                        DID YOU
                                        KNOW?
                                       Are all Hotline complaints
                                       confidential?
                                       The identity of an individual who makes
                                       complaints or provides information
                                       regarding alleged wrongdoing is held
                                       confidential unless the individual gives
                                       permission for the disclosure of their
                                       name or if disclosure is required.




                                                                                  PAGE 35
                                                                  The following section describes the OIG                 conduit of information for all OIG
                                                                  and the Inspection Service’s efforts to                 communications with Congress and
                                                                                                                          the Governors;
                                                                  provide Customer Service. Customer
                                                                  satisfaction and service is the underlying          ◆   facilitating and monitoring OIG internal
                                                                  creed of most successful organizations and              processing of all Congressional and
                                                                  businesses. In order to differentiate the               Governors’ requests to help ensure
                                                                  work reported by the OIG and Inspection                 accurate and timely responses;
                                                                  Service, the pages concerning the Inspec-           ◆   monitoring legislation and attending
                                                                  tion Service have been color screened.                  Congressional hearings that affect the
                                                                  Report numbers are shown in parentheses                 Postal Service and the Inspector General
                                                                  after the narrative, as appropriate.                    community; and
                                                                                                                      ◆   coordinating preparation of written and
      Closed                                                                                                              oral testimony for Congressional hearings
      Congressional Inquiries
      by Category                                                 OFFICE OF INSPECTOR                                     and questions arising from such hearings;
                                                                                                                          and
                                                                  GENERAL
                                                                                                                      ◆   working with Congressional staff
                                                                       OIG customers include Congress, the
                   7               6                                                                                      members to address issues as appropriate.
                 FINANCIAL
                              PERFORMANCE                         Governors, Postal management and employees,
                MANAGEMENT
                                                                  and the public. In addition to conducting           In addition, OIG keeps the Governors and
   4                                                                                                                  Congressional staff members informed about
   OTHER                                                          audits, investigations, and other reviews, OIG
                                                                  demonstrates its commitment to service by           matters that are referred to the OIG from Postal
           8                                                      responding to customer concerns in a variety of     Service stakeholders and constituents.
       OVERSIGHT
                                           25                     ways described below.                                    During this six-month period, OIG closed
                                   LABOR MANAGEMENT
                                                                                                                      50 Congressional requests. Appendix A lists
                                                                  COMMUNICATING WITH
                                                                                                                      completed OIG responses to Congressional
                                                                  CONGRESS AND THE POSTAL
                                                                  SERVICE GOVERNORS                                   inquiries by subject area. Some examples of
                                                                                                                      inquiries where the OIG was able to provide
                                                                        The OIG is legally responsible for keeping
                                                                                                                      Congress with independent information are
                                                                  Members of Congress and the Postal Service
                                                                                                                      included below.
                                                                  Governors fully and currently informed. This is
                                                                  done in several ways. The OIG keeps the Gov-        ◆   The OIG reviewed a complaint from a
                                                                  ernors informed through regular briefings at            customer over the termination of mail
                                                                  monthly Board meetings, preparing a monthly             delivery to his residence. The OIG noted
                                                                  activities report from the Inspector General,           that the customer, without the consent of
       Open /Pending                                              and promptly responding to requests for infor-          the Postal Service, moved his mailbox
       Congressional Inquiries                                    mation. The OIG keeps Congress informed by              from the curb and mounted it on his resi-
       by Age                                                                                                             dence. However, on the customer’s
                                                                  issuing the “Semiannual Report to Congress,”
                                                                                                                          route, the Postal Service provided curb-
                              601-737
                                                                  testifying at oversight and other hearings, and
                               Days
                                                8                                                                         side delivery only by vehicle. Based
                               6                                  briefing Members and their staff, as appropriate,
       0-60 Days
                                          481-600
                                           Days
                                                                                                                          upon the OIG’s recommendation, Postal
           18                                                     on issues related to the Postal Service. The
                                                                                                                          Service officials met with the customer
                                                      15          OIG also provides Congress and the Governors            and satisfactorily resolved the issue.
                                                361-480 Days
                                                                  with copies of its audit and management advi-           (OIG DS-CR-99-001)
61-120 Days
 11                                                               sory reports on a regular basis.
                                          15                                                                          ◆   Allegations were made that mail was
                                       241-360 Days                     One of the highest priorities of the OIG is
               121-240 Days
                                                                                                                          being damaged, lost, or misdirected due
                   16                                             to provide accurate and timely responses to the
                                                                                                                          to the excessive amount of bulk mail
                                                                  Congress and the Postal Governors. The OIG
                                                                                                                          received. The OIG informed the cus-
                                                                  Congressional and Public Relations team serves          tomer of various options available to
                                                                  as the liaison between OIG staff and the Con-           reduce the level of unwanted bulk mail.
                                                                  gress and Governors and provides a myriad of            The OIG informed this customer that the
                                                                  services, such as:                                      Postal Service cannot refuse to deliver
                                                                  ◆   serving as the point of contact and                 mail if proper postage is paid but that the
                                                                                                                          customer could contact a direct mail


                                                        PAGE 36   CUSTOMER SERVICE
     marketing association to request to be            ◆   Nine percent were customer service mat-
     removed from various mailing lists.                   ters that were referred directly to the
     (OIG PA-CR-99-100)                                    Postal Service Consumer Advocate; and
◆    The OIG also reviewed allegations by a            ◆   Thirty-seven percent related to
     Postal Service employee that he had                   miscellaneous requests for information
     been discriminated against because of his             such as job opportunities, ZIP codes,
     medical restrictions. The OIG found                   postal meters, and other Postal Service-
     Postal management had corrected the                   related matters.
     error in lost wages. The OIG also con-
                                                            The OIG’s national toll-free Hotline is
     tacted the human resources manager
                                                       1-888-USPS-OIG (1-888-877-7644). Persons
     assigned to investigate the Postal Service
                                                       interested in contacting the Hotline may also
     employee’s allegations of a hostile work
                                                       write to the United States Postal Service, Office
     environment. The manager, after work-
     ing closely with the Postal Service               of Inspector General, ATTN: HOTLINE, 1735                  Referral of Contacts
                                                       North Lynn Street, Arlington, VA 22209-2020.               Received by the Hotline
     employee, resolved all issues. The OIG
     contacted the Postal Service employee             The e-mail address is hotline@uspsoig.gov and
     who stated that he was presented with an          the fax number is (703) 248-2259.
                                                                                                                                             CONSUMER
     acceptable permanent job offer.                                                                                                          ADVOCATE
                                                       ANSWERING FREEDOM OF                                           ASSISTANT
                                                                                                                                               9%
     (OIG ER-CR-99-006)                                                                                           INSPECTOR GENERAL

                                                       INFORMATION ACT AND                                                   9%
                                                       PRIVACY ACT REQUESTS                                                                              INSPECTION SERVICE
HOTLINE OPERATIONS                                                                                                                                         45%
                                                            The OIG responds to many requests for
     The OIG Hotline provides a vital and con-
                                                       reports and other information made to the OIG
fidential communication link between the OIG
                                                       under the Freedom of Information Act and the             CLOSED DIRECTLY BY HOTLINE

and persons who contact the Hotline. The                                                                                  37%
                                                       Privacy Act. The Freedom of Information Act
Hotline receives complaints from employees,
                                                       requires that the OIG respond to the requestor
customers, and the general public. Complaints
                                                       within 20 working days. Upon receiving a
include alleged violations of laws, rules, or regu-
                                                       request, OIG staff conduct a search of OIG
lations; mismanagement; waste of funds; abuse
                                                       records to determine whether the OIG has any
of authority; or danger to public health and safe-
                                                       responsive documents. The OIG releases most
ty. Complaints and allegations received by the
                                                       audit and management advisory reports. Open
Hotline are analyzed to identify systemic issues
                                                       criminal investigations are not released and,
affecting the Postal Service.
                                                       generally, only portions of closed criminal
     OIG analysts staff the Hotline Operations
                                                       investigations are released.
Center from Monday through Friday, 7:00 a.m.
                                                            Because some audit and management advi-
through 7:00 p.m. Eastern Time. With this
                                                       sory reports contain sensitive Postal Service
Semiannual Report to Congress, the OIG is
                                                       business information, the OIG asks Postal Ser-
issuing its first Hotline poster, which will also be
                                                       vice management and the Postal Service Law
distributed to all Postal facilities (see exhibit).                                                            To request information from
                                                       Department to identify any business or propri-
     During this six-month reporting period,                                                                   OIG, visit our website at
                                                       etary information that may be exempted from
the Hotline received almost 7,000 contacts. Of                                                                 www.uspsoig.gov or contact
                                                       disclosure under the Freedom of Information
the contacts received:                                                                                         Freedom of Information Act
                                                       Act. After reviewing management’s comments,
◆ Nine percent were referred internally to                                                                     Officer, 1735 N. Lynn Street,
                                                       the OIG makes the final determination as to
     OIG staff for resolution or information,                                                                  Arlington, VA, 22209-2020.
                                                       whether an exemption is applicable to an OIG
     and pertained to allegations of fraud,
     waste, abuse, mismanagement, or danger            document.
     to health and safety;                                  Often, the OIG receives requests for docu-
                                                       ments that originate from the Postal Service
◆    Forty-five percent were referred to the
                                                       and other agencies. In those cases, requestors
     Postal Inspection Service and involved
                                                       are notified that their request is being forward-
     allegations of criminal activity, including
                                                       ed to the appropriate agency for determination.
     threats of violence or potential violence,
     mail fraud, theft, vandalism, or mail tam-             Requestors have the right to appeal an
     pering;                                           OIG determination to withhold all or part of a
                                                       document. The appeal is sent to the OIG who


                                                                                                           PAGE 37
009_040_jdl 4/14/00 7:49 PM Page 38




                                              forwards it to the Law Department which is           OIG’s review. Their suggestions are considered
                                              responsible for handling all Freedom of Infor-       during the OIG annual planning process and, to
                                              mation Act appeals in the Postal Service.            the extent practicable, are given priority consid-

               DID YOU                             During this six-month period, over 40 Free-
                                              dom of Information Act requests were
                                                                                                   eration for inclusion in its plan. This process
                                                                                                   creates a unique opportunity to assist manage-
               KNOW?                          answered. Seven of these requests were               ment by providing independent analysis and
                                              answered in full, none were denied totally, 26       additional information that will assist manage-
                                              were partially withheld, and 10 were referred        ment officials in fulfilling their responsibilities.
       What is the OIG Hotline                outside OIG.                                              Some examples of suggestions from Postal
                                                   As an example of a Freedom of Information       Service management for operations and issues
       Number?                                Act request, the OIG received correspondence         that the OIG plans to review in FY 2000
       The number to call for                 from a member of Congress on behalf of a con-        include:
                                              stituent. The OIG released the entire contents
       reporting fraud, waste and                                                                  ◆    extra trips on highway contract routes;
                                              of the file except for a few documents. Those
                                              withheld involved attorney-client communi-           ◆    the Sales Force Augmentation Program;
       abuse is 1-888-USPS-OIG
                                              cations or constituted a clearly unwarranted         ◆    retail operations;
       (1-888-877-7644).
                                              invasion of personal privacy and were exempt         ◆    National Customer Support Service
                                              from disclosure. In addition, specific docu-              Center billing processes; and
                                              ments requested that originated in the Postal
                                                                                                   ◆    alternative dispute resolution processes.
                                              Service were forwarded to the Postal Service
                                              Freedom of Information Act officer for review            The OIG plans to continue to solicit
                                              and direct response to the constituent.              suggestions from Postal managers and will
                                              (OIG GC-LA-99-001)                                   consider all suggestions as it plans projects.

                                              MONITORING COMPUTER                                  LEGISLATIVE AND REGULATORY
                                              MATCHING REQUESTS FOR                                REVIEW
                                              POSTAL INFORMATION                                        As required by the Inspector General Act,
                                                   The Postal Service receives requests from       the OIG monitors legislative and regulatory
                                              other government agencies for Postal data that       developments to advise Congress and the Gov-
                                              are used in computer matching programs for a         ernors concerning the impact of such legislation
                                              variety of purposes, including statistical studies   and regulations on the economy, efficiency, and
                                              and law enforcement activities. Pursuant to the      the prevention and detection of fraud and abuse
                                              Privacy Act, the Postal Service Data Integrity       in programs and operations of the Postal Ser-
                                              Board reviews requests seeking information to        vice. In prior semiannual reports, summaries of
                                              perform computer matches. The Inspector              significant legislation and regulations were con-
                                              General is a member of the Data Integrity Board      tained in their own separate section of the
                                              along with the Vice President, Human                 report. As part of our reformatting effort to
                                              Resources; General Counsel, Executive Vice           make this semiannual report easier to read, we
                                              President, Human Resources; Chief Financial          have included the relevant legislative and regu-
                                              Officer and Executive Vice President, Finance;       latory reviews at the end of the appropriate sec-
                                              and the Chief Postal Inspector. During this six-     tions that describe OIG and Inspection Service
                                              month period, the Inspector General acted on         reviews performed during the last six months.
                                              two requests for computer matching data for the           During this six-month period, the OIG
                                              Postal Service.                                      evaluated 71 legislative proposals and 24 regula-
                                                                                                   tory initiatives.
                                              RESPONDING TO MANAGEMENT
                                              REQUESTS FOR OIG REVIEWS
                                                   The OIG provides timely and accurate
                                              information and recommendations to Postal
                                              Service management. The OIG asked Postal
                                              Service managers to identify operations and
                                              emerging issues that would benefit from the



                                    PAGE 38   CUSTOMER SERVICE
009_040_jdl 4/14/00 7:49 PM Page 39




                                                             personnel are available to respond to the most
       INSPECTION SERVICE                                    critical, violent crime investigations to assist in
            The Inspection Service has adopted               processing and evaluating evidence. Inspection
       numerous initiatives to improve customer ser-         Service chemists are on hand to provide a sci-
       vice. The Postal Inspection Service endeavors         entific analysis of suspected controlled sub-
       to alert consumers and businesses to current          stances transported through the mail.
       crimes by attracting media attention to postal
       crime trends, publicizing positive law enforce-
       ment accomplishments, circulating media
       releases, and hosting crime prevention presen-
       tations.

       CONSUMER FRAUD
             The Inspection Service has joined organi-
       zations such as the American Association of
       Retired Persons in an ambitious series of
       national crime prevention initiatives aimed at
       alerting senior citizens of fraudulent offers they
       may be receiving by mail or telephone.
             As a result of complaints of fraud losses
       attributable to the criminal use of credit cards
       stolen from the mail, the U.S. Postal Inspection
       Service formed the credit card mail security task
       force. The task force has representatives from
       all groups involved in issuing, transporting, and
       delivering the one million credit cards that are
       sent through the mail each day. The group
       includes major credit card issuers, presort busi-
       nesses, airlines, and various postal entities. As a
       result of this effort, fraud losses were reduced by
       over 80 percent.
             The Postal Inspection Service established
       similar joint industry task forces to attack rebate                                                         The Inspection Service’s forensic special-
       and mail order fraud. All three customer-based                                                              ists provide technical expertise to identify
       industries share similar objectives and use civil                                                           instances of potential mail fraud and other
                                                                                                                   criminal activities.
       and criminal enforcement measures as preven-
       tative strategies.

       CRIME LABORATORIES
            Solving investigations and convicting
       criminals often requires the unique support of
       scientific and technical personnel assigned to
       the Forensic and Technical Services Division.
       Forensic analysts at the Postal Inspection Ser-
       vice’s National Forensic Laboratory in Dulles,
       Virginia, and four field laboratories provide
       expert examinations and testimony on evi-
       dence submitted by Postal Inspectors for docu-
       ment, fingerprint, chemical, and physical evi-
       dence analysis. Forensic experts are expected to
       provide timely results without compromising
       scientific methods and accepted protocols. Lab



                                                                                                                   PAGE 39
009_040_jdl 4/14/00 7:49 PM Page 40




                              PAGE 40   CUSTOMER SERVICE
041_086_jdl 4/14/00 7:52 PM Page 41




                                      Performance Reviews




                                       OFFICE OF INSPECTOR GENERAL
                                            Accepting and Processing
                                            Transportation
                                            Delivery
                                            Marketing
                                            Legislative and Regulatory Reviews

                                       INSPECTION SERVICE
                                            Accepting and Processing
                                            Transportation
                                            Delivery
                                            Mail Theft



                                                                                 PAGE 41
041_086_jdl 4/14/00 7:52 PM Page 42




                                                                                                   and distribution plants, while Standard Mail is
                                                The following section highlights audits,
                                                                                                   generally handled at the 21 bulk mail centers.
                                                reviews, and investigations conducted by
                                                                                                   In order to ensure timely and accurate delivery
                                                the OIG and the Inspection Service in the
                                                                                                   of mail, accepting and processing procedures
               DID YOU                          Performance Area. Also, included at the
                                                end of this section are OIG legislative and
                                                                                                   must be state of the art. During the past six
               KNOW?                            regulatory reviews. In order to differenti-
                                                                                                   months, OIG has performed seven accepting
                                                                                                   and processing related reviews, the most signifi-
                                                ate the work reported by the OIG and
                                                                                                   cant of which are highlighted below.
                                                Inspection Service, the pages containing
       What is the background of                the Inspection Service work have been              CONTRACTING OUT PRIORITY
       OIG staff?                               color screened. Report numbers are                 MAIL PROCESSING CENTER
                                                shown in parentheses after the narrative,          NETWORK COSTS MORE THAN
       The OIG staff includes auditors,         as appropriate.                                    IN-HOUSE PROCESSING
       evaluators, criminal investigators,                                                              In an audit of the Priority Mail Processing
                                                                                                   Center Network, the OIG concluded that pro-
       lawyers, technicians, and                                                                   cessing the same volume of Priority Mail
       administrative personnel from
                                               OFFICE OF INSPECTOR                                 through the contracted network cost the Postal
                                               GENERAL                                             Service more than the estimated cost of in-
       federal and state government
                                                     To deliver world-class service, businesses    house processing without a network. The OIG
       agencies, private industry,             and government agencies must excel in per-          provided Postal Service management with rec-
                                               forming their core business processes. For the      ommendations to control costs, capture savings,
       nonprofit organizations, and
                                               Postal Service, these core business processes and   and improve performance. Additionally, the
       the Postal Service.                     systems encompass accepting, processing, trans-     OIG recommended that management address
                                               porting, and delivering the mail as well as mar-    the issues identified in the report before any
                                               keting Postal products and services. In the past    future expansion of the Priority Processing Net-
                                               six months, the OIG has completed 28 reviews        work is undertaken.
                                               of key and emerging issues relating to the Postal        Management generally agreed with the
                                               Service’s performance of core business processes,   specific recommendations in the report. How-
                                               that will help the Postal Service save over $1.1    ever, management pointed out that differences
                                               billion during the current and future years. The    of opinion remain with OIG on some of the
                                               reports with the major savings or significant       findings in the report. In addition, management
                                               findings are:                                       pointed out that because the audit was conduct-
                                                                                                   ed during the pilot phase of the Priority Mail
                                               ◆   Corporate Call Management, under the
                                                                                                   Processing Center Network, many of the find-
                                                   subheading of Marketing, see page 46;
                                                                                                   ings and recommendations in the report may be
                                               ◆   Emergency and Extra Trip Expenditures           premature. Overall, OIG views management’s
                                                   on Highway Routes, under the subhead-           comments as responsive, and believe that cor-
                                                   ing of Transportation, see page 44;             rective actions taken or planned will meet the
                                               ◆   Rail Detention Costs, under the subhead-        intent of OIG’s recommendations.
                                                   ing of Transportation, see page 44; and         (OIG DA-AR-99-001)
                                               ◆   Priority Mail Processing Center Network,        REVENUE RECEIVED FROM
                                                   under the subheading of Accepting and           CANADIAN MAILER DEFICIENT
                                                   Processing, see page 42.                        BY $572,000
                                                                                                        The OIG and the Inspection Service joint-
                                               ACCEPTING AND PROCESSING
                                                                                                   ly investigated a special Priority Mail parcel rate
                                                    Each day, over 650 million pieces of mail
                                                                                                   provided to a Canadian mailer. The investiga-
                                               are brought into the Postal Service system in a
                                                                                                   tion disclosed that the Postal Service offered a
                                               variety of ways, including collections from more
                                                                                                   Canadian company a discounted flat rate for
                                               than 300,000 blue collection boxes or individ-
                                                                                                   Priority Mail parcels destined for the United
                                               ual mailboxes via nearly 300,000 letter carriers.
                                                                                                   States. The parcels were trucked across the bor-
                                               Express Mail, First-Class Mail, and some period-
                                                                                                   der and entered into the Postal Service mail
                                               icals are sorted at the more than 300 processing


                                     PAGE 42   PERFORMANCE REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 43




       stream in New York, being processed as domes-             local level which resulted in a decrease
       tic First-Class Priority Mail. As a result of this        in the number of customer complaints.
       alliance between the Canada Post Corporation              The OIG concluded that although deliv-
       and the Postal Service, revenue received from             ery service had improved, the Postal Ser-
       this Canadian Mailer was deficient by $572,000            vice faces additional challenges in
       over a three-year period compared to costs                achieving targeted delivery service goals.
       incurred. In addition, work performed by Postal           The OIG will continue to monitor the
                                                                 Improvement Team’s progress and will
       Inspectors indicates that revenue deficiencies
                                                                 occasionally review their service
       could have been much greater.
                                                                 improvement efforts.
       (OIG RQ-LA-99-001)
                                                                 (OIG AC-LA-99-001)
       POTENTIAL REVENUE LOSS                                ◆   In another review, the OIG evaluated
       FROM NOT VERIFYING DROP                                   the timeliness of periodicals delivery at a
       SHIPMENTS                                                 processing and distribution center. The
             In a review, the OIG evaluated the plant-           review disclosed that the date and time
       verified drop shipment system, which allows               were not always placed on the periodicals
                                                                 mail containers, and that this mail was
       authorized mailers of Periodicals and Standard
                                                                 not processed on a first-in, first-out basis.
       Mail to receive discounts for making drop ship-
                                                                 The OIG offered suggestions for improv-
       ments at postal facilities. The review disclosed
                                                                 ing operations, and the actions planned
       that Postal Service employees did not always
                                                                 or taken by management satisfied the
       verify the actual shipment quantity with the              intent of the suggestions.
       amount indicated on customers’ prepared forms             (OIG AC-MA-99-002)
       and sometimes accepted mail without receiving
       any required forms from the customer. The             GOVERNMENT MAIL
       OIG informed the Postal Service of the poten-         MISDIRECTED AND DELAYED
       tial for lost revenue and the risk that fraud could        The OIG conducted an audit in response
       occur. Management agreed with the recom-              to allegations that federal agencies’ mail han-
       mendations and indicated they were in the             dled by the Government Mails Section of a pro-
       process of developing comprehensive drop ship-        cessing and distribution center was misdirected
       ment policies and standards and instructions for      and delayed. The audit confirmed the allega-
       both employees and customers.                         tion and disclosed that not all government
       (OIG AC-AR-99-001)                                    agencies were using assigned unique ZIP Codes
                                                             and that mail was not handled according to
       IMPROVEMENTS NEEDED FOR
       TIMELY PERIODICALS DELIVERY                           established policy. Also, because the processing
                                                             and distribution center’s operating plan for pro-
            During this period, the OIG issued two
                                                             cessing of mail did not match the delivery
       reports on the processing of periodicals. Period-
                                                             requirements for the Government Mail Sec-
       icals mailing generates substantial revenue for
                                                             tion, often mail arrived too late to meet pro-
       the Postal Service and provides qualified classes
                                                             cessing and delivery requirements. Additional-
       of mailers with an economical method of adver-
                                                             ly, the Government Mails Section incurred
       tising services, providing association members
                                                             over $200,000 in overtime and penalty costs
       with important information, or delivering local
                                                             over a one-year period due to heavy mail vol-
       news.
                                                             ume and staff shortages. Management general-
       ◆    In one review, the OIG evaluated the             ly agreed with OIG recommendations to
            success of the Postal Service Periodicals        improve Government Mail Section operations.
            Service Improvement Team and the                 (OIG DS-AR-99-003)
            timeliness of periodicals delivery at three
            facilities. The review disclosed that the        PREVENTIVE MAINTENANCE
            team had initiated several efforts to            SYSTEM REPORTS NOT READILY
            improve periodicals delivery, and that           AVAILABLE
            Postal facilities had addressed specific            While conducting an audit of the Equip-
            problems with periodical service at the          ment Preventive Maintenance Program, the


                                                                                                                 PAGE 43
041_086_jdl 4/14/00 7:52 PM Page 44




                                                  OIG identified information on the integrity of        vice officials did not limit use of emergency con-
                                                  maintenance data and preventive maintenance           tracts to valid emergencies and did not negoti-
                                                  schedules that needed to be provided to Postal        ate special reduced rates or monitor excessive
                                                  management before the end of the audit. This          expenditures. Management generally agreed
                                                  advisory report noted that maintenance person-        with the overall findings and recommendations,
                                                  nel were unable to generate many of the main-         and concurred that savings could be achieved
                                                  tenance reports needed to complete the audit          through a reduction in the number of emer-
                                                  because backup tapes were not available and site      gency service contracts and more efficient use of
                                                  technical resources were limited. The OIG sug-        extra trips. (OIG TR-AR-99-003)
                                                  gested that Postal management remind mainte-
                                                                                                        RAIL DETENTION COSTS
                                                  nance personnel to maintain backup tapes and
                                                                                                        COULD BE REDUCED BY OVER
                                                  provide maintenance personnel with additional         $50 MILLION
                                                  guidance on maintaining and retrieving system
                                                                                                              Another audit was initiated to identify
                                                  reports. Management concurred with OIG
                                                                                                        opportunities for savings by determining how
                                                  observations and suggestions.
                                                                                                        rail trailer inventories are managed and why
                                                  (OIG AC-MA-99-001)
                                                                                                        trailers were retained significantly beyond the
                                                  TRANSPORTATION                                        contracted periods. Working with manage-
                                                        Transportation of mail is a vital part of the   ment, the OIG identified savings of more than
                                                  Postal Service’s mission of binding the nation        $50 million over a five-year period in rail deten-
                                                  together by providing prompt, reliable, and           tion costs. These savings will result from rec-
                                                  efficient delivery to every community in the          ommendations that facilities management not
                                                  United States. To fulfill this mission, the Postal    use trailers to augment highway trailer fleets and
                                                  Service spends in excess of $5 billion annually       store equipment. Management also should con-
                                                  on transportation services. For most of these         sider the detention status of trailers before mak-
                                                  services, the Postal Service relies on private        ing dispatch decisions, and seek reimbursement
                                                  transportation contractors. In addition to its        for detention caused by mailers.
       The OIG reviews the Postal Service         contracts with commercial carriers, the Postal              Postal Service rail detention costs
       operation of its own truck fleet as well                                                         increased from approximately $5 million in FY
                                                  Service operates its own truck fleet for some
       as commercial contract carriers who                                                              1995 to over $9 million in FY 1999. The audit
       move the mail.                             routes and manages three dedicated transporta-
                                                  tion networks for expedited services. During the      determined that the data the Postal Service uses
                                                  past six months, OIG has performed six trans-         to manage its detention costs is unreliable, thus
                                                  portation-related reviews, the most significant       preventing an accurate projection for total lia-
                                                  of which are highlighted below.                       bility. Management agreed with the OIG find-
                                                                                                        ings and 10 recommendations designed to
                                                  OVER $130 MILLION SAVINGS                             improve operations. In addition, management
                                                  IDENTIFIED ON HIGHWAY                                 has taken or plans to take the actions recom-
                                                  ROUTES
                                                                                                        mended to substantially reduce or eliminate
                                                       The OIG conducted an audit to identify           detention and misuse costs.
                                                  actions the Postal Service can take to reduce         (OIG TR-AR-99-001)
                                                  emergency service and extra trip costs on high-
                                                  way routes. Working with management, the              ENVIRONMENTAL RELATED
                                                  OIG determined that Postal Service could save         ISSUES
                                                  over $130 million over a five-year period                 During this period, the OIG issued three
                                                  through better contract administration and            environmental related reports.
                                                  oversight of highway transportation and extra         ◆   In the first audit, the OIG evaluated the
                                                  trip expenditures. Specifically, audit results            extent to which compressed natural gas
                                                  indicated that the Postal Service could save              has been used in Postal Service vehicles
                                                  $24.7 million in FY 2000 and avoid $26.7 mil-             and the process for purchases made under
                                                  lion annually in subsequent years through better          the Postal Service’s Alternative Fuels
                                                  administration of emergency contracts and                 Program. The audit revealed that the
                                                  extra trips. The audit disclosed that Postal Ser-         Postal Service could achieve savings by



                                       PAGE 44    PERFORMANCE REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 45




           redeploying natural gas vehicles, provid-     Service delivered over 200 billion pieces of mail
           ing incentives for use of natural gas,        to 130 million homes and businesses—an aver-
           working with public utilities to establish    age of over 1,500 pieces of mail for every house-
           additional onsite natural gas stations, and   hold and business in America. In the last six
           examining whether the Postal Service          months, OIG performed seven reviews of deliv-
           can fund and operate on-site natural gas      ery operations. The most significant reviews of
           stations. The audit also disclosed that       delivery operations are highlighted below.
           the purchasing process for alternative
           fuels needed improvement. Management          WELCOME KIT PROGRAM
           agreed with the OIG recommendations           EMULATED GOOD
           and has initiated action to address the       BUSINESS PRACTICES
           issues in this report.                             The OIG evaluated the Postal Service’s
           (OIG CA-AR-99-001)                            methodology for implementing and operating
       ◆   In the second review, OIG evaluated the       the National Change-of-Address Welcome Kit
           process for removing regulated fuel           Program and assessed the industry implications
           underground storage tanks and found           of including advertisements in the kit. The
           that this process needed improvement.         audit disclosed that the Welcome Kit Program
           The Postal Service made the decision to       emulated good business practices and that
           install, upgrade, and then remove com-        including advertisements in the Welcome Kits
           pliant underground storage tanks without      did not adversely impact the advertising indus-
           adequate planning and cost-benefit            try. However, the audit also disclosed that there
           analysis, resulting in premature and          was no evidence to conclude that customer sat-
           unnecessary expenditures of $1.5 million.
                                                         isfaction had improved. Management agreed
           The OIG made recommendations to
                                                         with an OIG recommendation that manage-
           Postal management to improve the
                                                         ment include questions related to the Welcome       The OIG reviewed the National
           accuracy of information and to improve                                                            Change-of-Address Welcome Kit.
           adherence to policy on underground            Kit Program in their customer satisfaction
           storage tanks. Management agreed with         surveys. (OIG DS-AR-99-002)
           the recommendations and has initiatives       MAIL DELIVERY CONCERNS
           in progress and planned to address the        RAISED
           issues in this report.
                                                              The OIG received multiple inquiries from
           (OIG CA-AR-99-002)
                                                         customers regarding mail service. Several are
       ◆   The OIG also reviewed an inquiry by a         highlighted below.
           state official concerning the relocation of
           a postal facility in the Northeast. The       ◆   As a result of a Congressional inquiry,
           inquiry focused on the extent to which            OIG confirmed that a customer in the
           public funds can be used for the reloca-          Midwest Area had not received mail for
           tion, and also focused on potential envi-         one week and that Postal Service offi-
           ronmental issues. OIG concluded that              cials did not adequately respond to the
           the Postal Service had filed the required         customer’s complaint. District manage-
           public notice and that the Postal Service         ment concurred with OIG’s suggestion to
           uses operating revenue and does not use           implement procedures to document
           tax dollars as a means to pay for new             customer complaints and follow-up on
           facilities. Regarding the environmental           unresolved complaints.
           concerns, specifically asbestos, the Postal       (OIG DS-MA-99-006)
           Service reached an agreement with a           ◆   The OIG reviewed a complaint from
           developer who will assume full environ-           another customer over the Postal Ser-
           mental compliance responsibility.                 vice’s denial of a claim for lost contents
           (OIG FA-CR-99-100)                                of a package. In this case, adequate doc-
                                                             umentation substantiating the cost of the
       DELIVERY                                              package contents was not provided, and
           The mail delivery process provides the            OIG concluded that the Postal Service
       Postal Service with a gateway to every house-         acted appropriately in denying the claim.
       hold and business. During 1998, the Postal            (OIG DS-CR-99-002)


                                                                                                               PAGE 45
041_086_jdl 4/14/00 7:52 PM Page 46




                                                                                              business agreement initiatives, performance
                                        MARKETING
                                                                                              indicators for national accounts managers, and
                                             The Postal Service operates in an environ-
                                                                                              entering time into the account management
                                        ment of intense competition. The Postal Ser-
                                                                                              system. Management generally agreed with all
                                        vice’s ability to maintain or increase its market
                                                                                              the recommendations. (OIG RG-MA-99-008)
                                        share will be essential to providing universal ser-
                                        vice at affordable rates. During the past six         OPPORTUNITIES TO IMPROVE
                                        months, OIG has performed eight reviews of            STAMP SERVICES
                                        marketing operations. The most significant                 The Postal Service prints over 38 billion
                                        marketing related reviews are highlighted             stamps each year, which generate over $40 bil-
                                        below.                                                lion in annual revenue. Sales include selling
                                                                                              approximately 30 billion First-Class Mail
                                        NEARLY $1 BILLION IN
                                                                                              stamps. OIG conducted three reviews of stamp
                                        POTENTIAL COST AVOIDANCE
                                        IDENTIFIED IN CORPORATE CALL                          services during the period, which are noted
                                        MANAGEMENT PROGRAM                                    below.
                                              During this period, the OIG conducted an        ◆   The OIG reviewed the operations of the
                                        audit of Corporate Call Management, a new                 Citizens’ Stamp Advisory Committee
                                        program designed to enhance customer service              which is responsible for evaluating the
                                        within the Postal Service. The OIG reviewed               merits of all stamp proposals and recom-
                                        the Decision Analysis Report model for this               mending subjects that are both interest-
                                        program and found that advances in technology             ing and educational. The review dis-
                                        and changes in call mix would permit the Postal           closed that Stamp Services management
                                        Service to reduce the original scope of the $3.4          effectively coordinated overall operations
                                                                                                  of the Committee. However, the OIG
                                        billion program. The OIG was advised that the
                                                                                                  suggested improvements to enhance the
                                        Decision Analysis Report was never approved
                                                                                                  cohesiveness of the Committee’s efforts
                                        by the Board of Governors, and the project was
                                                                                                  and to encourage collaboration between
                                        to be phased in over time and was approved on             Stamp Services management and com-
                                        that basis. At OIG’s suggestion, officials revised        mittee members. Management com-
                                        the model and recalculated operating and                  ments were responsive to the OIG
                                        investment costs. As a result of the OIG audit,           suggestions. (OIG RG-MA-99-005)
                                        and management slowing the implementation
                                                                                              ◆   The OIG also initiated a review of the
                                        process, the Postal Service recognized a poten-
                                                                                                  facts and control processes concerning a
                                        tial cost avoidance of $962 million through FY            printing error that occurred during the
                                        2007. Management agreed with a recommen-                  production of the 60-cent international
                                        dation to notify the Board of Governors of the            commemorative Grand Canyon stamp.
                                        cost reduction, and agreed to notify them, via            The review disclosed that existing con-
                                        quarterly reports, of future cost reductions as           trol processes should have provided rea-
                                        they are realized. (OIG DA-AR-99-003)                     sonable assurance that errors were pre-
                                                                                                  vented and detected; however, control
                                        MANAGEMENT ACTION SHOULD                                  processes were not followed. To preclude
                                        IMPROVE NATIONAL ACCOUNTS
                                                                                                  the recurrence of such errors, the OIG
                                        PROGRAM
                                                                                                  suggested that subsequent revisions to
                                             The OIG also conducted a review of Postal            original artwork or text be resubmitted
                                        Service initiatives to improve the national               for final approval before production is
                                        accounts program to promote development and               authorized. Management agreed with the
                                        retention of postal business. The OIG noted               results of the review and stated their
                                        that overall, the Postal Service is taking actions        intent to follow existing control processes
                                        that should improve the national accounts pro-            in the future. (OIG RG-LA-99-001)
                                        gram. However, opportunities exist for program        ◆   The OIG also conducted a review in
                                        improvements. The OIG provided manage-                    response to an allegation that Postal Ser-
                                        ment with suggestions concerning use of per-              vice publications and retail displays are
                                        sonnel, mail acceptance and delivery processes,           in violation of existing statutes concern-


                              PAGE 46   PERFORMANCE REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 47




           ing the reproduction and use of stamp           billion in revenue annually from stamp sales,
           images. The review disclosed that the           money orders, and mail boxes.
           Postal Service is authorized by law to
                                                           ◆   The OIG conducted a review of the
           publish illustrations of stamps in whatev-
           er manner deemed appropriate. Howev-
                                                               Revamped Sales and Services Associate
                                                               Training Program, which was designed to
                                                                                                                        DID YOU
           er, the review disclosed that non-Postal
           stamp image users did not always comply
                                                               enable retail clerks to better serve Postal              KNOW?
                                                               Service customers and ensure consistent
           with statutes or Postal regulations when
                                                               customer service nationwide. The
           using stamp images. The OIG suggested
                                                               review disclosed that the Postal Service      What does OIG do to review
           that Postal management monitor stamp
                                                               has made substantial progress in imple-
           image use by non-Postal users to ensure                                                           mail processed by the Postal
                                                               menting the pilot program; however, the
           compliance. Further, the OIG recom-
                                                               report highlighted several areas warrant-     Service?
           mended that the Postal Service cancel
                                                               ing continued attention, including:
           the stamp price before making stamp
                                                               training presentations, reference materi-     The OIG has established review
           images available outside the Postal Ser-
                                                               als, public image, instructors’ knowledge     teams to examine mail acceptance,
           vice. Management agreed in principle
                                                               of Postal Service products and services,
           with the OIG observations and sugges-
                                                               and overall management and control of         processing, and delivery. This is
           tions. However, management did not
                                                               training. Management agreed with OIG
           believe that it was possible to monitor all                                                       important because the Postal
                                                               suggestions to improve and strengthen
           outside use. We are working with man-
                                                               the program and actions planned or            Service delivers more than 650
           agement to resolve these issues.
                                                               taken were responsive.
           (OIG RG-MA-99-010)                                                                                million pieces of mail every day
                                                               (OIG RG-MA-99-006)
                                                           ◆                                                 and handles 41 percent of the
       POSTAL SERVICE CANNOT FULLY                             In another review, the OIG examined
       EVALUATE EFFECTIVENESS OF                               allegations concerning the lack of inter-     entire world’s mail volume.
       NATIONAL ADVERTISING AND                                nal controls over maintenance of self-ser-
       PROMOTIONAL CAMPAIGNS                                   vice postal center vending machines.
            The OIG conducted a review of the Postal           The OIG concluded that Postal Service
       Service method of evaluating the effectiveness          management could avoid lost revenues if
       of its national advertising and promotional             existing internal controls were stronger.
       campaigns. The review disclosed that the                The OIG offered three suggestions in the
                                                               areas of enhancement of supervisor-to-
       Postal Service’s advertising research contractor,
                                                               technician ratio, training for non-techni-
       who was hired to assess the effectiveness of the
                                                               cal personnel, and guidance to ensure
       Postal Service advertising, was not always able
                                                               vending machine audits and revenue
       to do so. This occurred because Postal manage-
                                                               shortage procedures are consistently and
       ment did not always notify the contractor of all        equitably applied. Management com-
       upcoming advertising. OIG suggested that the            ments were responsive to OIG sugges-
       Postal Service establish a system to provide            tions and corrective actions taken or
       timely written notice of upcoming advertising           planned should add value to the self-ser-
       to the advertising research contractor. Man-            vice program. (OIG RG-MA-99-001)
       agement agreed and included this provision in
       the draft statement of work for the new             LEGISLATIVE AND REGULATORY
       advertising agency contracts.                       REVIEWS
       (OIG RG-MA-99-009)                                  PROPOSED LEGISLATION
       OPPORTUNITIES TO IMPROVE                            H.R. 22 - Postal Modernization Act of
       RETAIL OPERATIONS
                                                           1999
            The OIG conducted several reviews of               H.R. 22 would modify the nation’s postal
       retail operations within the Postal Service dur-    laws and give the Postal Service statutory
       ing this period. The Postal Service has retail      authority to anticipate and respond to rapidly
       operations located in the 34,000 area, district,    changing market conditions in an increasingly
       and field offices. Retail operations employs        competitive industry. The OIG reviewed and
       about 85,000 employees and collects over $15.5      commented on H.R. 22 in the last Semiannual


                                                                                                              PAGE 47
041_086_jdl 4/14/00 7:52 PM Page 48




                                        Report to Congress. The bill has been reported        ment.” Commission members would be chosen
                                        out of the Subcommittee on the Postal Service         by Congress and the President and would
                                        and is now pending before the Government              review the practices and structure of the Postal
                                        Reform Committee.                                     Service to identify inefficiency or waste and
                                                                                              methods for improving Postal Service opera-
                                        SEMI-POSTAL STAMP LEGISLATION
                                                                                              tions. Within two years after enactment, the
                                        ◆   H.R. 597 - FACES OF AIDS STAMP
                                                                                              commission would report its findings to
                                            ACT OF 1999
                                                                                              Congress.
                                        ◆   H.R. 1472 - STAMP OUT                                  The commission to be established under
                                            DIABETES ACT OF 1999                              this bill could duplicate some of the work of the
                                        ◆   H.R. 1939 - ALZHEIMER’S                           OIG. The commission would be charged with
                                            DISEASE RESEARCH                                  finding areas of inefficiency or waste and for
                                        ◆   H.R. 2562 - PROSTATE CANCER                       improving operations involved in the collec-
                                            RESEARCH                                          tion, processing, or delivery of mail. The OIG
                                                                                              is currently responsible for performing these
                                        ◆   H.R 2730 - GEORGE ‘MICKEY’
                                                                                              tasks.
                                            LELAND HUNGER RELIEF STAMP
                                            ACT OF 1999                                       H.J.R. 55 - Mailbox Privacy Protection
                                        ◆   S. 712 - LOOK, LISTEN, AND LIVE                   Act
                                            STAMP ACT                                              This joint resolution expresses disapproval
                                             These legislative proposals authorize the        of the Postal Service’s final rule published in the
                                        sale of semi-postal stamps, providing a fundrais-     Federal Register on March 25, 1999, regarding
                                        ing mechanism for various causes by the sale of       commercial mail receiving agencies. The rule
                                        stamps at prices above the normal first-class         requires operators of commercial mail receiving
                                        rate. The difference between the stamp sales          agencies to require applicants for mailboxes to
                                        price, less the first-class rate and an amount suf-   provide the same type of information that the
                                        ficient to cover reasonable costs incurred by the     Postal Service requires of its mailbox applicants.
                                        Postal Service in printing, selling, and distribut-   In addition, the rule requires addresses of com-
                                        ing the stamp, would be paid to the benefiting        mercial mail receiving agencies to include
                                        organization.                                         “PMB” for “private mail box” in the address
                                             The OIG is concerned about whether the           block. These requirements raised privacy con-
                                        Postal Service is sufficiently accounting for         cerns with some commercial mail receiving
                                        costs incurred in the semi-postal stamp program.      agency customers. The cost associated with
                                        The OIG has initiated a review of one such            changing addresses was also a concern. The
                                        stamp program—the Breast Cancer Awareness             OIG will be looking at the data Postal Service
                                        Stamp. The purpose of the review is to deter-         used to support this rule and evaluating the
                                        mine whether management controls for rev-             need for this rule.
                                        enues, costs, and payments were effective. The        PROPOSED RULES
                                        General Accounting Office is reviewing the
                                        appropriateness of the Postal Service as a            PRIVATE MAIL BOXES AND
                                        fundraising agency and the overall effectiveness      POST OFFICE BOXES—RELEASE
                                                                                              OF INFORMATION
                                        of semi-postal stamps. The OIG has met with
                                                                                                   During this period, two rules were pub-
                                        the General Accounting Office to coordinate
                                                                                              lished dealing with private mail boxes and post
                                        these efforts.
                                                                                              office boxes. The March 1999 rule is discussed
                                             These proposed legislative initiatives need
                                                                                              to provide background.
                                        to include adequate Postal Service accounting
                                        provisions.                                           ◆   In a March 1999 final rule, anyone
                                                                                                  receiving mail at a commercial mail
                                        H.R. 2535 - Postal Service Enhance-                       receiving agency was required to com-
                                        ment Act                                                  plete a form. The form requests informa-
                                           This bill would establish the “National                tion regarding the applicant’s home
                                        Commission on Postal Efficiency and Enhance-              address, home telephone number,


                              PAGE 48   PERFORMANCE REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 49




           business address, business telephone
           number, and whether the private mail-
           box will be used for soliciting or doing
           business with the public. (Federal
           Register, Volume 64, Number 57, Pages
           14385-14391, March 25, 1999.)
       ◆   This proposed rule authorizes the Postal
           Service to disclose to any person, free of
           charge, the business name, address, and
           telephone number of the holder of a pri-
           vate mailbox, located at a commercial
           mail receiving agency, when the private
           mailbox is used for business purposes.
           (Federal Register, Volume 64, Number
           110, Pages 30929-30930, June 9, 1999).
       ◆   Another proposed rule limits the Postal
           Service’s disclosure of information about
           commercial mail receiving agency or post
           office box holders to government agency
           requesters or pursuant to subpoena or
           court order. (Federal Register, Volume 64,
           Number 165, Pages 46630-46632,
           August 26, 1999).
            These Federal Register publications have
       been controversial among users of private mail-
       boxes. The Postal Service has announced that
       additional rules regarding private mailboxes will
       be proposed. As mentioned earlier under H.J.R.
       55, the OIG is planning to conduct work in this
       area.




                                                           PAGE 49
041_086_jdl 4/14/00 7:52 PM Page 50




                                                                                                       items. Management concurred with the
                                               INSPECTION SERVICE                                      recommendations and began implemen-
                                                    The Inspection Service is responsible for          tation immediately.
                                               investigations that ensure the sanctity of the          (IS 311-1262202-PA(3))
               DID YOU                         mails. During this period, the Inspection Ser-      ◆   An audit of registered mail operations at
               KNOW?                           vice conducted audits at the area, district, and
                                               local levels in accordance with the designation
                                                                                                       the Boston processing and distribution
                                                                                                       center also was completed. Policies and
                                               of functions. This section describes some of            practices were reviewed to determine if
                                               their more significant work in the areas of             registered mail was handled properly.
       When was the OIG established            accepting and processing, transportation, and           Inspectors determined there was a lack of
       for the Postal Service?                 delivery. We also have included selected                management oversight for the entire
                                               Inspection Service mail theft reviews at the end        operation, no method was in place to
       Congress created the Office of                                                                  determine if a dispatch met the criteria of
                                               of this section.
       Inspector General in 1996.                                                                      a coded shipment, and conflicting dis-
                                               ACCEPTING AND PROCESSING                                patch procedures existed for handling
       Karla W. Corcoran was hired                                                                     registered mail. Management agreed
                                                     Work that the Inspection Service has pro-
       by the Postal Service Governors         vided relating to accepting and processing activ-       with the recommendations.
                                               ities at the area, district, and local levels are       (IS 312-1275293-PA(3))
       and was sworn in as the Postal
                                               highlighted below.
       Service’s first independent                                                                 AREA PRIORITY MAIL SERVICE
                                               SPECIAL SERVICES, INCLUDING                         NEEDED IMPROVEMENT
       Inspector General on January 6,         REGISTERED MAIL, REQUIRED                                 An audit was conducted of Priority Mail
       1997. She has a seven-year              IMPROVEMENT                                         destined in the Atlanta Metro Area to identify
                                               ◆   An audit of postal operations in the            and measure successfulness of local initiatives to
       appointment in this position.               Northeast Area to review certified mail,        improve on-time performance and evaluate
                                                   registered mail, insured mail, and post         inter-area mail flows via the special contract air
                                                   office box service. The audit disclosed
                                                                                                   taxi. Audit recommendations included specific
                                                   that window clerks were not always offer-
                                                                                                   service improvement measures, as well as full
                                                   ing certified, registered, and insured ser-
                                                                                                   utilization of the air taxi load capacity or termi-
                                                   vices for mailings that were presented by
                                                                                                   nation of the contract with alternate means of
                                                   postal customers. Registered mail was
                                                   not properly handled in accordance with         transportation established. Management agreed
                                                   established regulations and security pro-       with audit recommendations and began imple-
                                                   vided registered mail was not adequate to       mentation. Management forwarded the special
                                                   prevent loss. Also, improved internal           air taxi recommendation to Headquarters for
                                                   controls were needed at postal facilities       implementation. (IS 040-1278676-PA(2))
                                                   delivering large volumes of certified mail
                                                                                                   SERVICE IMPROVEMENT
                                                   to individual businesses and government
                                                                                                   OPPORTUNITIES FOR FIRST-CLASS
                                                   agencies. Management concurred with
                                                                                                   MAIL AND OVERNIGHT MAIL
                                                   the findings and began implementation
                                                   of recommendations.                                   Reviews were conducted at two processing
                                                   (IS 040-1241887-PA(2))                          and distribution centers and a processing and
                                                                                                   distribution facility within the Lancaster Perfor-
                                               ◆   The Inspection Service completed an
                                                                                                   mance Cluster. The audit disclosed that all two-
                                                   audit of registered mail procedures in the
                                                                                                   and three-day First-Class Mail and overnight
                                                   Northern New Jersey District. The
                                                                                                   mail was not being processed and dispatched to
                                                   objective of the audit was to determine if
                                                   the District was in compliance with regis-      meet service standards at one center and the
                                                   tered mail handling procedures imple-           facility. Management agreed with all findings
                                                   mented nationwide in 1997. The audit            and began implementation of the recommenda-
                                                   disclosed noncompliance with procedures         tions. (IS 312-1272877-PA(3))
                                                   in the areas of security and individual
                                                                                                   POLITICAL CAMPAIGN MAILINGS
                                                   accountability. Recommendations were
                                                                                                   DELAYED
                                                   made to use security containers, limit
                                                   access to registry areas, and maintain              The Inspection Service conducted this
                                                   individual accountability over registered       audit in response to a request to review the pro-

                                     PAGE 50   PERFORMANCE REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 51




       cessing of mishandled political campaign mail             project operations were managed and con-
       at a processing and distribution center. The              trolled by Postal management in the most effi-
       results of the review disclosed that several polit-       cient and cost effective manner. Inspectors rec-
       ical mailings accepted through a business mail            ommended:
       entry unit on May 5, 1999, were mishandled
                                                                 ◆    consolidation of the Bronx and New Jer-
       and not processed through the center until May                 sey Hub and Spoke Project operations;
       10, 1999. It could not be determined where the
                                                                 ◆    improvement in monitoring of Trans-
       mailings were during the interim. Documenta-
                                                                      portation Information Management
       tion maintained at the processing and distribu-
                                                                      Evaluation System reports, completion
       tion center indicated the mail was released by
                                                                      of Mail Arrival Profiles;
       the bulk mail entry unit on the date of accep-
       tance. When located on May 10, the political              ◆    improvement in staffing and equipment
       mail was in a container with non-political mail,               utilization;
       in the Standard Mail (A) staging area, a viola-           ◆    implementation of proper color coding
       tion of standard operating procedures. Manage-                 and handling of registered mail; and
       ment agreed to implement the recommenda-                  ◆    improvement in the accuracy and
       tions made to assign one individual the primary                monitoring of Management
       responsibility of ensuring compliance with stan-               Operating Data System reports.
       dard operating procedures.                                     Management agreed to implement all
       (IS 072-1289303-SI(2))                                    recommendations with the exception of the
       TRANSPORTATION                                            Hub and Spoke Project consolidation.
            The following reviews are highlights of              (IS 039-1279813-PA(2))
       Inspection Service work on transportation-                AIR ROUTE CHANGES
       related issues at the area, district, and local levels.   RECOMMENDED TO IMPROVE
                                                                 TIMELY SERVICE
       UNUSED VEHICLES VALUED
       AT $64,000 IDENTIFIED                                          At the request of a Postal official, the
                                                                 Inspection Service audited the implementation
            An audit of vehicle utilization was con-
                                                                 of a revised air routing procedure for San Juan
       ducted in the Alabama District to determine if
                                                                 origination and destination First-Class Mail.
       all delivery vehicles were necessary and utilized
                                                                 Both the Postal Service and the air carriers were
       in the most efficient manner, and to ensure data
                                                                 included in the review. The review was con-
       integrity and system reliability of the Vehicle
                                                                 ducted to ensure that inbound and outbound
       Management Accounting System. Recom-
                                                                 routing was in compliance with new air routing
       mendations were made to re-deploy or salvage
                                                                 directives, and the San Juan, Puerto Rico, Air-
       unused vehicles, train managers to ensure accu-
                                                                 port Mail Center airline service and inbound
       racy of the Automated Vehicle Utilization Sys-
                                                                 mail processing provided a timely receipt of
       tem, and assign manager accountability for
                                                                 mail. The review concluded that the air rout-
       review and analysis of system entries and
                                                                 ing changes would assist in improving the ser-
       reports. Management agreed with the audit
                                                                 vice to and from San Juan. To achieve success-
       recommendations and took immediate action
                                                                 ful implementation, the report recommended
       to implement their plan, including an
                                                                 continued management oversight to ensure all
       agreement to save $64,000 through redeploy-
                                                                 origins properly route their mail, air carriers
       ment/salvage of unused vehicles.
                                                                 provide the required service, and the San Juan
       (IS 045-1291771-PA(2))
                                                                 Airport Mail Center processes the mail in a
       HUB AND SPOKE PROJECT                                     timely manner. (IS 071-1273763-SI (2))
       OPERATIONS REQUIRE
       ATTENTION                                                 DELIVERY
             An audit of the Hub and Spoke Project                    Delivery-related reviews conducted by the
       operations was conducted in the New York                  Inspection Service at the area, district, and local
       Metro Area to ensure that mail was processed              levels are highlighted in the following section.
       efficiently and dispatched timely, and to ensure


                                                                                                                       PAGE 51
041_086_jdl 4/14/00 7:52 PM Page 52




                                                OVERSIGHT OF CARRIER STREET                           ◆   An Inspection Service investigation dis-
                                                TIME REQUIRED                                             closed that an individual was engaged in
                                                     A review was conducted in the New Jersey             mail theft, mail fraud, conspiracy, coun-
                                                                                                          terfeit securities, access device fraud, and
                                                District to determine the adequacy of manage-
                                                                                                          fake identification fraud. The individual
                                                ment control and oversight of carrier street time
                                                                                                          stole mail, submitted numerous false
                                                after a recent decrease in the street efficiency
                                                                                                          changes of address on postal customers to
                                                index. The audit identified incomplete docu-              gain access to their personal identifiers,
                                                mentation, insufficient street observations, and          thus causing 100 credit cards to be issued
                                                inadequate supervisory staffing. The report               and losses of more than $1 million.
                                                contained recommendations to control carrier              These efforts resulted in the deportation
                                                street time and highlighted “best practices” to           of the individual.
                                                be shared throughout the district. Management
                                                                                                      ◆   An Inspection Service investigation
                                                has initiated corrective actions.                         revealed that a bank courier discarded
                                                (IS 071-1289438-SI(2))                                    trays of mail intended for the bank. The
                                                USE OF DELIVERY POINT                                     bank was a clearinghouse used by many
                                                SEQUENCING NOT OPTIMIZED                                  businesses to deposit checks. The trays
                                                                                                          contained more than 3,000 First-Class
                                                      The Inspection Service conducted an audit
                                                                                                          letters and checks valued at over $3
                                                of Delivery Point Sequencing within the South-
                                                                                                          million.
                                                east Area. The objectives of the audit were to
                                                evaluate utilization and deployment of Delivery       ◆   Inspectors arrested an individual respon-
                                                Bar Code Sorters and Carrier Sequence Bar                 sible for extensive losses in the San Fran-
                                                                                                          cisco area. He was a locksmith and com-
                                                Code Sorters, determine potential for adding
                                                                                                          puter technician who used counterfeit
                                                routes to Delivery Point Sequencing, and iden-
                                                                                                          postal keys to steal mail from apartment
                                                tify ways to increase sequencing volume. Audit
                                                                                                          boxes. He used computer templates to
                                                recommendations included the establishment                make driver’s licenses and software to
                                                of a formal process to share strategies to increase       make counterfeit checks. At the time of
                                                Delivery Point Sequencing with all districts and          arrest, he admitted stealing mail almost
                                                plants, and re-deployment of equipment to rural           every day and night.
                                                areas to add rural routes into Delivery Point
                                                                                                      ◆   Based on an undercover operation,
                                                Sequencing. Management agreed with audit
                                                                                                          inspectors arrested a ground handler at
                                                recommendations and began implementation.                 the Los Angeles Airport who was steal-
                                                (IS 041-1292192-PA(2))                                    ing Treasury checks, with known losses of
                                                MAIL THEFT                                                $112,000, from the mail.
       Postal Inspectors examine the mail            Postal Inspectors are committed to reduc-        ◆   Fourteen individuals were arrested and
       to assure the integrity and safety                                                                 indicted on 22 counts in Tampa, Florida,
                                                ing mail theft to maintain the public’s confi-
       of the mail system, identify lost                                                                  federal court. They were part of a larger
       revenues, and maintain effective         dence in the Postal Service and preserve the
                                                sanctity of the mail. Postal Inspectors are cur-          ring that stole checks and personal bank-
       customer service.
                                                                                                          ing information from the mail. Losses
                                                rently working with major mailers to prevent
                                                                                                          were estimated at $500,000.
                                                mail theft and related problems. Mail losses
                                                attributed to the Postal Service are often the
                                                consequences of actions taken by one of its busi-
                                                ness “partners.” These actions may occur at
                                                some point in the process of mail acceptance,
                                                processing, transportation, or delivery. During
                                                this reporting period, Postal Inspectors made
                                                2,462 arrests and obtained 2,389 convictions
                                                related to mail thefts. The following are exam-
                                                ples of significant reviews reported during this
                                                semiannual reporting period.



                                      PAGE 52   PERFORMANCE REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 53




                                      Financial Management
                                      Reviews




                                       OFFICE OF INSPECTOR GENERAL
                                            Financial Related Reviews
                                            Financial Data Processing Systems
                                            Contracting and Facilities
                                            Legislative and Regulatory Reviews

                                       INSPECTION SERVICE
                                            Financial Installation
                                            District Accounting Offices
                                            Contracts and Facilities
                                            Revenue Investigations
                                            Embezzlements
                                            Workers’ Compensation

                                                                                 PAGE 53
041_086_jdl 4/14/00 7:52 PM Page 54




                                                                                                     Postal Service initiated this wire transfer pro-
                                                 The following section highlights audits,
                                                                                                     gram to facilitate the transfer of funds from cus-
                                                 reviews, and investigations performed by
                                                                                                     tomers in the United States to recipients in
                                                 the OIG and the Inspection Service in
                                                                                                     Mexico. The audit identified no significant risk
                                                 the Financial Management area. Also,
                                                                                                     in the overall program. Further, the indictment
                                                 included at the end of this section are
                                                                                                     of the Postal Service’s Mexican banking partner
                                                 OIG legislative and regulatory reviews.
                                                                                                     did not jeopardize the integrity of the program.
                                                 In order to differentiate the work report-
                                                                                                          The OIG identified several opportunities
                                                 ed by the OIG and Inspection Service,
                                                                                                     for improvements in controls over program
                                                 the pages containing the Inspection
                                                                                                     transactions, as well as overall compliance with
                                                 Service work have been color screened.
                                                                                                     the Bank Secrecy Act. Postal Service manage-
                                                 Report numbers are shown in parenthe-
                                                                                                     ment agreed with OIG recommendations to:
                                                 ses after the narrative, as appropriate.
                                                                                                     ◆   delay expanding the program until the
                                                                                                         Postal Service fully implemented the
                                                                                                         Bank Secrecy Act requirements;
                                                OFFICE OF INSPECTOR
                                                                                                     ◆   coordinate with the Postal Service’s Bank
                                                GENERAL                                                  Secrecy Act compliance officer before
                                                     The Postal Service is a $62 billion business        implementing new postal products;
                                                that relies on strong financial management           ◆   implement controls to further minimize
                                                controls to maximize revenue and minimize                the risk of money laundering in the
                                                costs. In the past six months, the OIG has               program;
                                                completed 33 reviews in the financial manage-
                                                                                                     ◆   provide program related systems training
                                                ment area, comprised of financial related,
                                                                                                         to supervisors and postal clerks;
      OIG investigators practice defensive      financial data processing systems, and
      tactics.                                  contracting and facilities reviews. In addition,     ◆   lower the daily transaction threshold
                                                the OIG has conducted investigations that have           from $3,000 to $2,000;
                                                resulted in five convictions, five arrests, and      ◆   establish controls to ensure that only
                                                investigative recoveries and restitution of over         intended recipients receive transfers after
                                                $2 million. These reviews add value by identi-           providing acceptable identification; and
                                                fying opportunities for cost savings and by          ◆   provide training to bank employees
                                                improving financial management, contracting,             on the various types of United States
                                                and facilities practices.                                passports. (OIG FR-AR-99-006)

                                                FINANCIAL RELATED REVIEWS                            REVIEW OF DINERO SEGURO
                                                     Financial related audits are reviews of areas   PROGRAM UNCOVERS
                                                that have significant financial implications and     PREVIOUSLY UNDETECTED
                                                offer the potential to save Postal resources. The    MONEY LAUNDERING SCHEME
                                                OIG has taken a proactive approach to identify            During the audit of the Dinero Seguro
                                                areas that offer potential cost saving and           Program, OIG personnel, using sophisticated
                                                improve Postal operations. During this semian-       computer analysis techniques, reviewed more
                                                nual period, the OIG completed 13 reviews in         than 500,000 transactions to identify suspicious
                                                areas such as Dinero Seguro and the Bank             activity. The review identified a series of suspi-
                                                Secrecy Act.                                         cious transactions by one sender. This led to a
                                                                                                     joint investigation by the OIG and other feder-
                                                NO SIGNIFICANT BUSINESS
                                                                                                     al law enforcement agencies that uncovered a
                                                RISKS ASSOCIATED WITH
                                                DINERO SEGURO PROGRAM                                scheme involving drug traffickers using the
                                                                                                     Dinero Seguro money transfer program to wire
                                                     In response to Congressional concerns
                                                                                                     drug proceeds from the United States to Mexi-
                                                relating to a recent indictment of the Postal
                                                                                                     co. As of September 30, 1999, five arrests were
                                                Service’s Mexican wire transfer banking partner,
                                                                                                     made for money laundering violations. In addi-
                                                an OIG audit was conducted to determine if the
                                                                                                     tion, 25 kilograms of marijuana and three kilo-
                                                Postal Service Dinero Seguro money transfer
                                                                                                     grams of cocaine were seized.
                                                program was at risk for money laundering. The

                                      PAGE 54   FINANCIAL MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 55




       ADDITIONAL EFFORTS NEEDED                            ◆   88 percent of the requests did not
       TO IMPLEMENT THE BANK                                    include estimated travel cost needed
       SECRECY ACT                                              to determine whether the travel was
            In OIG’s continuing monitoring of the               cost-effective.
       Postal Service’s compliance of the Bank Secre-            Postal Service management agreed with
       cy Act, the OIG determined that Postal Service       the OIG suggestion to ensure international
       management had made progress toward imple-           travel requests include all information required
       menting the Act, but continued to face fund-         by Postal Service policy before travel requests
       ing, systems development, and procedural chal-       are approved. (OIG RG-MA-99-007)
       lenges. Management agreed with OIG recom-
                                                            AMOUNTS SPENT ON POSTAL
       mendations to:
                                                            SERVICE MEMENTOS EXCEED
       ◆   fund Bank Secrecy Act implementation;            THOSE OF FORTUNE 500
                                                            COMPANIES SURVEYED
       ◆   consider appointing a full-time compli-
           ance officer to facilitate Bank Secrecy               The Postal Service has adopted a private
           Act system implementation; and                   sector practice of giving mementos to employ-
                                                            ees attending conferences, meetings, or training
       ◆   establish standard operating procedures
                                                            events in order to promote morale and enhance
           and a formalized agreement with Mexico
           regarding the Postal Service’s Bank              loyalty to the organization. These mementos
           Secrecy Act Program.                             include such items as tote bags, commemorative
           (OIG FR-AR-99-007)                               pins, and travel clocks. An OIG review deter-
                                                            mined that the Postal Service was authorized to
       FINANCIAL OPINION WORK                               give such mementos. However, the review dis-
       CONTINUING                                           closed that the Postal Service’s practices were
             The OIG continued to partner with the          inconsistent with those of ten Fortune 500 cor-
       Inspection Service in conducting financial           porations surveyed. Postal officials provided
       opinion audits at three accounting service cen-      mementos, valued at about $300,000, to
       ters and the Headquarters. These audits support      employees at 13 of 22 events reviewed, with the
       the independent public accounting firm’s over-       average value of mementos per person ranging
       all opinion of the Postal Service financial state-   from $22 to $98 per event. In contrast, memen-
       ments. The results of the adjustments will be        tos, when given by the corporations we sur-
       reported in the next Semiannual Report to            veyed, averaged from $10 to $25 per person.
       Congress. These FY 1999 statements are the           Postal management concurred with the OIG
       first statements where the lead has transferred      suggestions. (OIG FR-MA-99-003)
       from the Inspection Service to the OIG. In
       addition, the OIG served as co-contracting           FINANCIAL DATA PROCESSING
                                                            SYSTEMS REVIEWS
       officer’s representative with Postal Service
       Finance in overseeing work performed by the               As part of the FY 1999 financial statement
       independent public accounting firm.                  audit, OIG conducted four audits to evaluate
                                                            general controls over computer-based systems,
       DOCUMENTATION NEEDED TO                              including software, data, personnel, physical
       SUPPORT COST AND PURPOSE                             security, and information systems security at the
       OF INTERNATIONAL TRAVEL                              Postal Service’s San Mateo, Minneapolis, and
            International travel costs were over $2 mil-    St. Louis Information Service Centers.
       lion during FY 1999. An OIG review disclosed
       that 98 percent of the international travel          Computer-Based Systems at the
       requests submitted by Postal Service officials       San Mateo Information Service Center
       were incomplete. Specifically:                       Required Improvement
                                                                General controls over computer-based sys-
       ◆   94 percent did not include supporting            tems at the San Mateo Center needed improve-
           documents, such as a justification for
                                                            ment in the areas of access control over restrict-
           the trip needed to ensure that the trip
                                                            ed areas, procurement, sale and control over
           was directly related to Postal Service
                                                            computer tapes, and use of sensitive and
           business; and


                                                                                                                 PAGE 55
041_086_jdl 4/14/00 7:52 PM Page 56




                                             restricted areas in a test environment. In addi-    CONTRACTING AND FACILITIES
                                             tion, OIG noted repeat findings in the areas of:
                                                                                                       The Postal Service purchased $8 billion in
                                             ◆   backup of critical files to off-site            goods and services in FY 1998 through con-
               DID YOU                           location;                                       tracts, which represented over 13 percent of
                                                                                                 expenditures. These contracts included $845
                                             ◆   control and accountability over computer
               KNOW?                             equipment; and                                  million in non-competitive purchases and $383
                                                                                                 million in credit card purchases. The Postal Ser-
                                             ◆   system software change control.
                                                                                                 vice is also one of America’s largest owners,
       Why does the OIG maintain                  Management’s comments, including cor-          developers, and managers of real estate, spend-
                                             rective actions taken or planned, were generally    ing almost $1.2 billion in FY 1998 for repair,
       oversight of the processing           responsive to the OIG report.                       renovation, and construction of facilities, and
       of money orders sold by the           (OIG FR-AR-99-008)                                  over $629 million in rent. During the semian-
       Postal Service?                       Several Computer-Based Systems Areas                nual period, we conducted 16 reviews, including
                                             Needed Improvement at the Minneapo-                 audits and investigations, of contracting and
       The Postal Service processes over                                                         facilities-related issues. In addition, we have
                                             lis Information Service Center
       900,000 money orders on a daily            Controls were generally adequate over          over 190 open criminal investigations, many of
                                             information systems security and software at the    which are targeting fraud and corruption in
       basis, with a face value totaling
                                             Minneapolis Center. However, several areas          these areas. The most significant contracting
       approximately $115 million. As        needed improvement including limiting access        and facilities reviews are highlighted below.
       part of OIG’s financial manage-       to the mainframe, reviewing security activity       $2.2 MILLION PAID TO
                                             reports, correcting previously reported applica-    CONSTRUCTION CONTRACTORS
       ment reviews, OIG performs peri-
                                             tion change control issues, using unique change     WITHOUT SUPPORTING
       odic tests and audits of this area.   control identifiers, and updating user access       DOCUMENTATION
                                             controls for the local area network. Postal man-         An OIG audit determined that the Postal
                                             agement’s comments, including corrective            Service had contract administration procedures
                                             actions taken or planned, were generally            in place to assist contracting officer representa-
                                             responsive to the OIG report.                       tives in administering construction contracts,
                                             (OIG FR-AR-99-009)                                  but that these procedures were not always fol-
                                                                                                 lowed and they needed to be improved in some
                                             Several Computer-Based Systems Areas
                                                                                                 areas. The audit found over $103,000 in over-
                                             Needed Improvement at the St. Louis
                                                                                                 payments and $2.2 million in payments for
                                             Information Service Center
                                                                                                 materials, which Postal Service officials could
                                                  General controls over software, data, per-
                                                                                                 not validate that they had received. Thus, the
                                             sonnel, and physical security at the St. Louis
                                                                                                 $2.2 million also may be an overpayment. As a
                                             Center were generally adequate. However, sev-
                                                                                                 result of the audit, Postal Service management
                                             eral areas needed improvement including assess-
                                                                                                 agreed with the OIG recommendations to
                                             ment of the fire suppression system, local area
                                                                                                 recover payments as appropriate and to imple-
                                             network security, and disaster recovery plans.
                                                                                                 ment improved contracting officer representa-
                                             Postal management’s comments, including cor-
                                                                                                 tive procedures and controls.
                                             rective actions taken or planned, were generally
                                                                                                 (OIG CA-AR-99-003)
                                             responsive to the OIG report. In a separate
                                             review, OIG noted that the money order branch       CONTRACTOR AND EMPLOYEES
                                             at the St. Louis Center did not ensure that all     SENTENCED FOR MAKING FALSE
                                             money order edit codes were reviewed and, if        STATEMENTS
                                             necessary, corrected. Postal management                  An OIG investigation disclosed a fraud
                                             agreed that the edit code status logs previously    scheme involving a contractor certifying that it
                                             cited would be updated to reflect current status.   had paid its employees in accordance with the
                                             In addition, Postal management agreed to assign     wage rate specified in its contract with the
                                             responsibility for reviewing and resolving issues   Postal Service. In fact, the contractor paid its
                                             arising from the quarterly report of money order    employees less than the wage rate in the con-
                                             edit code activity. (OIG FR-AR-99-010 and           tract. Three contractor personnel pled guilty in
                                             OIG FR-FA-99-001)                                   federal court to making false statements on U.S.

                                   PAGE 56   FINANCIAL MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 57




       Government agency payroll reports. The con-          POST OFFICE LEASED EXCESS
       tractor was sentenced to three years probation,      SPACE
       ordered to pay restitution of $192,000 to anoth-          An OIG review confirmed a hotline alle-
       er agency and a $25,000 fine. In addition, the       gation that the Postal Service had leased over
       contractor was barred from receiving future          14,000 square feet of excess floor space at a
       non-Postal government contracts. The con-            Southwest post office. In addition, District offi-
       tractor’s employees were sentenced to six            cials did not report, as required by Postal Ser-
       months’ home detention, $2,000 fine, and three       vice policy, the unused floor space. In addition,
       years’ supervised probation. The OIG also rec-       District officials did not conduct market
       ommended that the contractor be debarred             research to determine whether the space was
       from receiving Postal Service contracts as a         needed for retail operations. Postal Service
       result of guilty pleas for making false statements   management agreed with the OIG recommen-
       on payroll reports.                                  dation to report unused space, but suggested
       (OIG 016-98-RI-040-RP000)                            that options to use the remaining space should
       CONTRACTORS                                          not be pursued until after a potential partner-
       RECOMMENDED FOR                                      ship with another firm is evaluated.
       SUSPENSION OR DEBARMENT                              (OIG FA-MA-99-001)
            Based on the findings of three investiga-       IMPROVED ADMINISTRATION
       tions, the OIG recommended that Postal man-          OF CONTRACTS NEEDED
       agement debar or suspend the following con-
                                                                Two OIG reviews identified needs for
       tractors.
                                                            enhanced contract administration over Postal
       ◆   An OIG investigation revealed that a             Service vehicle maintenance and construction
           cleaning service contractor paid a Postal        contracts.
           Service supervisor $1,200 to ensure con-
                                                            ◆   The OIG conducted a review of vehicle
           tinuation of a month-to-month contract
                                                                maintenance contracts at one vehicle
           to clean the post office. As a result, the
                                                                maintenance facility and identified con-
           contractor was debarred after being
                                                                cerns about monitoring work performed
           found guilty of bribery of a public official.
                                                                by the contractor. The OIG offered
           (OIG 98-RI-040-RP000)
                                                                Postal management two suggestions to
       ◆   The OIG recommended that a New Jer-                  increase efficiency and enhance quality
           sey contractor be suspended from con-                assurance. Management agreed to
           tracting activities after the company                strengthen quality assurance procedures
           president was arrested on mail and wire              to ensure that contractors properly per-
           fraud charges and for submitting mislead-            formed maintenance service on Postal
           ing documents in an attempt to secure                vehicles. (OIG CA-MA-99-001)
           over $20 million in U.S. Government
                                                            ◆   An OIG investigation revealed that due
           contracts. The OIG also recommended
                                                                to poor training of contract administra-
           debarment if the contractor is found
                                                                tors on Postal Service regulations and
           guilty of the charges.
                                                                building specifications, the Postal Service
           (OIG 98-RI-014-CA000)
                                                                paid approximately $370,000 to correct
       ◆   Based on a Congressional complaint, the              defective work. Postal Service manage-
           OIG found that a contractor breached                 ment agreed with the OIG suggestion to
           the terms and conditions of its contract             provide training for contract facility pro-
           and failed to adhere to generally accept-            ject managers who are not familiar with
           able construction and quality control                Postal Service policies regarding contract
           practices. The OIG recommended                       administration, performance, and com-
           that the contractor be suspended and                 pliance issues. Training for contract
           debarred along with its subsidiary                   administrators should help protect Postal
           companies. (OIG 99-RI-043-FA000)                     Service assets and programs from fraud,
                                                                waste, and abuse.
                                                                (OIG FA-LA-99-002)



                                                                                                                 PAGE 57
041_086_jdl 4/14/00 7:52 PM Page 58




                                            LEGISLATIVE AND REGULATORY                           the Postal Service and a loss of customers as
                                            REVIEWS                                              postal patrons look elsewhere for replacement
                                                                                                 services and products for those discontinued.
                                            PROPOSED LEGISLATION                                 The OIG will continue to monitor the new
               DID YOU                      H.R. 670/S. 556 - Post Office Commu-
                                                                                                 retail programs to determine their profitability
               KNOW?                        nity Partnership Act of 1999
                                                                                                 and to provide Congress and Postal manage-
                                                                                                 ment with independent and objective informa-
                                                 This legislation would require the Postal
                                                                                                 tion on which to make decisions.
                                            Service to follow more detailed procedures and
       Is the Inspector General a           more widely disseminated public notice before        PROPOSED RULES
       member of the President’s            relocating, closing, consolidating, or construct-
                                            ing a postal facility. The legislation would allow   Bank Secrecy Act-Notice of New
       Council on Integrity and             for more individual and community input              System of Privacy Act Records
                                            before the Postal Service can take action                 The Postal Service has notified the public
       Efficiency or the Executive
                                            involving relocating, closing, consolidating, or     that it will collect and maintain information,
       Council on Integrity and Effi-       constructing a facility. The legislation permits     including social security numbers, from pur-
       ciency?                              individuals and downtown communities the             chasers of money orders, wire transfers, and
                                            opportunity to offer alternatives to Postal Ser-     stored value cards when the dollar amount of
       The Inspector General is a                                                                cash purchases totals $3,000 or more. This rule
                                            vice facilities proposals. In its future planning
       member of the Executive Council      process, the OIG will consider reviewing the         provides that multiple purchases during one
                                            impact of the legislation, if enacted on the         business day totaling $3,000 or more must be
       on Integrity and Efficiency.                                                              treated as one purchase. Postal Service employ-
                                            Postal Service.
       Inspectors General, who are                                                               ees must obtain customer information on such
                                            H.R. 1859 - Postal Rate Transition Act               multiple purchases. The OIG during the current
       appointed by the President, are           If this bill becomes law, the Postal Service,   reporting period has reviewed Postal Service
       members of the President’s           before implementing a postage rate increase,         compliance with the Bank Secrecy Act. Addi-
                                            would have to report the number of stamps            tional reviews regarding compliance with the
       Council on Integrity and
                                            needed at the differential rate for a 30-day peri-   Bank Secrecy Act are expected. (Federal Regis-
       Efficiency. Those appointed by       od following rate implementation. For example,       ter, Volume 64, Number 146, Pages 41476-
                                            this would be the number of one cent stamps          41477, July 30, 1999)
       their agency heads, as is the
                                            needed when the Postal Service raised its rates
       Postal Service Inspector General,    from 32 cents to 33 cents for First-Class Mail.      Contractors and Potential Contractors
                                            This bill would place an additional reporting        of the Postal Service-Notice of New
       are members of the Executive
                                            requirement on the Postal Service.                   System of Privacy Act Records
       Council on Integrity and                                                                       The Postal Service has notified the public
                                            H.R. 198 - Postal Service Core                       that it will collect and maintain information
       Efficiency.                          Business Act of 1999                                 about individuals and small business owners
                                                 This bill would prohibit the Postal Service     who have expressed an interest in or have
                                            from offering services provided by the private       entered into contracts with the Postal Service.
                                            sector except for those services that were already   Records in this system that mention identifiable
                                            offered nationwide by the Postal Service as of       individuals consist primarily of proprietary or
                                            January 1, 1994. In recent years, the Postal Ser-    commercial information. However, some of the
                                            vice has been expanding the services it offers to    records in the system that pertain to individuals
                                            its customers. This has resulted in increased        may reflect personal information, such as an
                                            convenience for postal customers and addition-       address or social security number. The OIG will
                                            al revenue for the Postal Service. If H.R. 198       consider reviewing Postal Service compliance
                                            becomes law, any services that began after Janu-     in maintaining this system of records in accor-
                                            ary 1, 1994, would have to be eliminated. Since      dance with the Privacy Act. Additionally, the
                                            September 1996, the retail merchandise pro-          OIG may obtain such information when con-
                                            gram has generated revenues of $90.8 million         ducting reviews. (Federal Register, Volume 64,
                                            and yielded a profit of $14.1 million. Enact-        Number 127, Pages 36051-36052, July 2, 1999)
                                            ment of H.R. 198 and the elimination of these
                                            programs could result in decreased revenue for


                                  PAGE 58   FINANCIAL MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 59




                                                               annual and accounting fees remained
       INSPECTION SERVICE                                      uncollected from 1993 to 1999. Inade-
            Within the Financial Management area,              quate internal controls and manage-
       the Inspection Service performed financial              ment’s failure to assure the prompt col-
       installation, District Accounting Office,               lection of revenue resulted in a revenue                DID YOU
       contracting, and facilities audits. In addition,
       the Inspection Service conducted revenue,
                                                               deficiency of nearly $90,000. Manage-
                                                               ment agreed with our finding and recom-
                                                                                                                       KNOW?
       embezzlements, and workers’ compensation                mendations and provided an action plan
                                                               to take corrective action.
       investigations.
                                                               (IS 012-1256722-AF(1))                       What is computer “hacking”
       FINANCIAL INSTALLATIONS                             ◆   A financial installation audit of the San    and what steps does the OIG
            The Inspection Service conducted 11                Francisco, CA, Post Office resulted in
       financial installation audits during this period.       the presentation of 12 findings and the      take to prevent it?
       The purpose of these audits is to review the ade-       identification of over $100,000 in rev-      Computer hacking occurs when
       quacy of internal controls at the installation          enue deficiencies. Seven findings con-
       level. Some of the more significant audits are          tained internal control deficiencies that    someone within or outside the
       summarized below.                                       had been reported in prior years’ finan-
                                                                                                            Postal Service illegally attempts to
                                                               cial audits. In addition, a $33,000 rev-
       ◆   A financial installation audit at the Dal-          enue deficiency was identified in unpaid     gain entry into the Postal Service
           las, TX, Post Office resulted in eight              caller service fees and a $4,800 deficien-
           findings in the areas of Periodicals, Offi-                                                      computer systems. The OIG’s
                                                               cy was identified in unpaid Business
           cial Mail Accounting System manifest                Reply Mail fees. Furthermore, a poten-       Computer Intrusion Team takes
           mailings, Business Reply Mail Stamp                 tial $61,000 revenue deficiency was iden-
           Distribution Office, Stamp Destruction                                                           action to detect and investigate
                                                               tified in the Postage Validation Imprinter
           Committee, Postal Retail Store, and sta-            and Official Mail Accounting System          hacking attempts.
           tion operations. Inadequate internal                and postage meter records.
           controls, management’s failure to assure            (IS 011-1256147-AF(1))
           verification of mailings and prompt col-
           lection of revenue resulted in deficien-        ◆   A financial installation audit at Balti-
           cies of nearly $380,000 in Periodicals,             more, MD, Post Office resulted in seven
           Official Mail Accounting System, mani-              findings in the areas of post office
           fest mailings, and Business Reply Mail.             box/caller service, business reply mail,
           Two of the eight findings had been previ-           business mail entry unit, cash manage-
           ously reported in the 1996 Dallas finan-            ment, contract unit administration, col-
           cial audit. Management agreed with the              lect on delivery mail and main office
           findings and recommendations and pro-               window service administration. Contin-
           vided an action plan to take corrective             uing weaknesses in the assessment of
           action. (IS 011-1257699-AF(1))                      business reply mail annual fees and the
                                                               administration of post office box and
       ◆   A financial installation audit of the St.           caller service operations has resulted in
           Louis, MO, Post Office resulted in six              the identification of revenue deficiencies
           findings and the identification of over             totaling $20,500 for uncollected business
           $250,000 in revenue deficiencies. Man-              reply mail fees and over $50,000 for
           agement agreed with the recommenda-                 delinquent box and caller fees. Addi-
           tions to strengthen internal controls in            tional deficiencies totaling over $46,000
           the areas of bulk mail entry, detached              were identified with respect to un-
           mail units, periodicals, stamp account-             entered periodical mailing statements
           ability, Postage Due/Business Reply Mail,           and uncollected annual fees. Manage-
           trust, and suspense.                                ment agreed with the recommendations
           (IS 011-1257197-AF(1))                              to strengthen internal controls as pre-
       ◆   A financial installation audit at the San           sented in the findings and provided
           Luis Obispo, CA, Post Office resulted in            action plans to take corrective action.
           two findings in the areas of Postage                (IS 012-1257164-AF(1))
           Due/Business Reply Mail and office
           accountability. Business Reply Mail


                                                                                                             PAGE 59
041_086_jdl 4/14/00 7:52 PM Page 60




                                        ◆   An audit of check acceptance procedures              included equipment design, endurance
                                            was conducted throughout the Pacific                 testing, data and failure testing, and
                                            Area. Recommendations to reduce                      dynamic testing of new process proce-
                                            financial loss to the Postal Service, due            dures and equipment. The audit identi-
                                            to fraudulent check transactions, were               fied approximately $6.7 million in ques-
                                            implemented during the audit. Recom-                 tioned costs and approximately $1.8 mil-
                                            mendations included:                                 lion in unsupported costs. The audit also
                                            ◆    two forms of identification for                 provided an evaluation of labor and over-
                                                 purchase of multiple stamp coils;               head rates for negotiation of the cost
                                                                                                 reimbursement portion of the proposal.
                                            ◆    proof of business affiliation upon              (IS 181-1266103-AC(1))
                                                 presentation of a business check;
                                                                                             ◆   The Inspection Service completed an
                                            ◆    “customer known” endorsement,                   audit of a proposal for approximately
                                                 inclusion of telephone number;                  $27.5 million for the Mail Cartridge Sys-
                                            ◆    notification of suspected or known              tem Pre-Production. The audit identified
                                                 fraudulent transaction;                         $4.8 million in questioned costs related
                                            ◆    notification when multiple unpaid               to labor, other direct costs, overhead,
                                                 checks are returned; and                        installation, post general and administra-
                                                                                                 tive costs, materials, warranty, and profit.
                                            ◆    disallowance of Liberty Cash Cards              The audit also identified $8.4 million in
                                                 for money order purchases.                      unsupported costs related to overheads,
                                                 (IS 037-1285447-PA(2))                          materials, and profit.
                                        DISTRICT ACCOUNTING OFFICES                              (IS 181-12935363-AC(1))
                                             The Inspection Service conducts District        ◆   The Inspection Service completed an
                                        Accounting Office audits to evaluate account-            audit of a $24.7 million firm fixed price
                                        ing controls as a supplement to financial instal-        proposal submitted by a contractor, for
                                        lation audits. During this period the Inspection         the Forwarding Control System, Phase 2.
                                                                                                 The audit identified approximately $3.2
                                        Service issued 17 reports related to district
                                                                                                 million in questioned costs and approxi-
                                        accounting office issues. The two recurring
                                                                                                 mately $2.9 million in unsupported costs.
                                        issues typically surfaced by the Postal Inspectors
                                                                                                 The questioned costs related to overhead,
                                        in these reviews centered around meter revenue           materials, an installation subcontract,
                                        verifications and reconciliation of meter records        and warranty. The unsupported costs
                                        with the standard field accounting system.               related to subcontract costs not submit-
                                                                                                 ted directly to the contractor. These sub-
                                        CONTRACTING AND FACILITIES
                                                                                                 contract costs are being separately evalu-
                                              The Inspections Service conducts pre-
                                                                                                 ated by Contract Pricing, Purchasing.
                                        award and post-award contract audits to ensure           (IS 181-1278136-AC(1))
                                        efficiency, effectiveness, and economy in the
                                                                                             ◆   The Inspection Service completed an
                                        procurement process. These audits cover defec-
                                                                                                 audit of a $4.9 million firm fixed price
                                        tive pricing and procedural compliance.
                                                                                                 proposal for the Identification Code
                                        ◆   The Inspection Service completed a con-              Sort—Multiple Position Bar Code Sort
                                            tract audit of a firm fixed-price proposal           Upgrade Kit. The audit report identified
                                            submitted by a contractor for services               over $417,000 in questioned costs related
                                            related to Mail Transportation Equip-                to other direct costs, materials, general
                                            ment Service Centers. The proposal                   and administration, and warranty costs.
                                            totaled approximately $45.8 million for              The audit also identified nearly $4.4 mil-
                                            the operation of mail transportation                 lion in unsupported costs. The unsup-
                                            equipment service centers located in                 ported costs include $3.3 million in
                                            Greensboro, NC. In addition, the con-                materials. The contractor did not pro-
                                            tractor submitted costs in support of a              vide adequate support documentation for
                                            cost plus fixed-fee proposal requirement             production materials.
                                            for Process Development Support Ser-                 (IS 181-1289630-AC(1))
                                            vices/Testing. These support services

                              PAGE 60   FINANCIAL MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 61




       ◆   The Inspection Service completed an                 delays associated with the Headquarters
           audit of the $37.8 million cost plus fixed          review and approval process, area man-
           fee contract proposal submitted by a con-           agement was reluctant to plan projects
           tractor to operate and manage the W. F.             that exceeded their authority. The
           Bolger Center for Leadership Develop-               Inspection Service recommended that
           ment. The audit identified $2.4 million             management plan projects to meet 10-
           in questioned costs related to labor and            year operational needs of the Postal
           overhead. (IS 181-1281155-AC(1))                    Service to make the best use of capital
       ◆   The Inspection Service completed an                 funds. Management agreed with the
           audit of over $460,000 in claims submit-            recommendations and has implemented
           ted by a contractor. The audit identified           corrective actions where appropriate.
           over $310,000 in questioned costs related           (IS 092-1248055-FPA(1))
           to labor and overhead.                          REVENUE INVESTIGATIONS
           (IS 183-1278298-AC(1))
                                                                The Inspection Service conducts revenue
       ◆   The Inspection Service completed an             investigations to help ensure that Postal Service
           audit of a proposal for approximately           revenue is properly assessed and collected. Pri-
           $3.2 million submitted for the develop-         ority is given to investigating alleged schemes to
           ment and implementation of a training           avoid payment of postage and to identify, pur-
           program for the employees of the 21 Mail
                                                           sue, and seek actions against violators through
           Transport Equipment Service Centers.
                                                           civil, administrative, and criminal remedies.
           The audit identified over $180,000 in
           questioned costs related to labor, equip-       ◆   In a report to the New York District Man-
           ment, and general and administrative                ager, inspectors recapped the results of an
           costs. The audit identified over                    ongoing criminal action against former
           $711,000 in unsupported costs related to            employees of the largest presort bureau in
           equipment, overhead, other direct costs,            the State of New York. The United
           and general and administrative costs.               States Attorney’s Office for the Southern
           (IS 181-1226912-AC(1))                              District of New York had earlier
                                                               announced a 44-count racketeering
       FACILITIES AUDITS                                       indictment of three former owners and
            The Inspection Service has responsibility          seven former managers. Two additional
       for new construction or leasing activity with an        managers subsequently pled guilty to simi-
       estimated cost of $5 million and below. During          lar charges. The government alleges that
       this period the Inspection Service completed            the company is responsible for defrauding
                                                               the Postal Service of more than $24 mil-
       five facility audits, one of which is highlighted
                                                               lion. The new company owner has placed
       below.
                                                               all 10 employees in a leave without pay
       ◆   Based on the results of a December 1998             status. (IS 064-1290375-RI(1) and
           audit, the Inspection Service initiated a           IS 924-1191764-RI(1))
           national audit of facility projects funded      ◆   An investigation by inspectors in
           and approved within the $5 million area             Philadelphia led to a $22 million civil
           approval level. The purpose of the audit            settlement with a major printer of cata-
           was to review internal controls and                 logs and magazines. Inspectors, acting
           determine if processes utilized on area             on a tip, found evidence that the mailer
           level facility projects were appropriate            knowingly underreported additional per-
           and in compliance with Postal Service               piece charges that were due the Postal
           policies and procedures. The report con-            Service. The mailer represented to the
           cluded that efforts were made to keep               Postal Service that its mail was properly
           project costs within the $5 million                 presorted so as to claim the full extent of
           approval authority of the Area Vice Pres-           presorted mail discounts available. The
           ident on six projects in the Mid-                   underreporting of postage took place at
           Atlantic, New York Metro, Southwest,                several of the mailer’s plants throughout
           and Western Areas. In an effort to                  the country. (IS 920-1207670-RI(1) and
           maintain control and avoid perceived                IS 069-1296866-RI(1))

                                                                                                                PAGE 61
041_086_jdl 4/14/00 7:52 PM Page 62




                                        ◆    A civil false claims action is being pur-           mate that the mailer received $477,000
                                             sued against a for-profit company in                in discounts not earned. Further investi-
                                             Boston. The company is alleged to have              gation revealed that a local postal super-
                                             engaged in unauthorized mailings with               visor had relieved the mailer of the
                                             numerous nonprofit organizations, using             requirement for sorting mail to the 3-
                                             discounted postage rates to which they              and 5-digit ZIP Code levels, yet allowed
                                             were not entitled. Had the business rela-           the mailer to claim presort discounts.
                                             tionship between the for-profit and non-            Inspectors recommended that the super-
                                             profit companies been made known to                 visor involved be removed from any fur-
                                             the Business Mail Entry Unit, the non-              ther decisions involving the eligibility of
                                             profit rate would have been denied and a            postage discounts. The Inspection Ser-
                                             higher rate of postage charged. The dif-            vice also recommended that area officials
                                             ference in postage is over $1.6 million.            inquire among all other offices within
                                             The civil action is based on evidence               their jurisdiction as to the existence of
                                             that the for-profit company knew, or                other similar, unauthorized arrangements
                                             should have known, that the mailings                between mailers and bulk mail entry
                                             were in violation of Postal regulations.            units. Management agreed and imple-
                                             (IS 062-1201749-RI(1))                              mented corrective action.
                                        ◆    An investigation into a metered postage             (IS 064-1290439-RI(1))
                                             scheme resulted in guilty pleas of three
                                             defendants who ran a presort bureau in          EMBEZZLEMENTS
                                             the Kansas City, MO, area. The compa-                Embezzlement is appropriating property
                                             ny owner and the plant supervisor               fraudulently for one’s own use. Within the
                                             manipulated a postage meter and caused          Postal Service, embezzlements include stealing
                                             it to produce over $1 million in unpaid         money from cash drawers by Postal Service or
                                             postage. Both the owner and supervisor          contractor employees; kiting schemes involving
                                             are facing prison terms at a sentencing         Postal money orders or falsified financial
                                             hearing. The third defendant, was sen-          records; and the theft of merchandise from
                                             tenced to probation and restitution.            retail stores.
                                             Inspectors documented the investigation              Inspection Service investigations resulted
                                             in a report to local postal officials earlier   in the following:
                                             this year. (IS-388-1183443-RI(1))
                                                                                             ◆   A former customer service manager in
                                        ◆    Inspectors reported the results of an
                                                                                                 New York City was sentenced to two
                                             investigation into an underpayment of
                                                                                                 years of prison and another two years
                                             postage scheme carried out by a North
                                                                                                 probation for misappropriation of
                                             Carolina presort bureau. The investiga-
                                                                                                 $133,000 in Postal funds.
                                             tion revealed that the mailer routinely
                                             understated a portion of the mail requir-       ◆   A window clerk in Massachusetts was
                                             ing additional postage. Loss to the                 sentenced to six months in a halfway
                                             Postal Service was about $11,000 per                house, six months home detention, five
                                             week. It is estimated that the scheme               years probation and restitution of over
                                             was in operation for at least three years.          $150, 000. The investigation by Postal
                                             In June 1999, a civil agreement between             Inspectors revealed that the clerk manip-
                                             the mailer and the U.S. Attorney’s                  ulated records of money received for cus-
                                             Office was signed. The mailer agreed to             tomer postage meters.
                                             pay the Postal Service $750,000 over a          ◆   A window technician in Florida was
                                             5-year period. The first payment of                 arrested for embezzling more than
                                             $150,000 was received in June 1999.                 $97,000. The technician manipulated
                                             (IS 924-1170790-RI(1))                              records of postage-due funds and refunds.
                                        ◆    Inspectors identified numerous mailings
                                             presented by a third-party mailer claim-        WORKERS’ COMPENSATION
                                             ing unqualified discounts. Analysis                  The Inspection Service investigates fraud-
                                             showed that the mail was not presorted          ulent claims and receipt of benefits by individ-
                                             to the extent claimed. Inspectors esti-         ual employees. Unlike other federal agencies,

                              PAGE 62   FINANCIAL MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 63




       these claims are paid from Postal revenues, not         a potential cost savings to the Postal Ser-
       appropriations, thereby affecting the Postal Ser-       vice of over $516,000.
       vice’s net income.                                  ◆   Workers’ compensation benefits were ter-
       ◆   A clerk in Washington, DC, pled guilty              minated for a former mail clerk following
           to making false statements to obtain                an Inspection Service investigation. The
           workers’ compensation benefits. The                 clerk pled guilty to three federal felony
           clerk was sentenced to five years proba-            counts. While allegedly totally disabled
           tion, followed by six months electronic             due to a job-related back injury, the clerk
           monitoring, and was ordered to pay resti-           was the successful owner and operator of
           tution of over $33,000. The clerk                   a pool and spa repair business. As a
           alleged an injury to a toe, and fraudu-             result of this Inspection Service investi-
           lently charged the Department of Labor              gation, the potential cost savings to the
           for travel therapy. As a result of the              Postal Service is over $475,000.
           investigation, potential cost savings to
           the Postal Service is over $934,000.
       ◆   As a result of an Inspection Service
           investigation, a mail handler was sen-
           tenced to one year incarceration, fol-
           lowed by three years probation for
           defrauding the workers’ compensation
           program by claiming disability. In addi-
           tion, the mail handler was ordered to pay
           restitution of over $29,000. The convic-
           tion resulted in the termination of work-
           ers’ compensation benefits with future
           cost savings to the Postal Service of
           $780,000.
       ◆   An Inspection Service investigation dis-
           closed that a former clerk in Georgia was
           receiving workers’ compensation benefits
           while employed by the U.S. Air Force.
           The clerk continued to file claims to the
           Department of Labor. The Postal
           Inspectors’ investigation also showed
           that the alleged on-the-job injuries were
           the result of an off-duty accident. The
           clerk was sentenced to 18 months in
           prison, followed by three years probation
           and was ordered to pay restitution of
           over $32,000. This action resulted in
           potential cost savings to the Postal Ser-
           vice of over $610,000.
       ◆   As a result of an Inspection Service
           investigation, workers’ compensation
           benefits were terminated for a former let-
           ter carrier who fraudulently alleged a dis-
           abling back and shoulder injury. The
           carrier was sentenced to three years pro-
           bation and was ordered to pay restitution
           of over $4,000. Postal Inspectors pro-
           duced videotapes of the carrier lifting
           and delivering telephone books weighing
           over 40 pounds. This action resulted in


                                                                                                             PAGE 63
041_086_jdl 4/14/00 7:52 PM Page 64




                              PAGE 64   FINANCIAL MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 65




                                      Technology Reviews




                                       OFFICE OF INSPECTOR GENERAL
                                            Y2K Issues
                                            Developmental
                                            Computer Security
                                            Information Systems
                                            Electronic Commerce
                                            Legislative and Regulatory Reviews

                                       INSPECTION SERVICE
                                            Electronic Commerce




                                                                                 PAGE 65
041_086_jdl 4/14/00 7:52 PM Page 66




                                                                                                        was concerned about the Postal Service’s ability
                                                  The following section highlights audits,
                                                                                                        to successfully complete the continuity plan-
                                                  reviews, and investigations performed by
                                                                                                        ning initiative because program milestones were
                                                  the OIG in the Technology Area. Also
                                                                                                        revised for documenting, reviewing, and testing
                                                  included at the end of this section are
                                                                                                        contingency plans. The audit recommended
                                                  OIG legislative and regulatory reviews.
                                                                                                        that management provide sufficient funds to
                                                  In order to differentiate the work report-
                                                                                                        test and execute plans and establish a compre-
                                                  ed by the OIG and Inspection Service,
                                                                                                        hensive quality assurance process for contin-
                                                  the pages containing the Inspection Ser-
                                                                                                        gency plans. Management’s comments were
                                                  vice work have been color screened.
                                                                                                        responsive to the findings and recommenda-
                                                  Report numbers are shown in parenthe-
                                                                                                        tions and planned actions should mitigate the
                                                  ses after the narrative, as appropriate.
                                                                                                        risk of potential Y2K disruptions.
                                                                                                        (OIG TR-AR-99-002)

                                                 OFFICE OF INSPECTOR                                    Y2K CONTRACT ADMINISTRA-
                                                 GENERAL                                                TION REQUIRES STRENGTHEN-
                                                                                                        ING
                                                      Through technology, the Postal Service is
                                                 able to deliver more than 650 million pieces of             Postal Service management asked OIG to
                                                 mail every day, and maintain its network of over       examine opportunities to save resources associ-
                                                 38,000 post offices and facilities. The Postal         ated with the Y2K initiative. During the review,
                                                 Service recognizes that technology is key to           it was noted that adequate controls were not
                                                 future growth and, therefore, its technology           always in place to monitor contractor activities,
                                                 strategy is to provide convenient access to all        information to control Y2K resources was not
                                                 concerned on a daily basis through increasingly        always provided, and contractors did not always
                                                 sophisticated retail systems, expansion into new       provide timely or adequate work products. The
                                                 electronic access channels, and electronic link-       OIG also noted concerns with unnecessary lay-
                                                 ages that integrate customer and postal process-       ers of contractor management, security clear-
                                                 es. The OIG technology reviews encompass the           ance documentation that was not always sub-
                                                 Y2K initiative, information systems, informa-          mitted in a timely fashion, and deviations from
                                                 tion technology infrastructure, developmental          Postal Service travel regulations granted to one
                                                 systems, telecommunications, and computer              contractor. In addition, corrective actions
                                                 security. During this period, the OIG performed        implemented or planned by management
                                                 12 reviews in the technology area.                     should provide opportunities to save resources.
                                                                                                        Management concurred with seven of eight sug-
                                                 YEAR 2000 (Y2K) ISSUES                                 gestions for opportunities to save resources. The
                                                      The Postal Service recognizes that technol-       unresolved suggestion will be further addressed
                                                 ogy is critical to its future and has invested heav-   after the audit resolution process is implement-
                                                 ily in Y2K preparedness. The OIG provided              ed. (OIG FR-MA-99-002)
                                                 timely audit support by evaluating ongoing Y2K
                                                                                                        PROGRESS MADE ON Y2K
                                                 efforts to identify issues and recommend correc-
                                                                                                        READINESS
                                                 tive actions. The OIG completed five reviews
                                                                                                             OIG has issued several status reports,
                                                 during the reporting period that address Y2K
                                                                                                        including one during this six-month period, on
                                                 preparedness.
                                                                                                        Postal Service Y2K readiness. Overall, the audit
                                                 Y2K PLANNING PROGRESS                                  disclosed that considerable progress was made
                                                 NOTED BUT CHALLENGES                                   on Y2K readiness, but much work remained.
                                                 REMAIN                                                 The Postal Service demonstrated substantial
       OIG staff observes data input during
       Y2K test of a Small Parcel and                 An audit on the status and quality of the         progress in addressing severe and critical infor-
       Bundle Sorter.                            Postal Service’s Y2K business continuity, con-         mation systems, information technology infra-
                                                 tingency, and recovery management efforts              structure, processing equipment, data
                                                 showed that management took positive steps to          exchanges, and supplier readiness. However,
                                                 mitigate Y2K disruptions. However, the OIG             the OIG found varying levels of progress in


                                       PAGE 66   TECHNOLOGY REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 67




       addressing component contingency plans, facil-         dations and has taken or planned actions
       ities, business continuity and recovery manage-        that are responsive to the issues raised in
       ment planning, external suppliers, and informa-        this report. (OIG DA-AR-99-002)
       tion system readiness testing. While this report   ◆   The OIG reviewed circumstances con-
       contained no recommendations, postal man-              cerning the remaining stages of the
       agement questioned the OIG method of mea-              pending award of this project to a single
       suring progress against actual performance             vendor. The OIG concluded that the
       rather than against planned performance. The           decision to award the project to one ven-
       OIG took no issue with management’s Y2K                dor might be premature. The OIG rec-
       Plan but believed presenting interim milestones        ommended that management delay the
       and partial results is less informative than           decision to award the contract to a single
       reporting actual results as to what was done and       vendor until adequate information is
       what remains to be done. The OIG is continu-           obtained to make a best-value determi-
                                                              nation. (OIG DA-LA-99-004)
       ing to monitor progress based on baseline
       performance in assessing the status of Y2K
                                                          TRAY MANAGEMENT SOFTWARE
       readiness. (OIG IS-AR-99-002)
                                                          CONTROLS REQUIRE ATTENTION
       DEVELOPMENTAL REVIEWS                                   The Tray Management System automates
            The Postal Service is developing numerous     the movement and staging of mail between
       business systems that will improve performance,    most mail sorting operations in a processing
                                                                                                              The Tray Management System, which
       enhance service, and reduce operating costs.       plant. As part of an ongoing audit of the Tray
                                                                                                              was reviewed by the OIG is a
       The OIG understands the importance of              Management System, the OIG observed Y2K             critical advancement in automated
       reviewing these systems as they are developed,     compliance testing for Tray Management Sys-         mail processing.
       and has completed three audits of major systems    tem contractors and whether the project was
       currently under development during the             meeting performance and cost goals. During
       reporting period.                                  the compliance tests, the OIG review disclosed
                                                          that contractors had not satisfied all contract
       POINT OF SERVICE (POS) ONE                         requirements. Specifically, only one of three
       DEPLOYMENT AND CONTRACT                            contractors delivered a software configuration
       CONCERNS
                                                          management plan and the only contractor
            The POS ONE system will replace the out-      required to provide an object code comparison
       dated retail terminals at the post office retail   program (a comparison of the operating site
       windows. The OIG issued two reports on the         software to the latest approved software release)
       system during this period.                         did not supply the deliverable by the specified
       ◆   The OIG concluded that the POS ONE             contract date.
           project is needed to keep the Postal Ser-           The OIG suggested that management
           vice competitive and provide necessary         work with contractors to ensure timely delivery
           information for management. However,           and adherence to both a software configuration
           deployment of the system caused addi-          management plan and an object code compari-
           tional costs to the Postal Service and did     son program. The OIG also suggested that man-
           not fully attain desired results or realize    agement ensure that sufficient resources are
           expected benefits. Ongoing hardware                                                                The OIG is reviewing new Point of
                                                          dedicated to software issues, procedures are        Service terminals that have been
           and software problems contributed to
                                                          developed to track software versions, and           installed nationwide in over 37,000 retail
           increases in accounting adjustments and                                                            offices.
                                                          deployed software is identical to software tested
           window clerk work hours. As a result,
                                                          and certified as Y2K compliant. Management
           deployment has been more costly than
           anticipated and all of the benefits of the     comments were responsive to the software
           POS ONE system envisioned by manage-           issues, and actions being taken should strength-
           ment have not been achieved. The OIG           en software management overall.
           made six recommendations to improve            (OIG DA-MA-99-002)
           monitoring and controls over the system
           to enhance accountability, quality, and
           performance. Management generally
           agreed with the findings and recommen-

                                                                                                                PAGE 67
041_086_jdl 4/14/00 7:52 PM Page 68




                                        COMPUTER SECURITY                                                    OIG will continue to review manage-
                                                                                                             ment actions taken in response to the
                                             Increased reliance on technology results in
                                                                                                             recommendations. (OIG CI-LA-99-001)
                                        greater computer security concerns. The OIG is
                                        looking at the Postal Service’s ability to protect             ◆     All Postal Service computers are required
                                        its investment in technology by evaluating                           to have a warning banner as part of the
                                        computer security and completed two projects                         log-on process informing users that they
                                                                                                             consent to monitoring of any computer
                                        that address this area.
                                                                                                             usage and have no expectation of priva-
                                        OPPORTUNITIES TO STRENGTH-                                           cy. The OIG evaluated the use of warn-
                                        EN COMPUTER SECURITY NOTED                                           ing banners and found that current and
                                        ◆   The OIG learned that an independent                              former postal employees and contractors
                                            contractor provided the Postal Service                           could access critical systems without
                                            with 15 reports identifying numerous                             viewing a warning banner. The OIG
                                            significant weaknesses. The OIG made                             suggested that management ensure that
                                            the Senior Vice President and Chief                              all Postal Service computers automatical-
                                            Technology Officer aware of the consul-                          ly show the approved warning banner as
                                            tant’s recommendations, and suggested                            part of the log-on process. Management
                                            that the consultant review the reports                           concurred with OIG observations and
                                            and determine what actions should be                             suggestions and have planned or taken
                                            taken to address their recommendations.                          actions to ensure that all Postal Service
                                            The Senior Vice President agreed to                              computer users see the approved warning
                                            review the reports and inform the OIG of                         banner at each log-on occurrence.
                                            the corrective actions to be taken. The                          (OIG CI-MA-99-001)




                                                                                          WARNING!
                                                             This is a United States Government computer system. Use of this system is authorized
                                                             only in accordance with Postal Service policies. Unauthorized access is prohibited.


                                                              YOU HAVE NO EXPECTATION OF PRIVACY
                                                                     USING THIS SYSTEM.
                                                             In order to ensure compliance with applicable federal law and Postal Service policies,
                                                             all uses of this system may be monitored, read, captured, recorded or copied in any
                                                             manner and disclosed in any manner, by authorized personnel. There is no right to pri-
                                                             vacy on this system. System personnel may give to law enforcement personnel any
                                                             potential evidence of a crime found on this system. Use of this system by any user,
                                                             authorized or unauthorized, constitutes consent to this monitoring, interception,
                                                             recording, reading, capturing, copying and disclosure.
                                                             All communications are are to be in accordance with Postal Service policies and regu-
                                                             lations. Non-compliance with any of these conditions is grounds for disciplinary action
                                                             up to and including removal or termination, as well as criminal prosecution. Report
                                                             instances of suspected misuse to your Director or to the systems administrator.




                              PAGE 68   TECHNOLOGY REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 69




       INFORMATION SYSTEMS                                   from its subcontractors, which is being credited
                                                             to the Postal Service contract.
            Information Systems is responsible for the
                                                             (OIG 99-RI-077-FA000)
       development, operation, and maintenance of
       137 severe/critical information systems and
       another 400 important but not critical informa-
                                                             ELECTRONIC COMMERCE
                                                                  Businesses worldwide are facing the threats
                                                                                                                          DID YOU
       tion systems. Information Systems is also             and opportunities presented by electronic com-               KNOW?
       responsible for two national computer centers,        merce. Like many other businesses, the Postal
       computer systems of the 85 performance clus-          Service is expecting little or no growth in its
       ters, and the Central Management Facility             traditional markets (e.g., First-Class Mail) and    Is the OIG Y2K compliant?
       which remotely supports thousands of locally          needs to develop new sources of revenue. The        Yes, we have implemented an
       networked desktop computers nationwide. The           Postal Service views electronic commerce as a
       Information Systems FY 1999 budget was                                                                    aggressive plan to ensure that all
                                                             strategy for obtaining new sources of revenue.
       approximately $1 billion. During this period,         Several of these strategies in electronic com-      of our computer equipment—net-
       the OIG conducted the following two reviews           merce are beginning to emerge. For instance,
       in this area.                                                                                             work hardware, telecommunica-
                                                             the Postal Service is building a strong Internet
                                                             presence and working on becoming the “carrier       tions, software and peripherals—
       MANAGEMENT CONTROLS OVER
       WIRELESS COMMUNICATIONS                               of choice” for merchandise purchased on the         have been analyzed and corrected.
       REQUIRE IMPROVEMENT                                   Internet. However, the Postal Service faces a
                                                             formidable challenge in implementing elec-          In addition, our older computer
            The OIG completed a review of controls
       over wireless communication equipment and             tronic commerce strategies as it moves into the     equipment also has been upgraded
       services within the Postal Service. The OIG           next century.
                                                                                                                 to be Y2K compliant.
       concluded that opportunities existed to                    Clearly, electronic commerce will forever
       enhance management controls over wireless             change the way the Postal Service conducts
       communication equipment and services. Con-            business. As the OIG’s Y2K audit work comes
       trol weaknesses were noted in multiple con-           to a close, electronic commerce is quickly
       tracts and provider procurements, administra-         becoming one of the OIG’s highest priorities.
       tion and oversight responsibilities, non-official     During this period, the OIG conducted the fol-
       business use reimbursements, various purchas-         lowing review in this area.
       ing and issuing methods, and accounting for           MISUSE OF POSTAL SERVICE
       wireless communication expenses. The OIG              LOGOS
       suggested that Postal-wide policies and proce-             While attending the 22nd Universal Postal
       dures be developed and disseminated, and that         Congress in Beijing, China, OIG officials found
       all wireless communication equipment and ser-         that marketing material in the form of a mail
       vices be coordinated through Postal Service           piece from a vendor improperly used the Postal
       telecommunications specialists. Management            Service and PC Postage logos. The material,
       agreed and has planned or taken actions to            when taken in context with the vendor’s adver-
       address these concerns. (OIG DS-MA-99-005)            tising, improperly implied endorsement by the
       TELECOMMUNICATION                                     Postal Service. Moreover, the vendor did not
       COMPANY AGREES TO OVER                                meet requirements for designation as an             OIG Information Technology staff conduct
       $2 MILLION SETTLEMENT                                 approved licensed vendor of PC Postage. The         system tests as the Y2K approaches.

            A large telecommunications contractor,           matter was referred by OIG to Postal Service
       responsible for installing telecommunications         marketing officials, who notified the vendor to
       wiring for 8,000 Postal facilities, agreed to cred-   immediately cease further use of the logos and
       it the Postal Service for improperly billed work.     mail piece design. Postal Service officials fur-
       The investigation revealed that the contractor        ther requested a response from the vendor on
       had subcontractors completing most of the             how it intends to correct the false impression of
       work and was billed for services not rendered,        Postal Service endorsement.
       incomplete, or defective. After being notified        (OIG IG-PA-99-001)
       of this, the contractor recouped over $2 million




                                                                                                                   PAGE 69
041_086_jdl 4/14/00 7:52 PM Page 70




                                        LEGISLATIVE AND REGULATORY                            INSPECTION SERVICE
                                        REVIEW
                                                                                                   The Inspection Service has initiated work
                                        ENACTED LEGISLATION                                   in the electronic commerce area as follows.

                                        Public Law 106-37, 113 Stat. 185,                     ELECTRONIC COMMERCE
                                        (July 20, 1999) - Year 2000 Readiness                      The Inspection Service is a member of the
                                        and Responsibility Act                                Postal Service multi-functional team to ensure
                                             Postal Service systems are vulnerable to         electronic commerce products and services
                                        Y2K computer failures due to reliance on              provide security to:
                                        computers. For this reason, the Year 2000
                                                                                              ◆   prevent fraud losses;
                                        Readiness and Responsibility Act is extremely
                                        important to the Postal Service because it            ◆   protect customer information; and
                                        addresses anticipated legal action that could         ◆   maintain customer trust.
                                        arise as a result of economic losses due to Y2K             The Inspection Service is meeting all the
                                        failures.                                             challenges and opportunities of the E-com-
                                             The Postal Service also relies extensively       merce era by working with other Postal Service
                                        on external suppliers that are critical to moving     departments, training criminal investigators,
                                        the mail, such as airlines, railroads, and trucking   developing new loss prevention solutions, and
                                        companies who are also susceptible to the Y2K         assisting Postal Service customers and suppliers
                                        problem. This legislation limits damages and          who are vital to the growth of electronic
                                        the amount the Postal Service could recover as        commerce.
                                        a result of a Y2K supplier problem. The OIG
                                        will continue to monitor the Y2K area and
                                        post-Y2K work will consider liability issues.

                                        PROPOSED LEGISLATION
                                        H.R. 439 - The Paperwork Elimination
                                        Act of 1999
                                              This legislation would amend the Paper-
                                        work Reduction Act by directing the federal
                                        government to provide those doing business
                                        with the government the option of using elec-
                                        tronic communication instead of sending paper-
                                        work through conventional mail delivery. The
                                        bill encourages the use of electronic signatures
                                        to facilitate the transmission of documents. The
                                        Department of Justice has raised concerns,
                                        which the OIG shares, regarding the validity of
                                        and reliance upon documents and signatures
                                        that exist only in an electronic, digital format.
                                        Without appropriate safeguards, the potential
                                        for fraud exists. Also, if small businesses, educa-
                                        tional and nonprofit institutions, federal con-
                                        tractors, state and local governments, and oth-
                                        ers take widespread advantage of electronic fil-
                                        ings with the federal government, as encouraged
                                        by this bill, revenues of the Postal Service could
                                        be affected. Although the Paperwork Reduc-
                                        tion Act does not apply to the Postal Service,
                                        the OIG will monitor the use of electronic sig-
                                        natures and documents as part of its ongoing
                                        work.
                              PAGE 70   TECHNOLOGY REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 71




                                      Labor Management
                                      Reviews




                                       OFFICE OF INSPECTOR GENERAL
                                            Violence in the Workplace
                                            Workplace Climate
                                            Health Care
                                            Postal Employees Safety Enhancement Act
                                            Legislative and Regulatory Reviews

                                       INSPECTION SERVICE
                                            Workplace Climate
                                            Postal Robberies
                                            Drugs in the Workplace




                                                                               PAGE 71
041_086_jdl 4/14/00 7:52 PM Page 72




                                                                                            Incidents of Violence in the Workplace. The Dis-
                                         The following section highlights audits,
                                                                                            trict’s limited attention to violence prevention
                                         reviews, and investigations performed by
                                                                                            efforts could have adversely affected the work-
                                         the OIG and the Inspection Service in the
                                                                                            place climate and Postal Service operations.
                                         Labor Management Area. Also, included
                                                                                            OIG concluded that District officials had not
                                         at the end of this section are OIG legisla-
                                                                                            implemented effective violence prevention and
                                         tive and regulatory reviews. In order to
                                                                                            response programs. Although management dis-
                                         differentiate the work reported by the
                                                                                            agreed with the finding, planned or implement-
                                         OIG and Inspection Service, the pages
                                                                                            ed actions were responsive to the OIG recom-
                                         containing the Inspection Service work
                                                                                            mendations regarding violence prevention poli-
                                         have been color screened. Report
                                                                                            cy, security reviews, mandatory violence aware-
                                         numbers are shown in parentheses after
                                                                                            ness training, incident reviews, and responses.
                                         the narrative, as appropriate.
                                                                                            (OIG ER-AR-99-002)

                                                                                            MANAGEMENT APPROPRIATELY
                                                                                            HANDLED VIOLENT SITUATION
                                        OFFICE OF INSPECTOR                                      In another review, the OIG concluded alle-
                                        GENERAL                                             gations were valid that a Western area plant
                                             The OIG has identified the improvement         manager jeopardized the safety of postal employ-
                                        of the Postal Service’s labor management area as    ees and the public. Specifically, the plant man-
                                        one of the major performance and management         ager solicited postal employees to purchase a pis-
                                        challenges that must be addressed if the Postal     tol for another employee and brought the
                                        Service is to remain competitive in the 21st        loaded pistol to an official agency function.
                                        century. The OIG supports the Postal Service        While making a speech, the plant manager
                                        in its overall goal or fostering an inclusive and   ejected the loaded clip, pointed the pistol
                                        welcoming workplace consistent with Postal          toward a wall, and fired it, igniting a cap that
                                        Service values of fairness, opportunity, safety,    had been chambered in the pistol. The OIG
                                        and security. The Labor Management Area             found District management properly investigat-
                                        consists of violence in the workplace, workplace    ed the incident and the plant manager was dis-
                                        climate, health care, and the Postal Employees      ciplined. (OIG LM-LA-99-003)
                                        Safety Enhancement Act. In this area, the OIG
                                                                                            ZERO TOLERANCE POLICY
                                        conducted 36 reviews during this period.            ENFORCED
                                        VIOLENCE IN THE WORKPLACE                               The OIG reviewed several instances
                                             The Postal Service widely acknowledges         involving the Postal Services enforcement of its
                                        concerns about violence in the workplace.           “Zero Tolerance Policy” for violence in the
                                        Both the OIG and the Postal Service are dedi-       workplace. For example:
                                        cated to the prevention of violence and consid-     ◆   The OIG reviewed an allegation that a
                                        ers early intervention and cooperation with             Southeast Area Post Office supervisor
                                        management and employee groups essential.               physically assaulted an employee. The
                                        The OIG recently conducted nine reviews of              OIG also reviewed management’s com-
                                        violence in the workplace.                              pliance with Postal Service policies and
                                                                                                procedures for investigating and resolving
                                        EFFECTIVE VIOLENCE                                      the allegation. The OIG concluded that
                                        PREVENTION AND RESPONSE                                 management appropriately followed the
                                        PROGRAMS NOT IMPLEMENTED                                Postal Service’s published zero tolerance
                                        IN A POSTAL DISTRICT                                    policy regarding violence and inappropri-
                                             An audit of the violence prevention pro-           ate behavior in the workplace.
                                        gram in the Suncoast District identified that           (OIG LM-MA-99-010)
                                        management did not follow many of the vio-
                                                                                            ◆   The OIG reviewed an allegation that
                                        lence prevention policies and procedures out-           harassment and intimidation of employ-
                                        lined in the May 1997 Threat Assessment Team            ees by another employee was occurring at
                                        Guide and the Crisis Management Plan for                a Midwest Post Office. The OIG

                              PAGE 72   LABOR MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 73




           determined that a perception of a hostile          comply with Postal Service policies
           working environment existed. The OIG               regarding issuing discipline for unsatisfac-
           also determined that management fol-               tory performance and hold managers
           lowed the Postal Service’s published zero          accountable for issuing punitive
           tolerance policy regarding violence and            discipline when corrective measures are               DID YOU
           inappropriate behavior in the workplace.
           The lead plant manager took the proper
                                                              available.
                                                              Southeast Area management disagreed
                                                                                                                    KNOW?
           actions, including recommending that               with the OIG conclusion that discipline
           the complainant seek counseling through            received by the postmasters was unwar-
           the Employee Assistance Program.                   ranted but agreed with the recommenda-
                                                                                                             Will the OIG investigate
           (OIG LM-LA-99-002)                                 tion to comply with policy regarding the       allegations of retaliation
       ◆   The OIG evaluated Postal Service com-              disciplinary action appeals process of
           pliance with policies and procedures in            non-bargaining employees. Management
                                                                                                             when wrongdoing is
           investigating and resolving an allegation          also agreed to provide specific timeframes     reported to them?
           of threats made by a postmaster to assault         for appeal processes and to hold man-
           a Southwest Area Post Office employee.             agers accountable for not handling
                                                                                                             The OIG will investigate all
           The OIG found no evidence that the                 appeals in a timely manner.                    management retaliation
           postmaster threatened the employee.                (OIG LR-AR-99-012)
           The OIG review also concluded that                                                                complaints received from
                                                          ◆   While performing an audit at a district,
           management followed the Postal Ser-                the OIG found that a potentially hostile       Postal Service employees who
           vice’s published zero tolerance policy             environment existed at a processing and
           regarding violence and inappropriate                                                              had previously reported
                                                              distribution center. Upon further
           behavior in the workplace.                         investigation, the OIG determined that         wrongdoing to this office.
           (OIG LM-LA-99-001)                                 a plant manager treated employees in an
                                                              abusive manner. Furthermore, despite
       WORKPLACE CLIMATE                                      the fact that the district manager was
            The Postal Service believes that signs of         aware of the plant manager’s behavior,
       workplace stress are present, and that they need       the labor climate at the center continues
       to take comprehensive steps to address issues of       to be hostile and intimidating.
       improving the workplace environment. This              Although management did not agree
       must be accompanied by the emphasis of align-          with the OIG conclusion that the labor
       ing human resources with business require-             climate at the plant continues to be
       ments. The OIG agrees with this assessment             hostile and intimidating, they did agree
       and has conducted 22 reviews regarding work-           with the OIG suggestions and plan to
       place climate, some of which are highlighted           implement them.
       below.                                                 (OIG LR-MA-99-009)

       UNWARRANTED DISCIPLINE AND                         OTHER LABOR MANAGEMENT
       HOSTILE WORK ENVIRONMENT                           REVIEWS
       FOUND                                                   The OIG generally does not review
           The OIG completed two reviews in the           individual employee complaints. However,
       Southeast Area:                                    over the past six months, we have performed
       ◆   The first review addressed allegations of      24 individual reviews of workplace violence
           unwarranted disciplinary actions in a          and climate issues that resulted from congres-
           district. The review disclosed that in         sional requests. As a new agency, we undertook
           some cases disciplinary action taken           these reviews to develop a greater under-
           against postmasters was warranted, but in      standing of the Postal culture and to establish
           other cases, it was not. The OIG also          a working relationship with Postal Manage-
           found that the Postal Service disciplinary     ment to ensure that employees’ concerns are
           action appeals process was not followed        addressed. The chart shows the diversity of
           and that the policy did not stipulate a        the labor relations complaints we received
           timeframe for answering appellants. The        (see chart on the next page).
           OIG recommended that management


                                                                                                              PAGE 73
041_086_jdl 4/14/00 7:52 PM Page 74




                                                              Top 10 Labor Management Complaints
                                                                             Analysis of 655 allegations received in the past six months

                                                     HOSTILE WORK ENVIRON.   52

                                                      DISPARATE TREATMENT    50

                                                             HARASSMENT      110

                                                       SEXUAL HARASSMENT     37

                                                       COMPLAINT PROCESS     67

                                                              RETALIATION    45

                                                           ADMIN. ACTIONS    61

                                                             VERBAL ABUSE    69

                                                              INTIMIDATION   88

                                                         HIRING PRACTICES    76
                                                                             0             25             50             75            100          125


                                                 HEALTH CARE                                                   THE POSTAL EMPLOYEES SAFETY
                                                      For FY 1999, the Postal Service paid over                ENHANCEMENT ACT
                                                 $580 million for employee injury claims, an $18                     The Postal Employees Safety Enhance-
                                                 million increase over FY 1998. Because the                    ment Act, enacted on September 28, 1998,
                                                 Postal Service is self-insured for workers’ com-              changed the status of the Postal Service as an
                                                 pensation costs, they make such payments out                  employer under the Occupational Safety and
                                                 of operating funds. Thus, the Postal Service’s                Health Act of 1970. As a result, the Postal Ser-
                                                 net income is affected every time an employee is              vice can be cited, fined, and referred for prose-
                                                 injured and unable to return to work. Contain-                cution by the Occupational Safety and Health
                                                 ing these costs continues to be key to the Postal             Administration for safety violations. This Act
                                                 Service’s financial well being. During this peri-             was meant to assure safe and healthful working
                                                 od, OIG completed five reviews in this area, one              conditions for Postal workers.
                                                 which is highlighted below.                                         We have initiated and planned several
                                                                                                               audits to determine the impact of the Postal
                                                 WEAK CONTROLS OVER INJURY                                     Employees Safety Enhancement Act on the
                                                 CLAIMS NOTED                                                  Postal Service. For example, we are currently
                                                       The OIG conducted an audit of a district’s              reviewing the Postal Service’s implementation
                                                 process for submitting, controverting, and                    of the Act and its effect on organizational cli-
                                                 challenging injury claims. The audit revealed                 mate and operations in general. Future work
                                                 opportunities for improving timeliness, contro-               will include a review of the mechanisms used by
                                                 versions, challenges, and management control                  the Postal Service to identify substandard facili-
                                                 of injury claims. The OIG made recommenda-                    ties and for upgrading those facilities to meet
                                                 tions to hold supervisors accountable for sub-                health and safety standards.
                                                 mitting injury claims timely, to reemphasize the
       Periodical mailings account for a         importance of applying existing procedures                    LEGISLATIVE AND REGULATORY
       significant portion of the Postal         when processing and reviewing injury claims,                  REVIEW
       Service’s revenue.                        and to develop additional management controls                 PROPOSED LEGISLATION
                                                 over injury claims. Management agreed with 8
                                                 of 11 recommendations. With one exception,                    H.R. 2385 - Postal Service Employee
                                                 management’s planned actions were responsive                  Violence - General Accounting Office
                                                 to the issues raised in this report.                          Study
                                                 (OIG HC-AR-99-001)                                               This legislation requires the General
                                                                                                               Accounting Office to study and report to Con-


                                       PAGE 74   LABOR MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 75




       gress on possible connections between violence
       by current or former Postal employees and
       workplace-related frustrations experienced by
       Postal workers. Special attention would be
       directed to gender, race, and disability discrimi-
       nation; sexual harassment; retaliatory assign-
       ments; and irregularities in hiring, training, pro-
       motions, and disciplinary actions.
            The Postal Service has a process for assess-
       ing risk posed by the potential for violence in
       the workplace. The OIG evaluates this process
       on a continuing basis. The OIG also receives
       many inquiries from the public and members of
       Congress on the subjects that would be exam-
       ined in the General Accounting Office study.
       This study could replicate much of what OIG
       does in the labor management area. Evaluating
       violence in the workplace is a high priority for
       the Postal Service and the OIG.




                                                             PAGE 75
041_086_jdl 4/14/00 7:52 PM Page 76




                                                                                              ◆   A former Postal employee was convicted
                                        INSPECTION SERVICE                                        of felony murder and attempted murder
                                             The Inspection Service reviews a number              by a Suffolk County, New York court.
                                        of Labor Management Areas including: work-                He and a cousin were arrested for the
                                        place climate, Postal robberies, and drugs in the         September 1997 armed robbery of a for-
                                        workplace.                                                mer employer’s armored car. The robbers
                                                                                                  stole over $320,000 in postal remittances
                                        WORKPLACE CLIMATE                                         from the guards. The former employee
                                             An audit of workplace behavior was con-              faces a sentence of 50 years to life.
                                        ducted within the Allegheny Area to evaluate          ◆   The ringleader of three robberies of a
                                        management attention to workplace environ-                Kerman, California, highway contract
                                        mental conditions that affect workplace behav-            route over a six-month period was sen-
                                        ior. The audit disclosed postal management’s              tenced to seven years and six months in
                                        attention to workplace conditions affecting               prison and ordered to pay over $35,000
                                        employee attitude and behavior throughout the             in restitution. An accomplice who coop-
                                        Allegheny Area was generally effective. The               erated in the investigation was sentenced
                                        membership, participation, and operation of               to two years and five months in prison
                                        threat assessment teams varied from one perfor-           and ordered to pay nearly $18, 000 in
                                                                                                  restitution. Five others involved in the
                                        mance cluster to another. Recommendations
                                                                                                  robberies were previously sentenced.
                                        included establishing a process to coordinate
                                        and monitor threat assessment teams’ activities
                                                                                              DRUGS IN THE WORKPLACE
                                        to ensure consistency throughout the area.
                                                                                                   To help ensure a safe working environ-
                                        Management agreed with audit recommenda-
                                                                                              ment, the Inspection Service investigates nar-
                                        tions. (IS 044-1281484-PA(2))
                                                                                              cotics-related offenses, particularly the sale of
                                        POSTAL ROBBERIES                                      narcotics on Postal premises. During this semi-
                                             The Inspection Service regards the preven-       annual period, Postal Inspectors arrested 14
                                        tion of robberies as one of its highest organiza-     employees for narcotics violations.
                                        tional priorities and affords task force attention         The following are drug related offenses
                                        to facility, carrier, and other Postal robberies to   committed by postal employees.
                                        deter these attacks on employees. The Inspec-         ◆   A postal supervisor in Michigan was
                                        tion Service investigated 62 robberies in this            arrested after Postal Inspectors intercept-
                                        reporting period. Robbery-related arrests and             ed an Express Mail parcel. The parcel
                                        convictions for this semiannual period totaled            contained more than five pounds of
                                        69 and 79, respectively.                                  marijuana. Postal Inspectors searched
                                             Examples of these investigations follow.             the supervisor’s vehicle and home. The
                                                                                                  search produced a drug scale and an
                                        ◆    An individual responsible for the Sep-
                                                                                                  unregistered firearm.
                                             tember 1998 robbery of the Old Mystic,
                                             Connecticut, Post Office was sentenced           ◆   A mail handler in Missouri was arrested
                                             to over 19 years in a Connecticut State              for establishing a marijuana growing
                                             Prison. At least 15 years of the sentence            operation. Inspectors discovered the
                                             must be served. The individual already               operation within the mail handler’s
                                             had an extensive criminal history                    home which included grow lights, over
                                             involving armed robberies, burglaries,               300 marijuana plants, and 40 pounds of
                                             and assaults prior to this arrest.                   harvested marijuana in bags.
                                        ◆    An individual was sentenced to 40 years          ◆   A highway contract driver in Tennessee
                                             in a Louisiana prison without parole for             was arrested for using marijuana while
                                             the November 1997 robbery of the Ferri-              transporting mail.
                                             day, Louisiana, Post Office. An accom-           ◆   A casual custodian in Illinois was arrest-
                                             plice had been previously sentenced to               ed for selling crack and marijuana.
                                             25 years incarceration, also without
                                                                                              ◆   A letter carrier in Ohio was arrested for
                                             parole. Another accomplice was sen-
                                                                                                  possession of heroin, marijuana, and drug
                                             tenced to 15 years of hard labor and must
                                                                                                  paraphernalia.
                                             serve at least ten years.
                              PAGE 76   LABOR MANAGEMENT REVIEWS
041_086_jdl 4/14/00 7:52 PM Page 77




                                      Oversight Reviews of
                                      Inspection Service




                                       OFFICE OF INSPECTOR GENERAL
                                            Oversight
                                            Legislative and Regulatory Reviews




                                                                                 PAGE 77
041_086_jdl 4/14/00 7:52 PM Page 78




                                                                                                     establish a system to monitor Postal Inspectors’
                                                 The following section highlights audits,
                                                                                                     work hours to ensure compliance with regulato-
                                                 reviews, and investigations performed by
                                                                                                     ry guidance for law enforcement officers. Man-
                                                 the OIG in conducting its oversight of the
                                                                                                     agement also agreed to review Postal Inspectors’
                DID YOU                          Inspection Service. Also, included at the
                                                 end of this section are OIG legislative
                                                                                                     duties to ensure that they meet regulatory
                KNOW?                            and regulatory reviews. Report numbers
                                                                                                     guidance for law enforcement officers.
                                                                                                     (OIG OV-AR-99-001)
                                                 are shown in parentheses after the
                                                 narrative, as appropriate.                          ALLEGATIONS CONCERNING
       How long has the Inspection                                                                   1998 LEADERSHIP CONFERENCE
       Service protected the U.S.                                                                         The OIG evaluated an allegation that the
                                                                                                     Inspection Service abused and wasted Postal
       mails?                                   OFFICE OF INSPECTOR                                  Service funds at their FY 1998 Leadership Con-
       For over 200 years, Postal               GENERAL                                              ference. The OIG concluded that several con-
                                                     One of the primary reasons the OIG was          ference expenditures and agenda items appeared
       Inspectors have protected the
                                                established in the Postal Service was to provide     unnecessary or extravagant, including $82,000
       mail and U.S. citizens to ensure         oversight of Postal Inspection Service activities.   in mementos. In addition, several workshop
       that the public’s confidence in the      The OIG’s work in other significant areas pro-       topics were not directly related to the Inspec-
                                                vides an independent voice with objective            tion Service mission. The OIG offered several
       mail is not undermined.                  information and analysis of Postal Service oper-     suggestions for future conferences including
                                                ations and issues.                                   ensuring workshops are clearly mission related,
                                                                                                     assigning contracting responsibility to one
                                                OVERSIGHT                                            activity to centrally control expenditures,
                                                     The OIG seeks to review and resolve all         requiring that memento expenditures are mod-
                                                individual complaints received against the           est, and limiting conference publication con-
                                                Inspection Service. During this six month peri-      tent. To ensure timely dissemination of the
                                                od, we completed 10 oversight reviews of the         information contained in the report, the OIG
                                                Inspection Service. Two recent oversight             elected to publish the report without manage-
                                                reviews are highlighted below.                       ment’s comments. A revised report will be
                                                                                                     issued when management comments are
                                                INSPECTORS PERFORMING
                                                AUDITS WERE NOT SPENDING                             received. (OIG OV-MA-99-003)
                                                AT LEAST 50 PERCENT OF THEIR                         REVIEW OF COMPLAINTS
                                                TIME PERFORMING LAW                                  REGARDING THE INSPECTION
                                                ENFORCEMENT DUTIES                                   SERVICE
                                                     The OIG conducted an audit to determine             The OIG completed several reviews of
                                                if Postal Inspectors performing audits were prop-    complaints concerning the Inspection Service.
                                                erly classified as law enforcement officers. The     Four examples are discussed below.
       Former Chief Inspector Hunter presides   OIG concluded that at least 91 percent of the
       over the 1998 Leadership Conference,
                                                234 inspectors in the audit universe who were        ◆   The OIG reviewed an allegation that
       which OIG reviewed.                                                                               Postal Inspectors failed to properly inves-
                                                classified as criminal investigators performed
                                                                                                         tigate a customer’s allegations of mail
                                                audits as their primary duties. The OIG recom-
                                                                                                         tampering. The OIG spoke with the
                                                mended that the Chief Postal Inspector estab-
                                                                                                         customer on several occasions regarding
                                                lish controls to ensure Postal Inspectors devote         the allegations to determine if additional
                                                50 percent or more of their work hours to law            action was necessary. The Inspection
                                                enforcement duties, or reclassify the positions to       Service’s documentation on the case was
                                                reflect work performed. In addition, the OIG             reviewed and the Postal Inspectors
                                                recommended that Postal Inspector duties be              assigned to the case were interviewed.
                                                reviewed to ensure they meet the regulatory              The OIG inquiry found that the Inspec-
                                                requirements of a law enforcement officer.               tion Service appropriately closed the case
                                                     As a result of the audit, the Chief Postal          due to lack of evidence.
                                                Inspector plans to divest the Inspection Service         (OIG OV-CR-00-001)
                                                of “Yellow Book” audit work and agreed to


                                     PAGE 78    OVERSIGHT REVIEWS OF INSPECTION SERVICE
041_086_jdl 4/14/00 7:53 PM Page 79




       ◆   The OIG also reviewed an allegation           LEGISLATIVE AND REGULATORY
           from a Postal Service employee at a pro-      REVIEWS
           cessing and distribution center that the
           Inspection Service failed to adequately       PROPOSED LEGISLATION
           investigate his charges of misconduct by
                                                         SWEEPSTAKES MAILING
                                                                                                                    DID YOU
           postal management. The OIG spoke
           with the Postal Service employee, inter-      ◆   S. 335 - Deceptive Mail Prevention                     KNOW?
           viewed Postal Service officials and               and Enforcement Act
           Inspectors from the Inspection Service,       ◆   S. 336 - Deceptive Games of Chance
           and reviewed documentation provided               Mailings Elimination Act of 1999                What is the Mail Fraud
           by all sources. The OIG inquiry found                                                             Statute?
                                                              Senate Bills 335 and 336 would require
           that the Postal Service employee had
           filed an Equal Employment Opportunity         sweepstakes mailings and other promotional          The Mail Fraud Statute contained
           complaint against Postal Service man-         mail to contain clearly written and easily under-
                                                         stood participation rules, and advisories on the    in Title 18 of the United States
           agement. As a result, no further contact
           was made with the Postal Service              recipients’ chances of winnings. Both bills pro-    Code, Section 1341, makes it a
           employee and the case was closed.             vide additional subpoena authority for the
                                                                                                             criminal violation to use the
           (OIG OV-CR-99-004)                            Postal Service. This legislation would give the
       ◆   The OIG reviewed an allegation from a         Postal Service enhanced law enforcement             United States mail or the services
           Postal Service contractor regarding his       authority. The Inspector General submitted a
                                                                                                             of any private or commercial
           removal from Postal Service employment        statement to the Subcommittee supporting the
           and misconduct by Postal Inspectors.          legislation. The legislation’s enhanced law         carrier to carry out a fraudulent
           The OIG preliminary inquiry warranted         enforcement authority is of interest to the OIG     scheme.
           further investigation by the Inspection       because the OIG has oversight responsibility for
           Service Internal Affairs Division. The        the Inspection Service.
           investigation confirmed the Postal
           Service employee’s allegations that Postal
           Inspectors acted unprofessionally, used
           profanity, and unnecessarily displayed a
           service weapon. The two Postal
           Inspectors were counseled on their
           unprofessional conduct.
           (OIG OV-CR-99-011)
       ◆   The OIG reviewed a complaint from a
           customer who alleged Postal Inspectors
           had not satisfactorily investigated allega-
           tions of delayed and undelivered mail by
           Postal Service employees, and mail theft.
           The OIG found that Postal employees
           made various efforts, including increased
           attention, to ensure timely and accurate
           delivery of mail to the customer’s address
           and had attempted numerous times to
           contact the customer and reach a mutu-
           ally satisfactory solution. Based on the
           review, the OIG found no evidence that
           would substantiate the allegations.
           (OIG OV-CR-99-005)




                                                                                                              PAGE 79
041_086_jdl 4/14/00 7:53 PM Page 80




                              PAGE 80   OVERSIGHT REVIEWS OF INSPECTION SERVICE
041_086_jdl 4/14/00 7:53 PM Page 81




                                      Other Significant
                                      Reviews




                                       OFFICE OF INSPECTOR GENERAL
                                            Integrity Reviews
                                            Executive Investigations
                                            Government Performance and Results Act
                                            Legislative and Regulatory Reviews
                                       INSPECTION SERVICE
                                            Physical Security
                                            Narcotics Offenses and Trafficking
                                            Fraud Against Consumers
                                            Fraud Against Businesses
                                            Fraud Against the Government
                                            Child Exploitation
                                            Prohibited Mail
                                            Postal Burglaries

                                                                                 PAGE 81
041_086_jdl 4/14/00 7:53 PM Page 82




                                                                                            an additional service to senior Postal manage-
                                         The following section highlights audits,
                                                                                            ment by requesting voluntary disclosure of
                                         reviews, and investigations performed by
                                                                                            intermediary business relationships. The Gen-
                                         the OIG and the Inspection Service in
                                                                                            eral Counsel did not agree to implement the
                                         other significant areas. Also, included at
                                                                                            OIG suggestion. While the OIG believes these
                                         the end of this section are OIG legislative
                                                                                            enhancements would aid in timely identifica-
                                         and regulatory reviews. In order to dif-
                                                                                            tion of potential conflicts of interest in the
                                         ferentiate the work reported by the OIG
                                                                                            future, the OIG will not pursue this issue fur-
                                         and Inspection Service, the pages con-
                                                                                            ther. (OIG EX-LA-99-001)
                                         taining the Inspection Service work have
                                         been color screened. Report numbers are            EMPLOYEE PLEADS GUILTY IN
                                         shown in parentheses after the narrative,          CONFLICT OF INTEREST
                                         as appropriate.                                          An OIG investigation revealed that a
                                                                                            high-level Postal Service employee had a con-
                                                                                            flict of interest while negotiating with a compa-
                                        OFFICE OF INSPECTOR                                 ny for future employment and at the same time
                                        GENERAL                                             providing advice to the Postal Service about
                                                                                            changing policy that would favor the contrac-
                                             In addition to reviews that are summarized     tor. The employee pled guilty in federal court,
                                        earlier in this Semiannual Report, the OIG has      was sentenced to two years supervised
                                        conducted 20 reviews of significant issues relat-   probation, and fined $2,000.
                                        ed to Postal Service operations. The significant
                                        issues highlighted below center around integrity.
                                                                                            EXECUTIVE INVESTIGATIONS
                                        INTEGRITY REVIEWS                                        The OIG is responsible for reviewing alle-
                                             Integrity in the operation of top Postal       gations against senior-level Postal Service exec-
                                        management is essential to ensuring that the        utives and has over 30 ongoing investigations.
                                        Postal Service serves its customers and employ-     These investigations result from allegations
                                        ees in an ethical manner.                           involving criminal violations. The team is also
                                        OPPORTUNITIES TO IMPROVE                            the focal point for investigations of administra-
                                        PROCEDURES FOR DISCLOSING                           tive violations, including those resulting from
                                        POTENTIAL CONFLICTS OF                              allegations of retaliation action against subordi-
                                        INTEREST                                            nate personnel by Postal officials.
                                              During an inquiry, the OIG noted opportu-
                                                                                            GOVERNMENT PERFORMANCE
                                        nities to enhance the administration of the         AND RESULTS ACT
                                        Postal Service ethics program. Specifically, the         Both the Postal Service and the OIG are
                                        OIG found the procedures for disclosing poten-      directly impacted by the enactment of the Gov-
                                        tial conflicts of interest could be improved. The   ernment Performance and Results Act of 1993.
                                        OIG suggested that senior Postal officials be       The Act mandates that all federal agencies
                                        provided advance notice of: the names of com-       establish a set of measurable performance goals
                                        panies and contractors potentially impacted by      and define their strategies to achieve these
                                        their decisions prior to their participation in     goals. Beginning in 1999, annual performance
                                        decisional meetings, and that senior officials      plans must be prepared and a report must be
                                        disclose intermediary business relationships to     submitted annually beginning March 31, 2000.
                                        the General Counsel, who serves as the desig-       The Postal Service believes that their Cus-
                                        nated agency ethics official. During the inquiry,   tomerPerfect! system complements the intent of
                                        the Postal Service law department instituted        the Act and supports the law’s mandate. The
                                        enhancements in the ethics program that fully       OIG is in the process of designing its review
                                        addressed the first issue and partially addressed   coverage of Postal Service’s implementation of
                                        the second issue. Although not required, the        and compliance with the Act. In addition, OIG
                                        OIG suggested that the Law Department offer         will continue to monitor and review proposed



                              PAGE 82   OTHER SIGNIFICANT REVIEWS
041_086_jdl 4/14/00 7:53 PM Page 83




       amendments to the Act and will actively par-        cil’s authority over Inspectors General would be
       ticipate in interagency groups to discuss and       limited to issuing recommendations regarding
       refine the roles and responsibilities of the OIG.   any decisions and actions an Inspector General
       The result of these discussions will be used, as    may have taken, and the council would submit
       appropriate, to adjust the OIG review coverage.     a report to Congress listing its activities and rec-
                                                           ommendations. Congress could take action
       LEGISLATIVE AND REGULATORY
                                                           affecting the Inspectors General based on the
       REVIEWS
                                                           council’s recommendations.
       PROPOSED LEGISLATION
                                                           H.R. 2013 - Inspector General Act
       S. 870 - Inspector General Act                      Amendments
       Amendments                                               This legislation would provide for the Pres-
            This legislation would amend the Inspec-       idential appointment of Inspectors General for
       tor General Act. If this bill became law, Presi-    those designated federal entities whose Inspec-
       dentially-appointed Inspectors General would        tors General are currently appointed by the
       be appointed to a term of nine years.               head of the agency. This legislative provision
       Appointees could serve more than one term.          would affect the Postal Service whose Inspector
       Another provision provides for a General            General is currently selected by the Postal Ser-
       Accounting Office review of designated federal      vice Governors.
       entities, such as the Postal Service, every three
                                                           PROPOSED RULES
       years. In addition, the semiannual reporting
       requirement to Congress would be changed to         CHANGES IN ORGANIZATION NAMES
       an annual reporting requirement.                    AND TITLES—EFFECT UPON RELEASE
            The Postal Service Inspector General is        OF INFORMATION AND RECORDS
       not Presidentially appointed and would not be       MANAGEMENT
       affected by the term provision. However, some             This rule revises the organizational names
       other provisions of the bill do apply to the        and titles contained in Postal Service regula-
       Postal Service Inspector General, such as Gen-      tions relating to policies for the release of infor-
       eral Accounting Office review and annual            mation and records management. These names
       reporting. This legislation would not have a        and titles changed as a result of agency restruc-
       significant impact on the current operation of      turing. The revisions reflect to whom the pub-
       the Postal Service OIG.                             lic should address issues relating to the release of
                                                           information and records management. This
       H.R. 305 - Office of Inspector General              rule also updates composition of the Postal Ser-
       Oversight Act of 1999                               vice’s Data Integrity Board, of which the
            This bill would establish a seven-member       Inspector General is a member. (Federal Regis-
       council to oversee the operations of Inspectors     ter, Volume 64, Number 146, Pages 41289-
       General throughout the federal government.          41291, July 30, 1999.)
       Congress would appoint four members, and the
       remaining three would be selected jointly by
       Inspectors General of federal agencies. The
       council would receive and investigate com-
       plaints about decisions and actions of offices of
       Inspectors General and issue recommendations
       regarding such complaints.
            House Bill 305 would have an impact on
       the Postal Service OIG. It would establish
       additional oversight of the OIG, beyond the
       current peer review process and potential
       reviews by the General Accounting Office, the
       President’s Council on Integrity and Efficiency
       Integrity Committee, and Congress. The coun-


                                                                                                                  PAGE 83
041_086_jdl 4/14/00 7:53 PM Page 84




                                                                                                  investigates a variety of mail fraud schemes,
                                              INSPECTION SERVICE                                  including fraud against consumers. Some of the
                                                   The Inspection Service conducted numer-        most significant investigations follow.
                                              ous audits and investigations covering signifi-
              DID YOU                         cant issues in the following areas: physical
                                                                                                  ◆   An individual pled guilty to a three-
                                                                                                      count indictment charging conspiracy to
              KNOW?                           security; narcotics trafficking; fraud against
                                              businesses; fraud against the government; child
                                                                                                      commit securities fraud and perjury. The
                                                                                                      individual participated in a scheme to
                                              exploitation; mail bombs and mail threats; and          manipulate the stock price of an initial
                                              prohibited mail.                                        public offering, resulting in investment
       Is the OIG part of the Postal
                                                                                                      losses to the public of over $100 million.
       Service?                               PHYSICAL SECURITY
                                                                                                      The individual agreed to forfeit
                                                   An area coordination audit of facility             $850,000.
       Yes, OIG employees are Postal          security in the Western Area was completed in
                                                                                                  ◆   As a result of an Inspection Service
       Service employees; however, the        June. Audit results revealed that deficiencies
                                                                                                      investigation, 10 individuals were indict-
                                              existed in the following areas: security program,
       OIG is not part of Postal Service                                                              ed in a $60 million scheme that defraud-
                                              security awareness training, identification
                                                                                                      ed over 34,000 inventors. The 10 indi-
       management chain and does not          badges, contingency planning, crisis manage-            viduals ran three invention promotion
                                              ment planning, and registry operations. Man-            companies that used mass mailings to
       report to the Postmaster General,
                                              agement agreed with all recommendations and             lure victims with false and misleading
       as do the other Postal Service         began implementation of corrective actions.             representations to pay advance fees as
       employees. To the extent               (IS 044-1272744-PA(2))                                  high as $11,000.

       practical, the OIG follows             NARCOTICS TRAFFICKING                               ◆   An Inspection Service investigation of a
                                                   The Inspection Service interdicts drug             well-known financial advisor for schools
       Postal Service procedures.                                                                     was indicted on 134 counts of mail fraud,
                                              mailings to protect Postal employees and cus-
                                                                                                      securities fraud, false statements, money
                                              tomers from the violence associated with this
                                                                                                      laundering, and criminal forfeiture. The
                                              crime and to prevent the abuse of the mail for
                                                                                                      individual, who managed investment
                                              such illicit purposes. Inspectors made 802
                                                                                                      funds for a number of school districts,
                                              arrests and obtained 747 convictions in this area       was charged with defrauding the school
                                              during this reporting period.                           districts of $71 million.
                                              ◆   Inspectors in Pennsylvania arrested two         ◆   As a result of an Inspection Service
                                                  individuals and two other individuals               investigation, three individuals were
                                                  were indicted for their involvement in a            arrested for mail and wire fraud for sub-
                                                  conspiracy to distribute heroin, prescrip-          mitting more than $14 million in false
                                                  tion drugs, and marijuana into the Penn-            invoices to over 13,000 businesses and
                                                  sylvania State Correctional Institute. An           institutions.
                                                  Express Mail package, with four heroin
                                                                                                  ◆   An Inspection Service mail fraud investi-
                                                  balloons, was delivered to an inmate.
                                                                                                      gation resulted in an individual being
                                                  The recipient died after ingesting the
                                                                                                      sentenced to 37 months imprisonment
                                                  contents of one of the balloons. One
                                                                                                      followed by two years supervised release
                                                  defendant pled guilty and the others were
                                                                                                      and restitution of $3.5 million. Seven
                                                  convicted on conspiracy and distribution
                                                                                                      additional individuals assisted in the
                                                  charges. The individual who pled guilty
                                                                                                      scheme to defraud $8.4 million from at
                                                  disclosed a scheme in which heroin was
                                                                                                      least 6,500 investors.
                                                  being smuggled into prisons under self-
                                                  adhesive stamps. As a result of this            ◆   As a result of an Inspection Service
                                                  investigation, all state correctional insti-        investigation, an individual was sen-
                                                  tutions in Pennsylvania now remove                  tenced to 30 years imprisonment and
                                                  stamps prior to delivery to the inmates.            ordered to pay restitution of more than
                                                                                                      $8.6 million for organizing an illicit
                                              FRAUD AGAINST CONSUMERS                                 advertising operation.
                                                   To preserve the public’s confidence and
                                              trust in the U.S. Mail, the Inspection Service


                                    PAGE 84   OTHER SIGNIFICANT REVIEWS
041_086_jdl 4/14/00 7:53 PM Page 85




       FRAUD AGAINST BUSINESSES                             devices sent through the mail. The Inspection
            The mail is often used to submit false or       Service responded to 925 incidents of suspicious
       inflated invoices to businesses and institutions.    items in the mail and 108 bomb threats against
       A notable investigation follows:                     Postal facilities. The following are significant
                                                            investigations.
       ◆   An individual who previously pled guilty
           in an Inspection Service case involving          ◆   An Inspection Service investigation
           mail fraud and wire fraud was found                  resulted in an individual being sentenced
           guilty of capital murder and sentenced to            to two life terms plus 10 years for mailing
           a mandatory life sentence.                           an explosive device, which caused the
                                                                death of a person who was the roommate
       FRAUD AGAINST THE                                        of the intended victim. The individual
       GOVERNMENT                                               was also convicted of placing an explo-
            Postal Inspectors also work to protect the          sive device on the vehicle of the intend-
                                                                ed victim’s boyfriend.
       Government from being victimized by mail
       fraud. Two notable investigations involving          ◆   As a result of an Inspection Service
       fraud against the government follow.                     investigation, an individual was sen-
                                                                tenced to seven years in prison for send-
       ◆   An Inspection Service investigation                  ing a former spouse an explosive device
           resulted in a State representative being             inside a hollowed-out Bible.
           convicted on mail fraud and conspiracy
           charges. The representative submitted            POSTAL BURGLARIES
           $51 million in fraudulent transactions
                                                                 The Inspection Service employs sophisti-
           and mailings.
                                                            cated burglary prevention techniques and
       ◆   As a result of an Inspection Service             detection devices to make Postal facilities less
           investigation in California, two individu-       vulnerable to attack. Burglaries may result in
           als who defrauded the Department of              property losses or mail thefts and indirect losses
           Veterans’ Affairs of educational assis-
                                                            for damage repairs from forced entries. During
           tance benefits of more than $3.8 million
                                                            this reporting period, the Inspection Service
           were found guilty of mail fraud, conspira-
                                                            made 75 burglary arrests, and obtained 62 con-
           cy, and false claims.
                                                            victions, including the following:
       CHILD EXPLOITATION                                   ◆ In August and November of 1994, two
                                                                 post offices in Pennsylvania were burglar-
             Postal Inspectors employ proactive inves-
                                                                 ized. After a five year investigation, an
       tigative techniques to identify and bring to jus-         individual was extradited from a Texas jail
       tice individuals who use the mail to distribute or        to Pennsylvania and arrested for both bur-
       knowingly receive child pornography. During               glaries. Prior to initiation of the trial the
       this reporting period, Postal Inspectors made 96          individual pled guilty to burglary and cor-
       arrests and obtained 72 convictions in this area.         ruption charges and was sentenced to two
       One investigation in this area included:                  and one-half to five years in prison.
       ◆   Inspection Service participation on a
           task force of local and federal law
           enforcement agencies in Indiana resulted
           in the sentencing an individual who was
           sentenced to 27 years in prison and fined
           $5,000 for offenses relating to ordering
           child pornography videos through the
           mail.

       PROHIBITED MAIL
            In the interest of protecting customers and
       Postal employees, Postal Inspectors place a high
       priority on the investigation of explosive


                                                                                                                 PAGE 85
041_086_jdl 4/14/00 7:53 PM Page 86




                              PAGE 86   OTHER SIGNIFICANT REVIEWS
087_118_jdl 4/14/00 7:31 PM Page 87




                                      Appendices




                                         DID YOU
                                         KNOW?
                                       What is the OIG’s website address?
                                       OIG’s website is www.uspsoig.gov.




                                                                            PAGE 87
087_118_jdl 4/14/00 7:31 PM Page 88




                                        APPENDIX A

                                        Closed          Congressional Inquiries
                                        This appendix represents the 50 congressional inquiries the Office of Inspector General closed
                                        during this reporting period (April 1, 1999, to September 30, 1999). We reviewed these
                                        inquiries to help identify systemic issues and to determine the need for future Postal-wide audits.

                                        PERFORMANCE
                                                                                                                                 Response
                                        Requestor               Allegations/Concern                          Location                Date
                                        Representative,         Relocation of postal facility and            New Haven,           5/17/99
                                        Connecticut              environmental issues                        Connecticut


                                        Representative,         Excessive bulk mail deliveries               Azusa,                7/2/99
                                        California                                                           California


                                        Chairman,               Misdirection and delay of                    Washington, DC       9/30/99
                                        Postal Subcommittee     government mailings


                                        Chairman,               Untimely delivery of                         Postal-wide          9/30/99
                                        Postal Subcommittee     newspapers sent via
                                                                Periodical Class mail


                                        Representative,         Lost contents of package                     San Francisco,       9/30/99
                                        California                                                           California


                                        Representative,         Mail not delivered to house mailbox          Hilo,                9/30/99
                                        Hawaii                                                               Hawaii



                                        FINANCIAL MANAGEMENT
                                                                                                                                 Response
                                        Requestor               Allegations/Concern                          Location                Date
                                        Representative,         Viability of the Postal Service              Postal-wide          5/14/99
                                        Pennsylvania            Corporate Treasury to manage in
                                                                current financial market


                                        Representative,         Examine Postal Service policies and          St. Louis,           5/17/99
                                        Pennsylvania            procedures regarding revenue                 Missouri;
                                                                assessment for periodicals                   Southern Illinois


                                        Representative,         Examine Postal Service policies and          St. Louis,           5/17/99
                                        Missouri                procedures regarding revenue                 Missouri;
                                                                assessment for periodicals                   Southern Illinois


                                        Representative,         Examine Postal Service policies and          St. Louis,           5/17/99
                                        Missouri                procedures regarding revenue                 Missouri;
                                                                assessment for periodicals                   Southern Illinois


                                        Representative,         Examine Postal Service policies and          St. Louis,           5/17/99
                                        Illinois                procedures regarding revenue                 Missouri;
                                                                assessment for periodicals                   Southern Illinois


                                        Senator,                Evaluate the Postal Service’s relationship   Postal-wide          6/18/99
                                        Iowa                    with a Mexican-based bank to identify
                                                                potential business risks


                                        Chairman,               Mechanical work performed at                 Wilmington,          9/30/99
                                        Postal Subcommittee     vehicle maintenance facility                 Delaware



                              PAGE 88   APPENDICES
087_118_jdl 4/14/00 7:31 PM Page 89




       LABOR MANAGEMENT
                                                                                              Response
       Requestor             Allegations/Concern                             Location             Date
       Representative,       Unfair suspension for assaulting a              Mid-Island,       4/22/99
       New York              Postal Service supervisor                       New York


       Representative,       Personnel hiring process                        Edgartown,       5/10/99
       Massachusetts                                                         Massachusetts


       Senator,              Personnel hiring process                        Edgartown,       5/10/99
       Massachusetts                                                         Massachusetts


       Senator,              Working conditions,                             Prince George,   6/24/99
       Virginia              back pay, and benefits                          Virginia


       Representative,       Allegations of supervisor                       New Brunswick,   7/17/99
       New Jersey            assault and harassment                          New Jersey


       Representative,       Mistreatment by Postal Service management       Oakland,         7/19/99
       California            relative to a Workers’ Compensation claim       California


       Senator,              Discriminatory treatment by Human               Greensboro,      7/19/99
       North Carolina        Resources personnel and management              North Carolina


       Representative,       Arbitration for Postal Service disciplinary     Babylon,         7/19/99
       New York              action was prolonged and unfair                 New York


       Senator,              Reimbursement of lost wages,                    Racine,          7/19/99
       Wisconsin             working conditions                              Wisconsin


       Representative,       Discrimination against a                        Oakland,         7/19/99
       California            transitional employee                           California


       Chairman,             Abusive labor practices, harassment and         Postal-wide      7/29/99
       Postal Subcommittee   discrimination with the Postal Service


       Representative,       Request for OIG documents used                  Herndon,         7/29/99
       Virginia              in preparing reply                              Virginia


       Representative,       Review of terms of “constructive resignation”   Stockton,          9/3/99
       California            from part-time position with the                California
                             Postal Service


       Representative,       Hostility, mismanagement, and                   Milpitas,          9/3/99
       California            harassment of employees                         California


       Representative,       Unresponsiveness and misconduct by              San Francisco,     9/3/99
       California            Postal Service management                       California


       Representative,       Intimidation and retaliation by a supervisor    Boston,          9/24/99
       Massachusetts                                                         Massachusetts


       Representative,       Denial of a position with the Postal Service    Stockton,        9/30/99
       California            because of age and racial discrimination and    California
                             retaliation for union involvement


       Representative,       Hostile work environment and unfair             Essex,           9/30/99
       Vermont               hiring process for “casual” employees           Vermont




                                                                                                         PAGE 89
087_118_jdl 4/14/00 7:31 PM Page 90




                                                                                                                                  Response
                                        Requestor             Allegations/Concern                                Location             Date
                                        Senator,              Mismanagement, harassment and retaliation          Granbury,         9/30/99
                                        Texas                 by district Postal Service managers                Texas


                                        Representative,       Abusive behavior by                                Postal-wide      9/30/99
                                        Pennsylvania          supervisors and managers


                                        Representative,       Mismanagement, harassment and                      Payson,          9/30/99
                                        Arizona               impropriety by Postal Service management           Arizona


                                        Representative,       Physical violence, racism,                         Jackson,         9/30/99
                                        Mississippi           and discrimination                                 Mississippi


                                        Representative,       Wrongful termination                               New York,        9/30/99
                                        New York                                                                 New York


                                        Representative,       Harassment and retaliation by supervisor           Huntsville,      9/30/99
                                        Alabama                                                                  Alabama


                                        Representative,       Mishandling of disability claim                    Tolono,          9/30/99
                                        Illinois                                                                 Illinois



                                        OVERSIGHT OF INSPECTION SERVICE
                                                                                                                                  Response
                                        Requestor             Allegations/Concern                                Location             Date
                                        Senator,              Constituent was concerned about                    Belcamp,          4/21/99
                                        Maryland              a possible wiretap                                 Maryland


                                        Chairman,             Mail theft, delayed and undeliverable mail,        Washington, DC   4/26/99
                                        Postal Subcommittee   and concerns of mail service by
                                                              Postal Service employees


                                        Chairman,             Misconduct by Postal Service management            Herndon,         4/28/99
                                        Postal Subcommittee   and incomplete investigation by Postal             Virginia
                                                              Inspection Service


                                        Senator,              Mail fraud and collusion by Postal Service         Postal-wide      5/10/99
                                        New Jersey            employees and inadequate investigation
                                                              by Inspection Service


                                        Representative,       Postal Inspectors failed to properly investigate   Greenbelt,       5/17/99
                                        Maryland              allegations of mail tampering                      Maryland


                                        Senator,              Postal Inspection Service employees acted          Great Falls,     7/29/99
                                        Montana               unprofessionally in the course of                  Montana
                                                              an investigation


                                        Chairman,             Postal Inspection Service inappropriately          Postal-wide      9/24/99
                                        Postal Subcommittee   providing law enforcement pay and benefits
                                                              to Inspectors performing audit work


                                        Representative,       Unresponsiveness of Postal Inspection Service      Mankato,         9/30/99
                                        Minnesota             and mail delivery problem                          Minnesota




                              PAGE 90   APPENDICES
087_118_jdl 4/14/00 7:31 PM Page 91




       OTHER SIGNIFICANT REVIEWS
                                                                                      Response
       Requestor             Allegations/Concern                      Location            Date
       Chairman              Additional investigation required        Suncoast,        5/17/99
       Postal Subcommittee                                            Florida


       Senator,              Delayed response                         Jordan,           9/2/99
       New York                                                       New York


       Chairman,             Violations of anti-lobbying provisions   New Hampshire   9/30/99
       Postal Subcommittee   of Title 18, Section 1913, of the
                             United States Code Act


       Senator,              Additional investigation required        Tampa,          9/30/99
       Florida                                                        Florida




                                                                                                 PAGE 91
087_118_jdl 4/14/00 7:31 PM Page 92




                                        APPENDIX B

                                        Reports Issued to Postal Management
                                        OVERVIEW
                                        Office of Inspector General
                                        The Office of Inspector General (OIG) audit teams are aligned to conduct performance and
                                        financial audits, evaluations, and other reviews to address the business processes of the Postal
                                        Service. Each directorate issues audit reports (AR), letter advisory reports (LA), or management
                                        advisory reports (MA) in accordance with the identified needs of the project.

                                        Inspection Service
                                        The Inspection Service audit groups are aligned by the type of audits performed which are prima-
                                        rily performance, financial, contract, and facility audits. The Inspection Service continued to
                                        provide Postal-wide attention in selected areas until these functions are fully transitioned to the
                                        OIG.


                                        SUMMARY
                                        The following is a summary by principal areas of reports issued to Postal management between
                                        April 1, 1999 and September 30, 1999. Congressional inquires completed by OIG are listed in
                                        Appendix A.
                                                                                                                               Recommend
                                                                                  Number of      Questioned    Unsupported    Funds Put to
                                        Principal Area                        Reports Issued          Costs          Costs      Better Use
                                        Accepting and Processing                          6              $0            $0              $0
                                        Computer Security                                 2               0             0               0
                                        Contracting and Facilities                       15               0             0               0
                                        Delivery Operations                               3               0             0               0
                                        Developmental                                     3               0             0               0
                                        Electronic Commerce                               1               0             0               0
                                        Financial Data Processing Systems                 4               0             0               0
                                        Financial Related                                 7               0             0               0
                                        Health Care                                       4               0             0               0
                                        Information Systems                               1               0             0               0
                                        Integrity                                        16               0             0               0
                                        Marketing                                         8               0             0     962,000,000
                                        Oversight                                         2               0             0               0
                                        Transportation                                    5               0             0     204,700,000
                                        Violence in the Workplace                         5               0             0               0
                                        Workplace Climate                                 2               0             0               0
                                        Y2K                                               5               0             0               0
                                        Contract Audit                                   36      16,275,943        10,383      35,919,897
                                        District Accounting Office Audit                 17               0             0               0
                                        Expenditure Investigation                         2               0             0               0
                                        Facility Program Audits                           5               0             0               0
                                        Financial Installation Audit                    111               0             0               0
                                        Financial Investigation                          21               0             0               0
                                        Financial Opinion Audit                          78               0             0               0
                                        Performance Audit                                44               0             0       1,240,000
                                        Revenue Investigation                            98               0             0       1,023,252

                                        GRAND TOTAL                                    501     $16,275,943       $10,383 $1,204,883,149


                              PAGE 92   APPENDICES
087_118_jdl 4/14/00 7:31 PM Page 93




       REPORT LISTING
       The following is a list of each audit grouped by core business processes and enabling functions.


       OIG REPORTS
       April 1, 1999 through September 30, 1999
       PERFORMANCE
                                                                                           Un- Recommend
       Case/Report     Subject Title/                     Location/     Questioned   supported Funds Put to     Issue
       Number          Project Type                       Contract           Costs       Costs Better Use        Date
        ACCEPTING AND PROCESSING
       AC-MA-99-001        Review of the USPS             Postal-wide          $0          $0           $0    9/20/99
                           Equipment Preventive
                           Maintenance Program
       DA-AR-99-001        Priority Mail Processing       Postal-wide           0            0           0    9/24/99
                           Center Network
       AC-LA-99-001        Review of Periodicals                                0            0           0    9/27/99
       AC-MA-99-002        Review of Periodicals in       Atlanta, GA           0            0           0    9/27/99
                           the Atlanta District
       AC-AR-99-001        Plant Verified Drop            Postal-wide           0            0           0    9/28/99
                           Shipment System
       DS-AR-99-003        Government Mails Section Washington, DC              0            0           0    9/29/99
                           of the Brentwood Processing
                           and Distribution Center,
                           Washington, DC
        TRANSPORTATION
       97RI002CA001        Fuel Test Implementation                             0            0           0    4/19/99
                           and Environmental
                           Compliance
       TR-AR-99-001        Compliance Opportunities       Postal-wide           0            0 $55,000,000    9/23/99
                           for Savings in Rail
                           Detention Costs
       TR-AR-99-003        Emergency and Extra Trip       Postal-wide           0            0 $137,000,000 9/29/99
                           Expenditures on
                           Highway Routes
       CA-AR-99-001        Opportunities to Increase      Postal-wide           0            0 $12,700,000    9/30/99
                           Savings Through the Use
                           of Natural Gas Vehicles
       CA-AR-99-002        Removal of Underground         Postal-wide           0            0           0    9/30/99
                           Storage Tanks
        SERVICE DELIVERY
       99-RI-052-RQ000     False Claims Allegation                              0            0           0    8/18/99
       DS-MA-99-006        Complaint Resolution                                 0            0           0    9/10/99
                           Process, Mankato Post Office
       DS-AR-99-002        USPS Welcome Kit Program Postal-wide                 0            0           0    9/20/99
        MARKETING
       RG-LA-99-001        Review of the Printing Error                         0            0           0    5/20/99
                           in Grand Canyon Stamp
       RG-MA-99-005        Review of the Operations       Postal-wide           0            0           0    7/27/99
                           of the Citizens' Stamp
                           Advisory Committee
       DA-AR-99-003        Corporate Call Management Postal-wide                0            0 $962,000,000 9/29/99
       RQ-MA-99-001        Maintenance of Self-Serve      Postal-wide           0            0           0    9/30/99
                           Postal Centers




                                                                                                                        PAGE 93
087_118_jdl 4/14/00 7:31 PM Page 94




                                                                                                                               Un- Recommend
                                        Case/Report         Subject Title/                    Location/     Questioned   supported Funds Put to     Issue
                                        Number              Project Type                      Contract           Costs       Costs Better Use        Date
                                        RG-MA-99-006        Review of the Revamped       Postal-wide                0            0           0    9/30/99
                                                            Sales and Services Associate
                                                            Training Program
                                        RG-MA-99-008        Review of Initiative to           Postal-wide           0            0           0    9/30/99
                                                            Improve the National
                                                            Accounts Management
                                                            Program
                                        RG-MA-99-009        Continuous Tracking Study         Postal-wide           0            0           0    9/30/99
                                        RG-MA-99-010        Reproductions of                  Postal-wide           0            0           0    9/30/99
                                                            Stamp Images
                                        TOTAL                                                                       0           0
                                                                                                                              $1,167,300,000

                                        FINANCIAL MANAGEMENT
                                                                                                                               Un- Recommend
                                        Case/Report      Subject Title/                       Location/     Questioned   supported Funds Put to     Issue
                                        Number           Project Type                         Contract           Costs       Costs Better Use        Date
                                         FINANCIAL-RELATED
                                        FR-AR-99-006        Review of Dinero                  Postal-wide           0            0           0    4/29/99
                                                            Seguro Program
                                        99-RP-009-RQ000     Deceased Annuitant                                      0            0           0    8/18/99
                                                            Benefits Payments
                                        98-RI-017-RP000     Embezzlement Allegation                                 0            0           0     8/3/99
                                        98-RI0-18-RP000     Embezzlement Allegation                                 0            0           0    8/30/99
                                        FR-AR-99-007        Bank Secrecy Act                  Postal-wide           0            0           0    9/20/99
                                                            System Update
                                        RG-MA-99-007        Review of International           Postal-wide           0            0           0    9/21/99
                                                            Travel Process
                                        FR-MA-99-003        Mementos and Other Items Postal-wide                    0            0           0    9/27/99
                                                            Provided at Conferences,
                                                            Meeting and Training Sessions
                                        FINANCIAL DATA-PROCESSING SYSTEMS
                                        FR-FA-99-001        Money Order Edit Codes            Postal-wide           0            0           0    7/22/99
                                        FR-AR-99-010        Fiscal Year 1999 Information St. Louis, MO              0            0           0    9/28/99
                                                            System Controls,
                                                            St. Louis Information
                                                            Service Center
                                        FR-AR-99-008        Fiscal Year 1999             San Mateo, CA              0            0           0    9/29/99
                                                            Information System Controls,
                                                            San Mateo Information
                                                            Service Center
                                        FR-AR-99-009        Fiscal Year 1999             Minneapolis, MN            0            0           0    9/29/99
                                                            Information System Controls,
                                                            Minneapolis Information
                                                            Service Center
                                        CONTRACTING AND FACILITIES
                                        98-RI-013-CA000     Conflict of Interest Allegation                         0            0           0    8/30/99
                                        98-RI-036-RP000     Bribery Allegation                                      0            0           0     6/1/99
                                        CA-MA-99-001        Contracting Concerns          Wilmington, DE            0            0           0     7/7/99
                                                            Identified at the Wilmington,
                                                            Delaware Vehicle
                                                            Maintenance Facility
                                        LA-FA-99-002        Procurement Training for    Postal-wide                 0            0           0    7/23/99
                                                            Contract Employees Assigned
                                                            to Facilities Project
                                                            Manager Positions
                                        99-RI-012-RQ000     Improper Property Disposal                              0            0           0    8/18/99

                              PAGE 94   APPENDICES
087_118_jdl 4/14/00 7:31 PM Page 95




                                                                                            Un- Recommend
       Case/Report       Subject Title/                 Location/        Questioned   supported Funds Put to     Issue
       Number            Project Type                   Contract              Costs       Costs Better Use        Date
       99-RP-018-RQ000   Corruption Allegation                                    0           0            0   8/18/99
       99-RI-019-RQ000   False Statements Allegation                              0           0            0   8/18/99
       99-RP-004-RP000   Postal Money Orders Project                              0           0            0   8/30/99
       99-RI-078-RQ000   False Statements Allegation                              0           0            0    9/7/99
       FA-MA-99-001      Tulsa Chimney Hill                Tulsa, Ok              0           0            0    9/8/99
                         Carrier Annex
       99-RI-018-RQ000   Conflict of Interest Allegation                          0           0            0   9/14/99
       99-RP-021-RP000   False Statement Allegation                               0           0            0   9/29/99
       CA-AR-99-003      Responsibilities of               Postal-wide            0           0            0   9/30/99
                         Contracting Officer's
                         Representatives
       98-RP-012-RP000   Gratuities Allegation                                    0           0            0   9/30/99
       99-RP-002-RP000   Quality Assurance                                        0           0            0   9/30/99
       TOTAL                                                                    $0          $0           $0


       TECHNOLOGY
                                                                                            Un- Recommend
       Case/Report       Subject Title/                    Location/     Questioned   supported Funds Put to     Issue
       Number            Project Type                      Contract           Costs       Costs Better Use        Date
        Y2K
       FR-MA-99-002      Y2K Initiative: Review            Postal-wide          $0           $0          $0     7/7/99
                         of Administration
       99-RP-024-RQ000   False Statements Allegation,                             0           0            0   8/13/99
                         Y2K
       99-RP-019-RQ000   Product Substitution Allegation,                         0           0            0   8/27/99
                         Y2K
       IS-AR-99-002      Y2K Initiative: Status on    Postal-wide                 0           0            0   9/20/99
                         Postal Service Y2K Readiness
       TR-AR-99-002      Y2K Business Continuity   Postal-wide                    0           0            0   9/29/99
                         and Contingency Planning:
                         Initiation and
                         Business Impacts
        DEVELOPMENTAL
       DA-MA-99-002      Tray Management System            Postal-wide            0           0            0   6/28/99
                         Software Management
       DA-AR-99-002      Point of Service ONE              Postal-wide            0           0            0   9/20/99
       DA-LA-99-004      Point of Service ONE              Postal-wide            0           0            0   9/30/99
        COMPUTER SECURITY
       CI-MA-99-001      Warning Banners and               Postal-wide            0           0            0   6/11/99
                         Monitoring on USPS
                         Computer System
       CI-LA-99-001      Computer Security                 Postal-wide            0           0            0   7/30/99
        INFORMATION SYSTEMS
       DS-MA-99-005      Review of Wireless       Postal-wide                     0           0            0   6/29/99
                         Communications Equipment
                         and Services
        ELECTRONIC COMMERCE
       IG-PA-99-001      Misuse of Postal Service Logo Postal-wide                0           0            0
       TOTAL                                                                    $0          $0           $0




                                                                                                                         PAGE 95
087_118_jdl 4/14/00 7:31 PM Page 96




                                        LABOR MANAGEMENT
                                                                                                                                 Un- Recommend
                                        Case/Report      Subject Title/                   Location/           Questioned   supported Funds Put to     Issue
                                        Number           Project Type                     Contract                 Costs       Costs Better Use        Date
                                         VIOLENCE IN THE WORKPLACE
                                        ER-AR-99-002       Review of the Violence         Suncoast (FL) District     $0          $0           $0    8/24/99
                                                           Prevention Program in the
                                                           Suncoast District and the
                                                           Impact on Workplace
                                                           Climate and Operations
                                        LM-LA-99-001       Allegation of a Threat to      Southwest Area              0            0           0    9/27/99
                                                           Physically Assault an
                                                           Employee at a Southwest
                                                           Area Post Office
                                        LM-LA-99-002       Allegation of a Hostile        Midwest Area                0            0           0    9/27/99
                                                           Working Environment at a
                                                           Midwest Area Post Office
                                        LM-LA-99-003       Allegation Plant Manager       Western Area                0            0           0    9/27/99
                                                           in the Western Area
                                                           Jeopardized the Safety of
                                                           USPS Employees and
                                                           the Public
                                        LM-MA-99-010       Allegation of a Physical       Southeast Area              0            0           0    9/29/99
                                                           Assault on an Employee
                                                           in a Southeast Area
                                                           Carrier Unit
                                        WORKPLACE CLIMATE
                                        LR-MA-99-009       Allegations of Harassment      Atlanta, GA                $0          $0           $0    7/30/99
                                                           and Intimidation of
                                                           Employees at the
                                                           Atlanta North Metro
                                                           Processing and
                                                           Distribution Center
                                        LR-AR-99-012       Allegation of Unwarranted Southeast Area                   0            0           0    9/29/99
                                                           Disciplinary Actions Against
                                                           Postmasters in a District
                                                           in the Southeast Area
                                        HEALTH CARE
                                        98-R1-037-CA000    False Claims Allegation                                    0            0           0    4/19/99
                                        99-RI-014-HC000    False Claims Allegation                                    0            0           0    4/19/99
                                        99-RI-080-HC000    False Claims Allegation                                    0            0           0    9/21/99
                                        HC-AR-99-001       Northern Virginia District's   Northern Virginia           0            0           0    9/29/99
                                                           Process for Submitting,
                                                           Controverting, and
                                                           Challenging Injury Claims
                                        TOTAL                                                                        $0          $0           $0


                                        OVERSIGHT REVIEWS OF INSPECTION SERVICE
                                                                                                                                 Un- Recommend
                                        Case/Report        Subject Title/                 Location/           Questioned   supported Funds Put to     Issue
                                        Number             Project Type                   Contract                 Costs       Costs Better Use        Date
                                        OV-AR-99-001       Classification of Inspection   Postal-wide                $0          $0           $0    9/21/99
                                                           Service Personnel
                                                           Performing Audits
                                        OV-MA-99-003       Fiscal Year 1998               Postal-wide                 0            0           0    9/30/99
                                                           Leadership Conference
                                        TOTAL                                                                        $0          $0           $0




                              PAGE 96   APPENDICES
087_118_jdl 4/14/00 7:31 PM Page 97




       OTHER SIGNIFICANT REVIEWS
                                                                                          Un- Recommend
       Case/Report       Subject Title/                    Location/   Questioned   supported Funds Put to       Issue
       Number            Project Type                      Contract         Costs       Costs Better Use          Date
       98-RI-043-RP000   Conflict of Interest Allegation                      $0          $0            $0    6/1/99
       98-CX-022-EX000   Executive Investigation                               0            0            0    6/2/99
       99-CX-008-EX000   Executive Investigation                               0            0            0   6/21/99
       99-CX-022-EX000   Executive Investigation                               0            0            0   6/24/99
       98-CX-024-EX000   Executive Investigation                               0            0            0   6/29/99
       98-CX-020-EX000   Executive Investigation                               0            0            0    7/7/99
       99-CX-005-EX000   Executive Investigation                               0            0            0   7/15/99
       98-RI-031-RP000   Conflict of Interest Allegation                       0            0            0   7/29/99
       98-CX-034-EX000   Executive Investigation                               0            0            0   8/11/99
       99-CX-018-EX000   Executive Investigation                               0            0            0   8/16/99
       99-RI-002-RP000   Gratuities Allegation                                 0            0            0   8/18/99
       99-RI-060-RQ000   Credit Card Fraud Allegation                          0            0            0   8/18/99
       99-RI-059-RQ000   Impersonation Allegation                              0            0            0    9/7/99
       99-CX-013-EX000   Executive Investigation                               0            0            0    9/8/99
       99-CX-028-EX0PI   Executive Investigation                               0            0            0    9/8/99
       EX-LA-99-001      USPS Ethics Program -                                 0            0            0   9/30/99
                         Conflicts of Interest
       TOTAL                                                                  $0          $0           $0

       OIG GRAND TOTAL                                                        $0
                                                                                           $0
                                                                                                $1,167,300,000




                                                                                                                         PAGE 97
087_118_jdl 4/14/00 7:32 PM Page 98




                                        INSPECTION SERVICE REPORTS
                                        FINANCIAL MANAGEMENT
                                                                                                                       Un- Recommend
                                        Case/Report         Subject Title/              Location/   Questioned   supported Funds Put to     Issue
                                        Number              Project Type                Contract         Costs       Costs Better Use        Date
                                         CONTRACTS
                                        181-1226912-AC(1) New Breed Leasing                                $0          $0     $894,638    4/21/99
                                                          Corporation
                                        181-1258890-AC(1) Control Logic, Inc.                               0            0      30,449    5/14/99
                                        181-1266103-AC(1) New Breed Leasing                                 0            0   8,475,352    4/23/99
                                                          Corporation
                                        181-1269196-AC(1) Control Logic, Inc.                               0            0           0    9/24/99
                                        181-1278136-AC(1) Siemens ElectroCom, L.P.                          0            0   6,079,291     4/2/99
                                        181-1280201-AC(1) Rudolph/Libbe, Inc.                               0            0           0    7/26/99
                                        181-1281155-AC(1) Aramark Services, Inc.                            0            0   2,433,275    6/10/99
                                        181-1282982-AC(1) Laurits R. Christensen                            0            0           0    4/29/99
                                                          Associates, Inc.
                                        181-1283348-AC(1) Alan Ritchey, Inc.                                0            0       9,795    5/11/99
                                        181-1283911-AC(1) Siemens ElectroCom, L.P.                          0            0      46,162    4/30/99
                                        181-1286335-AC(1) Burns & McDonnell                                 0            0      33,419    6/16/99
                                                          Engineering Company, Inc.
                                        181-1288330-AC(1) Learning Systems                                  0            0           0    5/27/99
                                                          International
                                        181-1288561-AC(1) VISTA Network                                     0            0      94,303    6/15/99
                                                          Integration Services, Inc.
                                        181-1289630-AC(1) Siemens ElectroCom, L.P.                          0            0   4,403,092    7/21/99
                                        181-1292836-AC(1) Kling Lindquist Partnership                       0            0           0    7/26/99
                                        181-1293536-AC(1) Siemens ElectroCom, L.P.                          0            0 13,259,519     8/13/99
                                        181-1294162-AC(1) Siemens ElectroCom, L.P.                          0            0     122,861    8/27/99
                                        181-1296773-AC(1) Rapistan Systems                                  0            0      37,741    9/20/99
                                        182-1227773-AC(1) The Austin Company                                0            0           0    9/21/99
                                        183-1278298-AC(1) D&M Maryland General                        310,763            0           0     4/6/99
                                                          Contracting, Inc.
                                        183-1286194-AC(1) The Haskell Company                         203,511      10,383            0    7/27/99
                                        184-1218532-AC(1) New Breed Leasing                                 0            0           0    5/21/99
                                                          Corporation
                                        184-1259633-AC(1) ACME Consulting                              29,758            0           0    7/28/99
                                                          Corporation
                                        185-1272701-AC(1) ITC Real Estate Group/                        4,811            0           0     9/2/99
                                                          McKinley III, Inc.
                                        185-1276374-AC(1) Sunbelt Properties                                0            0           0     6/8/99
                                        185-1278370-AC(1) Boardwalk Development                            57            0           0    4/12/99
                                        185-1290622-AC(1) PM Realty Group                              11,247            0           0    8/30/99
                                        185-1294974-AC(1) Burnham Pacific                               3,445            0           0    9/17/99
                                                          Properties, Inc.
                                        186-1259748-AC(1) Siemens ElectroCom, L.P.                          0            0           0     9/2/99
                                        190-1220527-AC(2) PhotoAssist, Inc.                                 0            0           0    4/19/99
                                        190-1290163-AC(2) Siemens ElectroCom, L.P.                  15,662,099           0           0    9/24/99
                                        192-1262874-AC(2) Independent Postal                           50,252            0           0
                                                          Financial Consultants
                                        192-1262877-AC(2) Ernst & Young, LLP                                0            0           0     8/2/99
                                        192-1262879-AC(2) Foster Associates, Inc.                           0            0           0    4/19/99
                                        192-1262885-AC(2) Tad Resources                                     0            0           0    8/26/99


                              PAGE 98   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 99




                                                                                             Un- Recommend
       Case/Report        Subject Title/             Location/            Questioned   supported Funds Put to     Issue
       Number             Project Type               Contract                  Costs       Costs Better Use        Date
                           International, Inc.
       192-1263828-AC(2) Aramark Services, Inc.                                    0           0            0    6/2/99
       TOTAL                                                         $16,275,943               $35,919,897
                                                                                        $10,383
                                                                                             Un- Recommend
       Case/Report      Subject Title/               Location/            Questioned   supported Funds Put to     Issue
       Number           Project Type                 Contract                  Costs       Costs Better Use        Date
        FINANCIAL OPINION
       004-1267027-AD(1) Imprest Fund Audit          Philadelphia, PA 19107        0           0            0    6/7/99
       004-1270207-AD(1) Imprest Fund Audit          Topeka, KS 66624              0           0            0 2/16/99*
       004-1283356-AD(1) Imprest Fund Audit          Norman, OK 73070              0           0            0   6/16/99
       004-1283361-AD(1) Imprest Fund Audit          Norman, OK 73070              0           0            0   6/23/99
       009-1256125-AD(1) Cost and Revenue Analysis   Columbus, OH 43216            0           0            0   5/28/99
       009-1256127-AD(1) Cost and Revenue Analysis   Akron, OH 44309               0           0            0   8/26/99
       009-1257636-AD(1) Cost and Revenue Analysis   Seattle, WA 98109             0           0            0   8/16/99
       009-1257637-AD(1) Cost and Revenue Analysis   Sacramento, CA 95799          0           0            0   8/23/99
       009-1257638-AD(1) Cost and Revenue Analysis   San Francisco, CA 94188       0           0            0    5/6/99
       009-1261327-AD(1) Cost and Revenue Analysis   Richmond, VA 23232            0           0            0   8/30/99
       009-1261332-AD(1) Cost and Revenue Analysis   Baltimore, MD 21233           0           0            0   8/30/99
       009-1261334-AD(1) Cost and Revenue Analysis   Merrifield, VA 22081          0           0            0   5/13/99
       009-1264539-AD(1) Cost and Revenue Analysis   Providence, RI 02904          0           0            0    4/9/99
       009-1264540-AD(1) Cost and Revenue Analysis   Boston, MA 02205              0           0            0    8/9/99
       009-1264542-AD(1) Cost and Revenue Analysis   Chicago, IL 60669             0           0            0    9/2/99
       009-1264544-AD(1) Cost and Revenue Analysis   Chicago, IL 60669             0           0            0   4/27/99
       009-1264585-AD(1) Cost and Revenue Analysis   Farmingdale, NY 11735         0           0            0    8/2/99
       009-1264586-AD(1) Cost and Revenue Analysis   Hicksville, NY 11802          0           0            0    9/7/99
       009-1264587-AD(1) Cost and Revenue Analysis   Rochester, NY 14692           0           0            0   4/16/99
       009-1265208-AD(1) Cost and Revenue Analysis   Knoxville, TN 37950           0           0            0   5/20/99
       009-1265279-AD(1) Cost and Revenue Analysis   Indianapolis, IN 46206        0           0            0    6/3/99
       009-1265358-AD(1) Cost and Revenue Analysis   Atlanta, GA 30304             0           0            0 3/08/99*
       009-1265363-AD(1) Cost and Revenue Analysis   Dallas, TX 75260              0           0            0    4/7/99
       009-1265367-AD(1) Cost and Revenue Analysis   Tulsa, OK 74101               0           0            0   7/21/99
       009-1265373-AD(1) Cost and Revenue Analysis   Kansas City, MO 64108         0           0            0   8/30/99
       009-1265493-AD(1) Cost and Revenue Analysis   Dayton, OH 45401              0           0            0   5/27/99
       009-1265808-AD(1) Cost and Revenue Analysis   St. Paul, MN 55101            0           0            0   8/23/99
       009-1265817-AD(1) Cost and Revenue Analysis   Minneapolis, MN 55401         0           0            0   8/23/99
       009-1265822-AD(1) Cost and Revenue Analysis   St. Cloud, MN 56301           0           0            0   8/23/99
       009-1265825-AD(1) Cost and Revenue Analysis   Eagan, MN 55121               0           0            0   8/23/99
       009-1265904-AD(1) Cost and Revenue Analysis   New Orleans, LA 70113         0           0            0    5/6/99
       009-1265905-AD(1) Cost and Revenue Analysis   Austin, TX 78710              0           0            0   8/27/99
       009-1266391-AD(1) Cost and Revenue Analysis   Jacksonville, FL 32203        0           0            0    4/2/99
       009-1267245-AD(1) Cost and Revenue Analysis   Jacksonville, FL 32203        0           0            0    4/2/99
       009-1268616-AD(1) Cost and Revenue Analysis   Philadelphia, PA 19104        0           0            0    9/3/99
       009-1268617-AD(1) Cost and Revenue Analysis   Bellmawr, NJ 08099            0           0            0   7/26/99
       009-1268618-AD(1) Cost and Revenue Analysis   Harrisburg, PA 17105          0           0            0   7/21/99
       009-1269794-AD(1) Cost and Revenue Analysis   Spokane, WA 99210             0           0            0   5/26/99
       009-1269800-AD(1) Cost and Revenue Analysis   Billings, MT 59101            0           0            0   5/11/99
       009-1272247-AD(1) Cost and Revenue Analysis   Salt Lake City, UT 84199      0           0            0 03/29/99*
       009-1275468-AD(1) Cost and Revenue Analysis   Portland, OR 97208            0           0            0   7/29/99



                                                                                                                          PAGE 99
087_118_jdl 4/14/00 7:32 PM Page 100




                                                                                                                               Un- Recommend
                                         Case/Report        Subject Title/             Location/            Questioned   supported Funds Put to     Issue
                                         Number             Project Type               Contract                  Costs       Costs Better Use        Date
                                         009-1281704-AD(1) Cost and Revenue Analysis   Denver, CO 80266             0            0           0     4/9/99
                                         009-1282589-AD(1) Cost and Revenue Analysis   West Palm Beach, FL 33406 0               0           0    8/13/99
                                         009-1282592-AD(1) Cost and Revenue Analysis   Ft. Lauderdale, FL 33310     0            0           0     4/2/99
                                         009-1282595-AD(1) Cost and Revenue Analysis   Tampa, FL 33630              0            0           0     4/2/99
                                         009-1282596-AD(1) Cost and Revenue Analysis   Miami, FL 33152              0            0           0     4/2/99
                                         009-1283430-AD(1) Cost and Revenue Analysis   Randolph, MA 02368           0            0           0     4/1/99
                                         009-1288756-AD(1) Cost and Revenue Analysis   Long Beach, CA 90809         0            0           0    5/24/99
                                         009-1288757-AD(1) Cost and Revenue Analysis   Van Nuys, CA 91383           0            0           0    8/30/99
                                         009-1288758-AD(1) Cost and Revenue Analysis   Santa Ana, CA 92711          0            0           0    5/24/99
                                         009-1290671-AD(1) Cost and Revenue Analysis   Erie, PA 16515               0            0           0    8/31/99
                                         009-1291223-AD(1) Cost and Revenue Analysis   Las Vegas, NV 89199          0            0           0    6/18/99
                                         009-1291257-AD(1) Cost and Revenue Analysis   Wichita, KS 67276            0            0           0    7/20/99
                                         009-1292349-AD(1) Cost and Revenue Analysis   Pittsburgh, PA 15290         0            0           0    8/31/99
                                         009-1292382-AD(1) Cost and Revenue Analysis   Cleveland, OH 44101          0            0           0    8/31/99
                                         009-1293004-AD(1) Cost and Revenue Analysis   Florence, SC 29501           0            0           0     8/2/99
                                         009-1293006-AD(1) Cost and Revenue Analysis   Charlotte, NC 28228          0            0           0    8/23/99
                                         009-1293255-AD(1) Cost and Revenue Analysis   Federal Way, WA 98003        0            0           0    7/30/99
                                         009-1293350-AD(1) Cost and Revenue Analysis   San Juan, PR 00936           0            0           0     9/8/99
                                         009-1294524-AD(1) Cost and Revenue Analysis   Louisville, KY 40231         0            0           0    8/23/99
                                         009-1295775-AD(1) Cost and Revenue Analysis   Springfield, MA 01101        0            0           0    9/10/99
                                         010-1270980-AD(1) Air Transportation          Anchorage, AK 99502          0            0           0    5/18/99
                                                           Procedures
                                         010-1293686-AD(1) Vehicle Management          Ft. Worth, TX 76161          0            0           0    8/27/99
                                                           Accounting System
                                         010-1294008-AD(1) Vehicle Management          Denver, CO 80202             0            0           0    8/19/99
                                                           Accounting System
                                         010-1294009-AD(1) Vehicle Management          Denver, CO 80202             0            0           0    8/25/99
                                                           Accounting System
                                         010-1294033-AD(1) Vehicle Management          South Suburban, IL 60499 0                0           0    7/29/99
                                                           Accounting System
                                         010-1294070-AD(1) Vehicle Management          Boston, MA 02210             0            0           0    8/11/99
                                                           Accounting System
                                         010-1294072-AD(1) Vehicle Management          Providence, RI 02940         0            0           0    8/12/99
                                                           Accounting System
                                         010-1294164-AD(1) Vehicle Management          Houston, TX 77007            0            0           0     8/5/99
                                                           Accounting System
                                         010-1294270-AD(1) Vehicle Management          Sacramento, CA 95813         0            0           0    9/14/99
                                                           Accounting System
                                         010-1294325-AD(1) Vehicle Management          Duluth, GA 30026             0            0           0    8/19/99
                                                           Accounting System
                                         010-1294328-AD(1) Vehicle Management          Memphis, TN 38101            0            0           0    8/23/99
                                                           Accounting System
                                         010-1294487-AD(1) Vehicle Management          Sterling, VA 20166           0            0           0    8/25/99
                                                           Accounting System
                                         010-1294656-AD(1) Vehicle Management          Baltimore, MD 21201          0            0           0     9/3/99
                                                           Accounting System
                                         010-1294726-AD(1) Vehicle Management          Pensacola, FL 32501          0            0           0    8/24/99
                                                           Accounting System
                                         010-1294923-AD(1) Vehicle Management          Royal Oak, MI 48068          0            0           0    8/26/99
                                                           Accounting System
                                         010-1295180-AD(1) Vehicle Management          Pittsburgh, PA 15233         0            0           0    8/27/99
                                                           Accounting System


                              PAGE 100   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 101




                                                                                              Un- Recommend
       Case/Report         Subject Title/              Location/          Questioned    supported Funds Put to     Issue
       Number              Project Type                Contract                Costs        Costs Better Use        Date
       010-1295366-AD(1) Vehicle Management            Cincinnati, OH 45234        0            0            0   8/24/99
                         Accounting System
       TOTAL                                                                      $0          $0           $0

                                                                                              Un- Recommend
       Case/Report      Subject Title/                 Location/           Questioned   supported Funds Put to     Issue
       Number           Project Type                   Contract                 Costs       Costs Better Use        Date
        FINANCIAL INSTALLATION AUDITS
       011-1255371-AF(1) Financial Installation Audit Columbus, OH 43216           0            0            0    6/4/99
       011-1255377-AF(1) Financial Installation Audit Altoona, PA 16601            0            0            0    7/8/99
       011-1255752-AF(1) Financial Installation Audit Farmingdale, NY 11735        0            0            0    8/3/99
       011-1255756-AF(1) Financial Installation Audit Hicksville, NY 11802         0            0            0   7/14/99
       011-1255760-AF(1) Financial Installation Audit Rochester, NY 14692          0            0            0   4/16/99
       011-1255814-AF(1) Financial Installation Audit Reading, PA 19612            0            0            0   6/30/99
       011-1255815-AF(1) Financial Installation Audit Newark, NJ 07102             0            0            0    8/5/99
       011-1255819-AF(1) Financial Installation Audit Syracuse, NY 13220           0            0            0   7/29/99
       011-1256147-AF(1) Financial Installation Audit San Francisco, CA 94188      0            0            0   6/30/99
       011-1256263-AF(1) Financial Installation Audit Chicago, IL 60607            0            0            0   8/13/99
       011-1256266-AF(1) Financial Installation Audit Minneapolis, MN 55401        0            0            0   7/30/99
       011-1256274-AF(1) Financial Installation Audit Seattle, WA 98109            0            0            0    8/6/99
       011-1256380-AF(1) Financial Installation Audit Saratoga Springs, NY 12866 0              0            0   5/28/99
       011-1256401-AF(1) Financial Installation Audit Richmond, VA 23232           0            0            0   7/22/99
       011-1256403-AF(1) Financial Installation Audit Jacksonville, FL 32203       0            0            0    4/2/99
       011-1257137-AF(1) Financial Installation Audit Boulder, CO 80302            0            0            0   6/17/99
       011-1257138-AF(1) Financial Installation Audit Little Rock, AR 72202        0            0            0    9/7/99
       011-1257160-AF(1) Financial Installation Audit Merrifield, VA 22081         0            0            0   5/27/99
       011-1257164-AF(1) Financial Installation Audit Baltimore, MD 21233          0            0            0    9/2/99
       011-1257197-AF(1) Financial Installation Audit St. Louis, MO 63155          0            0            0    4/8/99
       011-1257201-AF(1) Financial Installation Audit Salt Lake City, UT 84199     0            0            0   5/24/99
       011-1257202-AF(1) Financial Installation Audit Hazelwood,, MO 63042         0            0            0   6/18/99
       011-1257203-AF(1) Financial Installation Audit Kansas City, MO 64108        0            0            0   8/26/99
       011-1257697-AF(1) Financial Installation Audit Dallas, TX 75260             0            0            0    7/3/99
       011-1257730-AF(1) Financial Installation Audit Tulsa, OK 74101              0            0            0   8/16/99
       011-1287844-AF(1) Financial Installation Audit Pewaukee, WI 53072           0            0            0   5/12/99
       012-1255822-AF(1) Financial Installation Audit Cranford, NJ 07016           0            0            0    4/9/99
       012-1256130-AF(1) Financial Installation Audit Sandy, UT 84070              0            0            0   8/24/99
       012-1256271-AF(1) Financial Installation Audit Santa Clara, CA 95050        0            0            0    9/9/99
       012-1256278-AF(1) Financial Installation Audit Palo Alto, CA 94303          0            0            0   9/10/99
       012-1256281-AF(1) Financial Installation Audit Eau Claire, WI 54701         0            0            0    6/3/99
       012-1256285-AF(1) Financial Installation Audit Minot, ND 58701              0            0            0   8/31/99
       012-1256381-AF(1) Financial Installation Audit Dover, NH 03820              0            0            0    4/6/99
       012-1256385-AF(1) Financial Installation Audit Niagara Falls, NY 14302      0            0            0   8/19/99
       012-1256408-AF(1) Financial Installation Audit West Palm Beach, FL 33406 0               0            0    6/9/99
       012-1256583-AF(1) Financial Installation Audit Watkinsville, GA 30677       0            0            0   5/11/99
       012-1256722-AF(1) Financial Installation Audit San Luis Obispo, CA 93401 0               0            0   8/12/99
       012-1256724-AF(1) Financial Installation Audit Costa Mesa, CA 92626         0            0            0   4/13/99
       012-1256729-AF(1) Financial Installation Audit Visalia, CA 93277            0            0            0   5/26/99
       012-1256732-AF(1) Financial Installation Audit Temecula, CA 92591           0            0            0    4/1/99
       012-1256734-AF(1) Financial Installation Audit Burbank, CA 91505            0            0            0   8/30/99
       012-1257156-AF(1) Financial Installation Audit Greenville, NC 27834         0            0            0    4/7/99



                                                                                                                           PAGE 101
087_118_jdl 4/14/00 7:32 PM Page 102




                                                                                                                                Un- Recommend
                                         Case/Report         Subject Title/              Location/           Questioned   supported Funds Put to     Issue
                                         Number              Project Type                Contract                 Costs       Costs Better Use        Date
                                         012-1257199-AF(1) Financial Installation Audit Rapid City, SD 57701         0            0           0    4/14/99
                                         012-1257368-AF(1) Financial Installation Audit Racine, WI 53401             0            0           0    7/28/99
                                         012-1257725-AF(1) Financial Installation Audit Alexandria, LA 71301         0            0           0    4/30/99
                                         012-1259865-AF(1) Financial Installation Audit Cherry Hill, NJ 08034        0            0           0    5/13/99
                                         012-1261755-AF(1) Financial Installation Audit Crawfordsville, IN 47933     0            0           0     8/6/99
                                         012-1261756-AF(1) Financial Installation Audit Fort Wayne, IN 46802         0            0           0    7/28/99
                                         012-1261757-AF(1) Financial Installation Audit Mt. Clemens, MI 48046        0            0           0    6/14/99
                                         013-1255376-AF(1) Financial Installation Audit Logan, WV 25601              0            0           0    5/26/99
                                         013-1255758-AF(1) Financial Installation Audit Roslyn, NY 11576             0            0           0    5/21/99
                                         013-1256131-AF(1) Financial Installation Audit Espanola, NM 87532           0            0           0     9/3/99
                                         013-1256133-AF(1) Financial Installation Audit Mesquite, NV 89024           0            0           0    7/20/99
                                         013-1256142-AF(1) Financial Installation Audit Porterville, CA 93257        0            0           0     4/1/99
                                         013-1256276-AF(1) Financial Installation Audit Ketchikan, AK 99901          0            0           0    7/23/99
                                         013-1256280-AF(1) Financial Installation Audit Battle Ground, WA 98604 0                 0           0     6/2/99
                                         013-1256287-AF(1) Financial Installation Audit Marquette, MI 49855          0            0           0     6/2/99
                                         013-1256388-AF(1) Financial Installation Audit Edmeston, NY 13335           0            0           0     4/6/99
                                         013-1256392-AF(1) Financial Installation Audit Seneca Falls, NY 13148       0            0           0    5/28/99
                                         013-1256394-AF(1) Financial Installation Audit Atkinson, NH 03811           0            0           0    6/17/99
                                         013-1256396-AF(1) Financial Installation Audit Lyndonville, VT 05851        0            0           0    8/27/99
                                         013-1256412-AF(1) Financial Installation Audit Okeechobee, FL 34972         0            0           0    4/16/99
                                         013-1256415-AF(1) Financial Installation Audit Eustis, FL 32726             0            0           0    8/23/99
                                         013-1256421-AF(1) Financial Installation Audit Bushnell, FL 33513           0            0           0     6/9/99
                                         013-1256576-AF(1) Financial Installation Audit Laurens, SC 29360            0            0           0     4/8/99
                                         013-1256731-AF(1) Financial Installation Audit Harbor City, CA 90710        0            0           0    7/19/99
                                         013-1257161-AF(1) Financial Installation Audit Huntersville, NC 28078       0            0           0    8/26/99
                                         013-1257754-AF(1) Financial Installation Audit Bonham, TX 75418             0            0           0     8/9/99
                                         013-1257755-AF(1) Financial Installation Audit Hondo, TX 78861              0            0           0    6/14/99
                                         013-1259871-AF(1) Financial Installation Audit Clementon, NJ 08021          0            0           0    7/21/99
                                         013-1259872-AF(1) Financial Installation Audit Devon, PA 19333              0            0           0     6/4/99
                                         013-1259873-AF(1) Financial Installation Audit Peckville, PA 18452          0            0           0    6/18/99
                                         013-1259874-AF(1) Financial Installation Audit Nazareth, PA 18064           0            0           0    4/26/99
                                         013-1259875-AF(1) Financial Installation Audit Hummelstown, PA 17036        0            0           0     8/4/99
                                         013-1259876-AF(1) Financial Installation Audit Moundsville, WV 26041        0            0           0    5/18/99
                                         013-1259877-AF(1) Financial Installation Audit Rochester, PA 15074          0            0           0    8/12/99
                                         013-1259878-AF(1) Financial Installation Audit Brownsmills, NJ 08015        0            0           0    7/29/99
                                         013-1259879-AF(1) Financial Installation Audit Milton, PA 17847             0            0           0     9/3/99
                                         013-1259881-AF(1) Financial Installation Audit Riegelsville, PA 18077       0            0           0    6/10/99
                                         013-1261759-AF(1) Financial Installation Audit Crown Point, IN 46307        0            0           0    8/30/99
                                         013-1261760-AF(1) Financial Installation Audit Friendswood, TX 77546        0            0           0    9/13/99
                                         013-1261761-AF(1) Financial Installation Audit Grand Blanc, MI 48439        0            0           0     9/3/99
                                         014-1255751-AF(1) Financial Installation Audit Gardiner, NY 12525           0            0           0    8/20/99
                                         014-1255755-AF(1) Financial Installation Audit Grahamsville, NY 12740       0            0           0    8/16/99
                                         014-1255761-AF(1) Financial Installation Audit East Durham, NY 12423        0            0           0    5/19/99
                                         014-1255831-AF(1) Financial Installation Audit Hope, NJ 07844               0            0           0    8/26/99
                                         014-1256146-AF(1) Financial Installation Audit Woodlake, CA 93286           0            0           0     4/1/99
                                         014-1256288-AF(1) Financial Installation Audit Girard, IL 62640             0            0           0    7/26/99
                                         014-1256397-AF(1) Financial Installation Audit Dennis, MA 02638             0            0           0    5/28/99
                                         014-1256398-AF(1) Financial Installation Audit Shirley, MA 01464            0            0           0    8/11/99



                              PAGE 102   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 103




                                                                                                Un- Recommend
       Case/Report         Subject Title/               Location/            Questioned   supported Funds Put to     Issue
       Number              Project Type                 Contract                  Costs       Costs Better Use        Date
       014-1256402-AF(1) Financial Installation Audit Duanesburg, NY 12056            0           0            0    4/6/99
       014-1256573-AF(1) Financial Installation Audit Frisco City, AL 36445           0           0            0    4/2/99
       014-1256725-AF(1) Financial Installation Audit Littlerock, CA 93543            0           0            0    9/7/99
       014-1257200-AF(1) Financial Installation Audit Fennimore, WI 53809             0           0            0   4/19/99
       014-1257234-AF(1) Financial Installation Audit Patton, PA 16668                0           0            0   5/24/99
       014-1259883-AF(1) Financial Installation Audit Mt. Gretna, PA 17064            0           0            0    9/2/99
       014-1261363-AF(1) Financial Installation Audit Fosston, MN 56542               0           0            0   5/28/99
       014-1261778-AF(1) Financial Installation Audit Prescott, MI 48756              0           0            0    7/2/99
       015-1255374-AF(1) Financial Installation Audit Stanville, KY 41659             0           0            0   5/26/99
       015-1256289-AF(1) Financial Installation Audit Chesterfield, IL 62630          0           0            0   7/16/99
       015-1256290-AF(1) Financial Installation Audit Ellisville, IL 61431            0           0            0   8/26/99
       015-1256404-AF(1) Financial Installation Audit Bethlehem, NY 12161             0           0            0   6/17/99
       015-1256407-AF(1) Financial Installation Audit Grafton, NY 12082               0           0            0    7/8/99
       015-1256410-AF(1) Financial Installation Audit Hubbardsville, NY 13355         0           0            0   6/17/99
       015-1257236-AF(1) Financial Installation Audit Mineral Springs, PA 16855 0                 0            0    6/2/99
       015-1259884-AF(1) Financial Installation Audit Mainland, PA 19451              0           0            0   8/24/99
       015-1259885-AF(1) Financial Installation Audit Spring Mount, PA 19478          0           0            0   7/29/99
       015-1260055-AF(1) Financial Installation Audit Butte, NE 68722                 0           0            0   7/21/99
       015-1260056-AF(1) Financial Installation Audit Chili, WI 54420                 0           0            0   7/20/99
       015-1261779-AF(1) Financial Installation Audit Branch, MI 49402                0           0            0   4/12/99
       015-1261781-AF(1) Financial Installation Audit Hayden, IN 47245                0           0            0    4/5/99
       TOTAL                                                                        $0          $0           $0
                                                                                                Un- Recommend
       Case/Report     Subject Title/                   Location/            Questioned   supported Funds Put to     Issue
       Number          Project Type                     Contract                  Costs       Costs Better Use        Date
        DISTRICT ACCOUNTING OFFICE AUDITS
       016-1254866-AF(2) Financial Installation Audit Washington, DC 20260            0           0            0 1/21/99*
       016-1255379-AF(2) Financial Installation Audit Indianapolis, IN 46206          0           0            0   9/10/99
       016-1255759-AF(2) Financial Installation Audit Hauppauge, NY 11760             0           0            0    9/1/99
       016-1255833-AF(2) Financial Installation Audit San Juan, PR 00936              0           0            0    4/8/99
       016-1255849-AF(2) Financial Installation Audit Hauppauge, NY 11760             0           0            0   8/30/99
       016-1255853-AF(2) Financial Installation Audit Chicago, IL 60607               0           0            0   4/13/99
       016-1256151-AF(2) Financial Installation Audit Billings, MT 59103              0           0            0   4/13/99
       016-1256374-AF(2) Financial Installation Audit Jacksonville, FL 32203          0           0            0    4/2/99
       016-1256417-AF(2) Financial Installation Audit Portland, ME 04104              0           0            0    8/3/99
       016-1256828-AF(2) Financial Installation Audit Portland, ME 04103              0           0            0   7/21/99
       016-1257204-AF(2) Financial Installation Audit Salt Lake City, UT 84199        0           0            0   5/10/99
       016-1262205-AF(2) Financial Installation Audit Merrifield, VA 22081            0           0            0    5/6/99
       016-1268028-AF(2) Financial Installation Audit Merrifield, VA 22081            0           0            0   5/19/99
       016-1279227-AF(2) Financial Installation Audit Chicago, IL 60669               0           0            0    7/1/99

       016-1288956-AF(2) Financial Installation Audit San Diego, CA 92150             0           0            0    5/7/99

       016-1290066-AF(2) Financial Installation Audit Princeton, NJ 08540             0           0            0    8/3/99

       178-1295164-AF(2) Financial Installation Audit San Juan, PR 00936              0           0            0   9/17/99
       TOTAL                                                                        $0          $0           $0




                                                                                                                             PAGE 103
087_118_jdl 4/14/00 7:32 PM Page 104




                                                                                                                               Un- Recommend
                                         Case/Report         Subject Title/             Location/           Questioned   supported Funds Put to     Issue
                                         Number              Project Type               Contract                 Costs       Costs Better Use        Date
                                         EXPENDITURE INVESTIGATIONS
                                         195-1252402-EI(1)   IMPAC Credit Card Review Washington, DC 20260          0            0           0    7/12/99
                                         462-1289302-EI(1)   Insured Parcel Review      Miami, FL 33152             0            0           0     6/4/99
                                         TOTAL                                                                     $0          $0           $0

                                                                                                                               Un- Recommend
                                         Case/Report      Subject Title/                Location/           Questioned   supported Funds Put to     Issue
                                         Number           Project Type                  Contract                 Costs       Costs Better Use        Date
                                          FINANCIAL INVESTIGATIONS
                                         017-1159205-FI(2)   Financial Investigation    St. Marys, WV 26170         0            0           0 03/10/99*
                                         017-1260093-FI(2)   Financial Investigation    Lakeville, MI 48366         0            0           0 11/09/98*
                                         017-1261674-FI(2)   Financial Investigation    Washington, DC 20066        0            0           0    4/19/99
                                         017-1261734-FI(2)   Financial Investigation    Allenton, MI 48002          0            0           0 11/25/98*
                                         017-1274106-FI(2)   Financial Investigation    Pittsfield, MA 01201        0            0           0     6/7/99
                                         017-1278451-FI(2)   Financial Investigation    Norwalk, CT 06852           0            0           0    4/15/99
                                         017-1282722-FI(2)   Financial Investigation    Unalaska, AK 99684          0            0           0    5/12/99
                                         017-1291576-FI(2)   Financial Investigation    Stevenson, WA 98648         0            0           0    9/10/99
                                         017-1291765-FI(2)   Financial Investigation    Storrs, CT 06268            0            0           0     8/2/99
                                         017-1292668-FI(2)   Financial Investigation    North Bend, OR 97459        0            0           0     7/6/99
                                         017-1292669-FI(2)   Financial Investigation    Port Orford, OR 97465       0            0           0     7/7/99
                                         017-1296172-FI(2)   Financial Investigation    Plessis, NY 13675           0            0           0    9/20/99
                                         017-1296509-FI(2)   Financial Investigation    Wyoming, NY 14591           0            0           0    9/23/99
                                         017-1296648-FI(2)   Financial Investigation    Darby, MT 59829             0            0           0    9/21/99
                                         017-1296713-FI(2)   Financial Investigation    Sandy Springs, GA 30328     0            0           0    9/13/99
                                         017-1297309-FI(2)   Financial Investigation    Stratford, NY 13470         0            0           0    9/21/99
                                         017-1297550-FI(2)   Financial Investigation    Frewsburg, NY 14738         0            0           0    9/23/99
                                         827-1251750-FI(1)   Financial Investigation    Franklin Park, IL 60131     0            0           0    5/10/99
                                         827-1285202-FI(1)   Financial Investigation    Irrigon, OR 97844           0            0           0    4/29/99
                                         840-1289523-FI(2)   Financial Investigation    Detroit, MI 48233           0            0           0    7/12/99
                                         447-1255210-ECM(3) Financial Investigation     Detroit, MI 48232           0            0           0    4/28/99
                                         TOTAL                                                                     $0          $0           $0
                                                                                                                               Un- Recommend
                                         Case/Report      Subject Title/                Location/           Questioned   supported Funds Put to     Issue
                                         Number           Project Type                  Contract                 Costs       Costs Better Use        Date
                                          FACILITY PROGRAM AUDITS
                                         092-1248055-FPA(1) Area Approved Facility      Memphis, TN 38161           0            0           0    6/21/99
                                                            Projects
                                         092-1279194-FPA(1) Indefinite Quantity Contracts Washington, DC 20066      0            0           0    9/27/99
                                         092-1289784-FPA(1) Lease Administration        Washington, DC 20066        0            0           0    9/24/99
                                         098-1206355-FPA(1) New Construction Owned      Greensboro, NC 27420        0            0           0    7/30/99
                                         098-1209237-FPA(1) New Construction Owned      Columbus, OH 43216          0            0           0    7/30/99
                                         TOTAL                                                                     $0          $0           $0

                                                                                                                               Un- Recommend
                                         Case/Report     Subject Title/                 Location/           Questioned   supported Funds Put to     Issue
                                         Number          Project Type                   Contract                 Costs       Costs Better Use        Date
                                          REVENUE INVESTIGATIONS
                                         061-1253949-RI(1)   Postage Meter              Hayward, CA 94544           0            0           0     7/6/99
                                         061-1257801-RI(1)   Postage Meter              Beaverton, OR 97008         0            0           0     5/4/99
                                         061-1258638-RI(1)   Postage Meter              Southfield, MI 48037        0            0           0    5/27/99
                                         061-1258804-RI(1)   Postage Meter              Louisville, KY 40299        0            0           0    5/12/99
                                         061-1258805-RI(1)   Postage Meter              Greensboro, NC 27625        0            0           0     5/6/99
                                         061-1262144-RI(1)   Postage Meter              West Allis, WI 53227        0            0           0    5/17/99


                              PAGE 104   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 105




                                                                                              Un- Recommend
       Case/Report         Subject Title/             Location/            Questioned   supported Funds Put to     Issue
       Number              Project Type               Contract                  Costs       Costs Better Use        Date
       061-1263843-RI(1)   Postage Meter              East Providence, RI 02914 0               0            0   5/28/99
       061-1263876-RI(1)   Postage Meter              Englewood, CO 80113           0           0            0    4/9/99
       061-1263973-RI(1)   Postage Meter              Lanham, MD 20706              0           0            0   5/22/99
       061-1277357-RI(1)   Postage Meter              Tampa, FL 33607               0           0            0    5/6/99
       061-1277470-RI(1)   Postage Meter              Norcross, GA 30071            0           0            0   4/29/99
       061-1278428-RI(1)   Postage Meter              Atlanta, GA 30336             0           0            0   4/28/99
       061-1279018-RI(1)   Postage Meter              Grand Prairie, TX 75051       0           0            0   4/16/99
       061-1279184-RI(1)   Postage Meter              Oklahoma City, OK 73114 0                 0            0   5/11/99
       061-1289491-RI(1)   Postage Meter              Raleigh, NC 27612             0           0            0   5/24/99
       061-1292177-RI(1)   Postage Meter              Cambridge, MA 02138           0           0            0   6/28/99
       061-1293691-RI(1)   Postage Meter              Ft. Smith, AR 72901           0           0            0   7/21/99
       061-1293830-RI(1)   Postage Meter              Smyrna, GA 30082              0           0            0   7/30/99
       061-1295320-RI(1)   Postage Meter              Ft. Collins, CO 80525         0           0            0   9/10/99
       061-1295321-RI(1)   Postage Meter              Phoenix, AZ 85009             0           0            0   8/31/99
       061-1297397-RI(1)   Postage Meter              Killeen, TX 76542             0           0            0   9/28/99
       062-1201749-RI(1)   Nonprofit Mail             Boston, MA 02210              0           0            0   5/27/99
       062-1252671-RI(1)   Nonprofit Mail             Maple Grove, MN 55369         0           0            0   7/14/99
       062-1279732-RI(1)   Nonprofit Mail             Harrison Township,            0           0            0   7/19/99
                                                      MI 48045
       062-1282411-RI(1)   Standard Mail              Punta Gorda, FL 33950         0           0            0 3/16/99*
       062-1283291-RI(1)   Standard Mail              Kennesaw, GA 30144            0           0            0   4/28/99
       062-1283532-RI(1)   Nonprofit Mail             Atlanta, GA 30341             0           0            0    4/8/99
       062-1284300-RI(1)   Nonprofit Mail             Delano, MN 55328              0           0            0   4/23/99
       062-1290326-RI(1)   Nonprofit Mail             Sterling Heights, MI 48312 0              0            0   5/18/99
       062-1290784-RI(1)   Standard Mail              St. Clair Shores, MI 48082 0              0            0   6/25/99
       062-1291093-RI(1)   Standard Mail              Athens, GA 30601              0           0            0   6/21/99
       062-1291732-RI(1)   Nonprofit Mail             Royal Oak, MI 48083           0           0            0   8/13/99
       062-1294846-RI(1)   Nonprofit Mail             Southfield, MI 48075          0           0            0   8/26/99
       062-1295451-RI(1)   Standard Mail              Atlanta, GA 30338             0           0            0   8/25/99
       062-1295819-RI(1)   Nonprofit Mail             Farmington Hills, MI 48333 0              0            0   8/30/99
       062-1297028-RI(1)   Nonprofit Mail             Richmond, VA 23233            0           0            0   9/14/99
       062-1297451-RI(1)   Nonprofit Mail             Rochester, MI 48308           0           0            0   9/24/99
       063-1129974-RI(2)   Nonprofit Mail             Appleton, WI 54919            0           0            0   5/27/99
       063-1129976-RI(2)   Nonprofit Mail             Menasha, WI 54952             0           0            0   5/27/99
       063-1130002-RI(2)   Nonprofit Mail             Green Bay, WI 54303           0           0            0   5/27/99
       063-1238283-RI(2)   Standard Mail              St. Cloud, MN 56301           0           0            0   8/24/99
       063-1282416-RI(2)   Standard Mail              Clearwater, FL 33764          0           0            0 3/16/99*
       063-1282419-RI(2)   Standard Mail              Brandon, FL 33511             0           0            0 3/12/99*
       063-1282428-RI(2)   Standard Mail              Versailles, KY 40383          0           0            0 3/15/99*
       063-1290785-RI(2)   Periodical Mail            Waseca, MN 56093              0           0            0   6/11/99
       064-1243854-RI(1)   First-Class Mail           Atlanta, GA 30324             0           0            0 7/06/98*
       064-1253100-RI(1)   Nonprofit Mail             Boston, MA 02205              0           0            0   9/23/99
       064-1275422-RI(1)   First-Class Mail           Richmond, VA 23232            0           0            0 3/01/99*
       064-1281509-RI(1)   First-Class Mail           Boston, MA 02205              0           0            0   4/21/99
       064-1283665-RI(1)   Business Reply Mail        Norfolk, VA 23501             0           0            0    4/9/99
       064-1283749-RI(1)   First-Class Mail           Boston, MA 02210              0           0            0   6/14/99
       064-1285571-RI(1)   First-Class Mail           New Orleans, LA 70160         0           0            0   5/19/99
       064-1286154-RI(1)   First-Class Mail           Fortuna, CA 95540             0           0            0   4/30/99
       064-1289899-RI(1)   Business Mail Entry Unit   San Francisco, CA 94120       0           0            0   5/28/99


                                                                                                                           PAGE 105
087_118_jdl 4/14/00 7:32 PM Page 106




                                                                                                                                  Un- Recommend
                                         Case/Report         Subject Title/               Location/            Questioned   supported Funds Put to     Issue
                                         Number              Project Type                 Contract                  Costs       Costs Better Use        Date
                                         064-1290375-RI(1)   Presort Bureaus              New York, NY 10001           0            0           0    7/23/99
                                         064-1290439-RI(1)   First-Class Mail             Huntington, WV 25704         0            0           0    5/21/99
                                         064-1291820-RI(1)   First-Class Mail             Greenville, SC 29605         0            0           0    6/29/99
                                         064-1293203-RI(1)   First-Class Mail             Charlotte, NC 28228          0            0           0    7/15/99
                                         064-1295917-RI(1)   First-Class Mail             St. Louis, MO 63105          0            0           0    9/13/99
                                         065-1261668-RI(1)   Periodical Mail              Frederick, MD 21701          0            0           0     6/9/99
                                         065-1285995-RI(1)   Periodical Mail              Mason City, IA 50401         0            0           0    4/22/99
                                         065-1289839-RI(1)   Periodical Mail              St. Marys, WV 26170          0            0           0    5/17/99
                                         065-1293626-RI(1)   Periodical Mail              San Francisco, CA 94120      0            0           0    7/30/99
                                         065-1296800-RI(1)   Periodical Mail              Oakland, CA 94615            0            0           0     9/9/99
                                         066-1245797-RI(1)   Standard Mail                Howard, CO 81233             0            0           0     5/3/99
                                         066-1284083-RI(1)   Business Mail Entry Unit     Denver, CO 80266             0            0           0     4/7/99
                                         066-1286157-RI(1)   Business Mail Entry Unit     Fortuna, CA 95540            0            0           0    9/10/99
                                         066-1293525-RI(1)   Standard Mail                St. Louis, MO 63155          0            0           0    8/11/99
                                         066-1296792-RI(1)   Standard Mail                Oakland, CA 94615            0            0           0     9/9/99
                                         066-1296926-RI(1)   Nonprofit Mail               Old Saybrook, CT 06475       0            0           0     9/9/99
                                         066-1297856-RI(1)   Nonprofit Mail               Mattoon, IL 61938            0            0           0    9/20/99
                                         067-1223421-RI(1)   Manifest Mailings            Miami, FL 33052              0            0           0    9/21/99
                                         068-1275423-RI(1)   Business Mail Entry Unit     Boston, MA 02205             0            0           0    6/10/99
                                         068-1291045-RI(1)   Impact Credit Card           Houston, TX 77251            0            0           0    8/31/99
                                         068-1291603-RI(1)   Postage Meter                Wilmington, DE 19808         0            0           0    6/17/99
                                         068-1291672-RI(1)   Contract Unit Review         Vega Alta, PR 00762          0            0           0    7/13/99
                                         068-1296668-RI(1)   Goods and Services           Virginia Beach, VA 23456 0                0           0    8/26/99
                                         069-1278476-RI(2)   Bulk Mail Permits and Fees   Rocky Mount, VA 24151        0            0           0 3/05/99*
                                         069-1289963-RI(2)   Postage Meter                Philadelphia, PA 19124       0            0           0    5/21/99
                                         069-1296866-RI(2)   Nonprofit Mail               Lancaster, PA 17601          0            0           0     9/8/99
                                         380-1221556-RI(1)   Counterfeit Postage Stamps Hazel Green, WI 53811          0            0           0    5/17/99
                                         384-1289912-RI(1)   Bypass Mailing               Edison, NJ 08906             0            0           0    8/24/99
                                         384-1294489-RI(1)   Business Reply Mail          Chicago, IL 60605            0            0           0    9/14/99
                                         388-1183443-RI(1)   Postage Meter                Kansas City, MO 64108        0            0           0    4/15/99
                                         920-1293409-RI(1)   Plant Loads                  Franklin Park, IL 60131      0            0   1.023,252    7/28/99
                                         920-1297017-RI(1)   Periodical Mail              Des Moines, IA 50321         0            0           0    9/13/99
                                         922-1256220-RI(1)   Manifest Mailings            St. Paul, MN 55101           0            0           0    6/22/99
                                         923-1221400-RI(1)   Business Mail Entry Unit     Holliston, MA 01746          0            0           0    9/22/99
                                         923-1274894-RI(1)   Business Mail Entry Unit     Richmond, VA 23232           0            0           0    4/26/99
                                         924-1170790-RI(1)   Presort Bureaus              Charlotte, NC 28228          0            0           0    7/15/99
                                         924-1240141-RI(1)   Business Mail Entry Unit     Seattle, WA 98111            0            0           0 3/25/99*
                                         924-1257645-RI(1)   Presort Bureaus              Canton, OH 44711             0            0           0    5/12/99
                                         924-1262702-RI(1)   First-Class Mail             Denver, CO 80239             0            0           0    5/13/99
                                         924-1266353-RI(1)   Business Mail Entry Unit     Seattle, WA 98134            0            0           0 3/25/99*
                                         924-1282716-RI(1)   Presort Bureaus              Lansing, MI 48913            0            0           0     7/9/99
                                         924-1284723-RI(1)   Presort Bureaus              Memphis, TN 38173            0            0           0    9/13/99
                                         924-1290085-RI(1)   Presort Bureaus              Nashville, TN 37210          0            0           0    9/13/99
                                         924-1290851-RI(1)   First-Class Mail             Boston, MA 02205             0            0           0    7/12/99
                                         TOTAL                                                                        $0          $0 $1,023,252




                              PAGE 106   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 107




       PERFORMANCE AUDITS
        ACCEPTING AND PROCESSING, TRANSPORTATION, DELIVERY AND ENABLING FUNCTIONS
                                                                                                Un- Recommend
       Case/Report         Subject Title/                Location/           Questioned   supported Funds Put to     Issue
       Number              Project Type                  Contract                 Costs       Costs Better Use        Date
       036-1247658-PA(2) Mail Order Customer Service                                 0            0           0     4/2/99
       037-1285447-PA(2) Check Acceptance                                            0            0           0     9/9/99
                         Procedures
       038-1277601-PA(2) Periodical Processing                                       0            0           0    8/20/99
       039-1273237-PA(2) Priority Mail                                               0            0           0    5/12/99
       039-1279813-PA(2) HASP Operations                                             0            0   1,000,000     9/8/99
       040-1241887-PA(2) Special Services                                            0            0           0    5/18/99
       040-1267682-PA(2) City Delivery Operations                                    0            0           0    8/31/99
       040-1278676-PA(2) Priority Mail                                               0            0           0    9/21/99
       041-1292192-PA(2) Delivery Point Sequence                                     0            0           0    9/21/99
       042-1274505-PA(2) Information Systems Security                                0            0           0    6/29/99
       044-1272744-PA(2) Physical Security                                           0            0           0    6/10/99
       044-1281484-PA(2) Workplace Behavior                                          0            0           0    9/17/99
       045-1290390-PA(2) City Route Inspections/                                     0            0           0     7/1/99
                         Adjustments Follow-Up
       045-1291771-PA(2) Vehicle Utilization Follow-Up                               0            0     240,000     9/3/99
       045-1291772-PA(2) Vehicle Utilization Follow-Up                               0            0           0    9/25/99
       052-1257657-PA(3) Indefinite Quantity Contract                                0            0           0    5/26/99
                         Work Orders
       052-1257658-PA(3) Indefinite Quantity Contract                                0            0           0    5/26/99
                         Work Orders
       052-1270438-PA(3) Delivery Units                                              0            0           0    8/27/99
       052-1273552-PA(3) Injury Compensation                                         0            0           0    9/30/99
       052-1284213-PA(3) Operational Efficiency                                      0            0           0     7/7/99
       052-1290419-PA(3) Operational Efficiency                                      0            0           0    6/25/99
       052-1294288-PA(3) Endorsement Mail                                            0            0           0    9/23/99
       311-1262202-PA(3) Registered Mail Operations                                  0            0           0    4/16/99
       312-1272877-PA(3) Processing & Distribution                                   0            0           0    5/25/99
       312-1274544-PA(3) Mail Processing-Utilization                                 0            0           0    5/27/99
                         of Manpower
       312-1275293-PA(3) Registered Mail Operations                                  0            0           0    8/12/99
       312-1294973-PA(3) Operation 030 Productivity                                  0            0           0    8/10/99
       070-1294280-SI(1)   Observation of Mail           Federal Way, WA 98063       0            0           0    8/17/99
                           Conditions
       071-1251330-SI(2)   EXFC Expansion Readiness New Brunswick, NJ 08899 0                     0           0 11/24/98*
       071-1251331-SI(2)   EXFC Expansion Readiness Newark, NJ 07101                 0            0           0 11/09/98*
       071-1273763-SI(2)   Air Route Review              Newark, NJ 07114            0            0           0     4/1/99
       071-1275896-SI(2)   Mail Processing Operations    Miramar, FL 33027           0            0           0    6/16/99
       071-1278421-SI(2)   Mail Service                  San Diego, CA 92121         0            0           0    5/11/99
       071-1280286-SI(2)   Observation of Mail           San Diego, CA 92121         0            0           0 03/29/99*
                           Conditions
       071-1286044-SI(2)   Observation of Mail           San Antonio, TX 78245       0            0           0     5/5/99
                           Conditions
       071-1288464-SI(2)   Mail Transport Equipment      Washington, DC 20260        0            0           0    5/24/99
                           Review
       071-1289438-SI(2)   Oversight of Carrier          Edison, NJ 08899            0            0           0    5/14/99
                           Street Time
       072-1254408-SI(2)   Cleaning Maintenance          Chicago, IL 60669           0            0           0    4/19/99
                           Review


                                                                                                                             PAGE 107
087_118_jdl 4/14/00 7:32 PM Page 108




                                                                                                                              Un- Recommend
                                         Case/Report         Subject Title/             Location/          Questioned   supported Funds Put to     Issue
                                         Number              Project Type               Contract                Costs       Costs Better Use        Date
                                         072-1288453-SI(2)   Observation of Mail        Los Angeles, CA 90052      0            0           0    8/18/99
                                                             Conditions
                                         072-1289253-SI(2)   Observation of Mail        Columbus, OH 43216         0            0           0    5/28/99
                                                             Conditions
                                         072-1289303-SI(2)   Political Mail Review      Miami, FL 33152            0            0           0    9/29/99
                                         072-1290929-SI(2)   Mail Transport Equipment   Washington, DC 20260       0            0           0    6/21/99
                                                             Service Center
                                         072-1291355-SI(2)   Observation of Mail        Kearny, NJ 07032           0            0           0     7/2/99
                                                             Conditions
                                         096-1292237-SI(3)   Observation of Mail        San Juan, PR 00936         0            0           0    8/12/99
                                                             Conditions
                                         TOTAL                                                                     0           0 $1,240,000



                                         INSPECTION SERVICE GRAND TOTAL                                $16,275,943
                                                                                                                        $10,383
                                                                                                                               $38,183,149

                                         *Reports with an (*) were issued in a prior semiannual reporting period; however, they were not
                                         entered into the Inspection Service Database Information System until the current reporting
                                         period. To ensure all reports issued to management are reported to Congress, they are being
                                         included during this reporting period.




                              PAGE 108   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 109




       APPENDIX C

       Findings of Questioned Costs
       For Period Ending September 30, 1999
       INSPECTION SERVICE
                                                                                                     Unsupported
                                                                                                            Costs
                                                                                            Total      Included In
                                                                      Number of       Questioned      Questioned
       Description                                                      Reports            Costs            Costs
       Reports for which no management
       decision was made at the beginning
       of the reporting period                                              28     $168,067,185     $12,941,373
       Reports requiring a management
       decision that were issued during
       the reporting period                                                   9     $16,286,326         $10,383

       TOTAL                                                                37    $184,353,511      $12,951,756
       Reports for which a management
       decision was made during the
       reporting period (i + ii)                                            17     $159,906,695      $6,701,135
       (i) Dollar value of disallowed costs                                        $159,813,108
       (ii) Dollar value of costs not disallowed                                        $93,587
       Reports for which no management
       decision was made by the end of the
       reporting period. Negotiations are ongoing.                          20      $24,446,816      $6,250,621
       Reports for which no management
       decision was made within six months
       of issuance (Note 1)                                                   4      $7,122,599      $5,841,563
       Reports for which no management
       decision was made within one year
       of issuance (Note 2)                                                   9      $1,348,710        $398,675

       Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                     Unsupported
                                                                                                            Costs
                                                                                          Total        Included In
                                                                                    Questioned        Questioned
       Report Date   Case Number             Subject                                     Costs              Costs
       01/21/99      184-1228152-AC(1)       Marriott Corporation                     $28,437                $0
       12/07/98      184-1243166-AC(1)       Emery Worldwide Airlines              $7,087,038        $5,841,563
       03/18/99      184-1265466-AC(1)       Marriott Corporation                      $5,576                $0
       10/30/98      192-1254969-AC(2)       Remitco Management Corporation            $1,548                $0

       TOTAL                                                                       $7,122,599        $5,841,563


       Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                     Unsupported
                                                                                                            Costs
                                                                                          Total        Included In
                                                                                    Questioned        Questioned
       Report Date   Case Number             Subject                                     Costs              Costs
       06/16/98      184-1218249-AC(1)       First Data Merchant Services Corporation $515,521         $398,675
       09/18/98      184-1244332-AC(1)       King-Casey, Inc.                          $57,213
       09/18/98      184-1244333-AC(1)       King-Casey, Inc.                          $70,668
       09/18/98      184-1244335-AC(1)       King-Casey, Inc.                          $31,805
       03/12/98      182-1224877-AC(1)       MidCon Gas Services Corporation           $14,920
       05/20/96      184-1183079-AC(1)       King Casey, Inc.                         $353,962
       02/28/97      184-1203149-AC(1)       King Casey, Inc.                          $14,542
       02/28/97      184-1203150-AC(1)       King Casey, Inc.                         $247,133
       02/28/97      184-1203153-AC(1)       King Casey, Inc.                          $42,946

       TOTAL                                                                       $1,348,710         $398,675

                                                                                                                     PAGE 109
087_118_jdl 4/14/00 7:32 PM Page 110




                                         APPENDIX D

                                         Recommendations That Funds
                                         Be Put to Better Use
                                         For Period Ending September 30, 1999
                                         OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                                                     Number of
                                         Description                                                                   Reports         Dollar Value
                                         Reports for which no management decision
                                         was made at the beginning of the reporting period                                 81        $129,941,066
                                         Reports requiring a management decision
                                         that were issued during the reporting period                                      20      $1,204,883,149

                                         TOTAL                                                                            101      $1,334,824,215
                                         Reports for which a management decision was
                                         made during the reporting period                                                  52      $1,230,655,362
                                         (I) Value of recommendations implemented                                                  $1,184,713,517
                                         by management
                                         (ii) Value of recommendations that management                                                $45,941,845
                                         did not recover
                                         (iii) Value of recommendations that management                                                         $0
                                         did not agree to implement
                                         Reports for which no management decision was
                                         made by the end of the reporting period                                           49        $104,768,853
                                         Reports for which no management decision was
                                         made within six months of issuance (Note 1)                                       10          $9,864,818
                                         Reports for which no management decision
                                         was made within one year of issuance (Note 2)                                     28         $59,912,195
                                         Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                                                        Recommend
                                         Report        Case                                                                            Funds Put to
                                         Date          Number                      Subject                                               Better Use
                                         12/11/98      181-1251878-AC(1)          Key Handling Systems, Inc.                            $516,256
                                         11/18/98      181-1252266-AC(1)          Remitco Management Corporation                        $544,519
                                         10/13/98      181-1252323-AC(1)          Siemens ElectroCom, L.P.                             $6,166,150
                                         10/30/98      181-1252372-AC(1)          The Freeman Companies                                $1,710,680
                                         12/18/98      181-1253441-AC(1)          Motion System, L.C.                                   $145,532
                                         11/24/98      181-1254410-AC(1)          Dearborn Mid-West Conveyor, Inc.                      $137,480
                                         11/25/98      181-1254812-AC(1)          North American Conveyor, Inc.                         $171,823
                                         01/08/99      181-1262969-AC(1)          Remitco Management Corporation                        $250,252
                                         03/09/99      181-1265241-AC(1)          GFI Genfare                                           $103,476
                                         03/05/99      181-1273828-AC(1)          URS Greiner Woodward Clyde                            $118,650

                                         TOTAL                                                                                        $9,864,818

                                         Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                                                        Recommend
                                         Report        Case                                                                            Funds Put to
                                         Date          Number                      Subject                                               Better Use
                                         04/14/98      181-1237199-AC(1)          Siemens ElectroCom, L.P.                            $14,156,740
                                         04/17/98      181-1238604-AC(1)          Siemens ElectroCom, L.P.                              $505,224
                                         09/25/98      181-1246015-AC(1)          MOS International                                     $773,938
                                         08/28/98      181-1246017-AC(1)          MOS International                                     $280,277
                                         08/14/98      181-1248027-AC(1)          Siemens ElectroCom, L.P.                             $5,541,722



                              PAGE 110   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 111




                                                                          Recommend
       Report     Case                                                   Funds Put to
       Date       Number               Subject                             Better Use
       08/17/98   181-1248178-AC(1)    Siemens ElectroCom, L.P.         $10,687,390
       08/20/98   181-1249368-AC(1)    Key Handling Systems, Inc.         $189,668
       05/30/95   181-1165940-AC(1)    ElectroCom Automation, L.P.       $8,370,460
       05/23/96   181-1187389-AC(1)    ElectroCom Automation, L.P.       $2,799,714
       07/25/96   181-1192269-AC(1)    ElectroCom Automation, L.P.          $89,068
       09/25/96   181-1194800-AC(1)    ElectroCom Automation, L.P.       $9,178,587
       09/20/96   181-1195161-AC(1)    ElectroCom Automation, L.P.          $34,876
       07/03/97   181-1204343-AC(1)    Key Handling Systems, Inc.         $134,283
       04/22/97   181-1208530-AC(1)    Electrocom Automation, L.P.        $283,626
       06/09/97   181-1211514-AC(1)    Siemens ElectroCom L.P.              $20,151
       07/22/97   181-1212417-AC(1)    Carter Control Systems, Inc.         $10,595
       09/10/97   181-1213327-AC(1)    Motion Systems, L.C.               $491,132
       09/10/97   181-1213328-AC(1)    Motion Systems, L.C.               $545,692
       09/10/97   181-1213329-AC(1)    Motion Systems, L.C.               $561,088
       09/08/97   181-1213332-AC(1)    Motion Systems, L.C.               $569,652
       08/14/97   181-1215545-AC(1)    Carter Control Systems, Inc.         $52,347
       09/12/97   181-1218347-AC(1)    Siemens Electrocom L.P.            $196,086
       01/23/98   181-1214298-AC(1)    Midwest Conveyor Company, Inc.     $135,198
       12/03/97   181-1215690-AC(1)    K&T Electrical Contractors         $481,301
       03/06/98   181-1216419-AC(1)    Siemens ElectroCom L.P.              $66,317
       11/26/97   181-1216446-AC(1)    North American Conveyor Inc.       $517,017
       03/06/98   181-1229831-AC(1)    Siemens ElectroCom L.P.           $3,215,867
       03/06/98   181-1231556-AC(1)    Siemens ElectroCom L.P.              $24,179

       TOTAL                                                            $59,912,195




                                                                                        PAGE 111
087_118_jdl 4/14/00 7:32 PM Page 112




                                         APPENDIX E

                                         Unresolved Reports
                                                                                                                 Number of         Total
                                                                                            Number of    Inspection Service   Number of
                                         Description                                       OIG Reports              Reports     Reports
                                         Reports Unresolved at Beginning of Period:
                                          Reports Issued Before 10/1/98                             1                  57           58
                                          Reports Issued Prior Period, (3/31/99)                    7                  69           76
                                         Total Reports                                              8                 126          134

                                         Reports Issued This Period, (9/30/99)                      3                 151          154
                                         Total Reports (Note 1)                                    11                 277          288

                                         Reports Resolved:
                                         Issued Before (10/1/98)                                    1                  35           36
                                           Issued Prior Period (3/31/99)                            0                  46           46
                                           Issued This Period (9/30/99)                             0                 100          100
                                         Total Resolved                                             1                 181          182

                                         Reports Unresolved as of (9/30/99):
                                          More Than one Year, (Note 2)                              0                   22          22
                                          More Than Six Months, (Note 3)                            7                   23          30
                                          Less than Six Months                                      3                   51          54
                                         Total Unresolved                                          10                   96         106

                                         Reports Resolved Where Management Did Not Agree
                                         to Implement All Recommendations                           0                    7            7

                                         Note 1: Excludes audits previously reported, in Appendix C, Findings of Questioned
                                                  Costs; and Appendix D, Recommendations That Funds Be Put To Better Use.




                              PAGE 112   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 113




       Note 2 - List of reports pending more than one year:

       INSPECTION SERVICE
       Report     Report
       Date       Number          Condition
       08/12/97   1199652-AD(1)   EDP Controls, San Mateo, CA - Management is progressing in testing critical
                                  applications and providing off-site storage for critical files.
       07/31/97   1217968-PA(1)   Excessive Overtime Usage, Washington, DC - Management has not implement-
                                  ed recommendation regarding employee scheduling.
       11/28/97   1196577-AD(1)   FY 1997 Financial Opinion Audit, San Mateo, CA - Management is progressing
                                  in developing procedures for the inventory contract payment and reconciliation
                                  process.
       12/31/97   1188871-RI(1)   Inbound Verification Procedures, Jersey City, NJ - Management is continuing to
                                  develop action plans to verify inbound foreign and Canadian mail.
       09/30/98   1225145-AD(1)   EDP Controls, San Mateo, CA - Security reviews ongoing.
       09/30/98   1225935-AD(1)   EDP Controls, St. Paul, MN - Management is concluding administrative security
                                  issues.
       05/05/98   1169074-AD(1)   Inbound International Statistical Systems, Jersey City, NJ - Management is
                                  strengthening controls for international and military mail operations.
       08/13/98   1223405-AF(1)   Financial Installation Audit, Washington, DC - Management is developing pro-
                                  cedures for the BMEU to strengthen internal controls.
       06/04/98   1225186-AF(1)   Financial Installation Audit, Atlanta, GA - Management is providing attention
                                  to ensure proper administration and collection of fees on mailings.
       09/02/98   1222998-AF(1)   Financial Installation Audit, South Elgin, IL - Management is acquiring new
                                  equipment for COD operations. Training is being given in BMEU operations.
       09/15/98   1220283-PA(1)   National Audit on Postal Retail Stores - Management is developing procedures
                                  in retail operations and a handbook and instructions are being updated.
       05/12/98   1209811-PA(1)   National Audit on Air Transportation Networks - Management is preparing
                                  operating plans and corrective actions are being taken.
       06/05/98   1214098-PA(1)   National Audit on City Route Inspections and Adjustment Process -
                                  Management is developing instructions to review, train, and increase supervision
                                  for the route inspections/adjustment process and the associated monitoring of
                                  savings.
       05/11/98   1204380-PA(1)   National Audit on Effectiveness of Employee Reassignments - Management is
                                  developing integrated policies and procedures on reassignment processes and pro-
                                  viding attention in complement planning initiatives.
       06/04/98   1234520-PA(2)   Flats Automation, Denver, CO - Management is developing implementation
                                  plans to address flat sorting machine utilization, flat automation processing, per-
                                  formance targets, staffing and maintenance.
       08/20/98   1241721-PA(2)   Carrier Transportation, St. Louis, MO - Management is continuing to provide
                                  attention to vehicle maintenance operations.
       08/11/98   1233190-PA(2)   Injury Compensation and Safety Programs, Kansas City, MO - Management is
                                  progressing in finalizing training material.
       09/16/98   1238815-PA(2)   Limited and Light Duty Program, Dallas, TX - Management is developing
                                  instructions on claim management.
       07/10/98   1244116-PA(3)   Service and Efficiency Mail Condition Reporting System, Anchorage, AK -
                                  Management is awaiting final approval of operating plan.
       09/11/98   243831-PA(3)    Highway Contract Route Driver Screening Process, New Brunswick, NJ -
                                  Management indicated the driver screening process is complete. Functional
                                  responsibility for the driver screening process needs to be identified.
       07/01/98   1245454-PA(3)   Commercial Mail Receiving Agencies, Van Nuys District - Management indicat-
                                  ed that training will be provided.
       07/28/98   1245455-PA(3)   Commercial Mail Receiving Agencies, San Diego District - Management is
                                  working to improve CMRA controls.




                                                                                                                        PAGE 113
087_118_jdl 4/14/00 7:32 PM Page 114




                                         Note 3 - List of reports pending more than 6 months:

                                         OFFICE OF INSPECTOR GENERAL
                                         Report       Report
                                         Date         Number            Condition
                                         03/31/99     LR-AR-99-001      United States Postal Service Labor and Management Workplace Disputes -
                                                                        USPS and OIG are in the process of implementing a resolution process to
                                                                        address the disagreements.
                                         03/31/99     DS-MA-99-002      Accident Reporting Process - USPS and OIG are in the process of implementing
                                                                        a resolution process to address the disagreements.
                                         03/31/99     FA-AR-99-001      Atlanta Olympic Facility Improvement Plan - USPS and OIG are in the process
                                                                        of implementing a resolution process to address the disagreements.
                                         03/30/99     LR-AR-99-006      Allegations of Retaliation at the Garden Grove, Post Office - USPS and OIG are
                                                                        in the process of implementing a resolution process to address the disagreements.
                                         03/31/99     LR-AR-99-008      Follow-up on Postal Service Recommendations to Investigate Sexual Harassment
                                                                        Allegations and to Reassign a Supervisor - USPS and OIG are in the process of
                                                                        implementing a resolution process to address the disagreements.
                                         03/31/99     LR-AR-99-009      Health and Safety Issues and Administration of the Advance Sick Leave
                                                                        Program at the Garden Grove, California Post Office - USPS and OIG are in the
                                                                        process of implementing a resolution process to address the disagreements.
                                         03/30/99     LR-MA-99-006      Employee Allegations at the Ponca City Post Office - USPS and OIG are in the
                                                                        process of implementing a resolution process to address the disagreements.


                                         INSPECTION SERVICE
                                         Report       Report
                                         Date         Number            Condition
                                         01/29/99     1258946-RI(1)  Postage Meter, Miami, FL - Management is in the process of implementing a new
                                                                     meter inspection schedule.
                                         01/25/99     1262707-RI(1)  Postage Meter, Houston, TX - Management is developing a new meter inspec-
                                                                     tion schedule and updating the Meter Accounting Tracking System.
                                         03/29/99     1261754-AF(1)    Financial Installation Audit, Royal Oak, MI - Management is providing atten-
                                                                     tion to internal controls in the BMEU.
                                         03/12/99     1224758-AD(1) FY 1998 Financial Opinion Audit, St. Louis, MO - Management is providing
                                                                     attention to internal controls in the International Records Unit and developing
                                                                     control procedures for the Pseudo Voucher process.
                                         03/12/99     1225936-AD(1) FY 1998 Financial Opinion Audit, St. Paul, MN - Management is strengthening
                                                                     controls for the National Accounts Receivable System and is in the process of
                                                                     developing a report regarding employee separations.
                                         03/12/99     1219706-AD(1) FY 1998 Financial Opinion Audit, San Mateo, CA - Management is in the pro-
                                                                     cessing of implementing recommendations regarding certification of invoices.
                                         02/26/99     1256273-AF(1) Financial Installation Audit, Franklin Park, IL - Management is reviewing proce-
                                                                     dures and providing training for BMEU, employee accountabilities, postage
                                                                     due/business reply mail, post office box/caller service, and COD mail.
                                         12/17/98     1256279-AF(1) Financial Installation Audit, Mattoon, IL - Management is reviewing procedures
                                                                     relating to unit reserve accountability and employee accountabilities.
                                         12/23/98     1256284-AF(1) Financial Installation Audit, Elmhurst, IL - Management is reviewing procedures
                                                                     relating to employee accountabilities.
                                         01/08/99     1215615-FPA(1) National Priority System, Chicago, IL - Management is in the process of imple-
                                                                     menting recommendations regarding functional responsibility, ranking, training,
                                                                     and evaluation factors.
                                         12/30/98     1223496-PA(1) National Audit on Logistics and Transportation - Management is in the process
                                                                     of implementing recommendations regarding air-to-surface mail routing.
                                         12/30/98     1262023-RI(1)  Postage Meter, Southington, CT - Management is in the process of implement-
                                                                     ing recommendations regarding meter inventories, meter control, and mis-set
                                                                     meters.
                                         01/27/99     1260310-RI(1)  Postage Meter, Anchorage, AK - Management is in the process of reconciling in-
                                                                     stock inventory records.
                                         11/03/98     1234435-RI(1)  Postage Meter, Denver, CO - Management is developing a new meter inspection
                                                                     schedule.



                              PAGE 114   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 115




       Report     Report
       Date       Number          Condition
       02/17/99   263807-RI(1)    Postage Meter, Las Vegas, NV - Management is strengthening meter security pro-
                                  cedures.
       03/16/99   1277504-RI(1)   Postage Meter, Denver, CO - Management is developing a new meter inspection
                                  schedule.
       12/18/98   1256726-AF(1)    Financial Installation Audit, Mission Hills, CA - Management is providing
                                  attention to ensure proper administration of business mail acceptance procedures.
       11/03/98   1242213-PA(3)   Mail Preparation, Distribution and Flow - Management is updating operational
                                  SOPs and establishing uniform goals.
       01/07/99   1262128-RI(1)   Postage Meter, Santa Ana, CA - Management is in the process of developing a
                                  new meter inspection schedule.
       11/06/98   1243860-PA(2)   Two-Day and Three-Day Mail - Management is improving dispatch disciplines to
                                  facilitate the transport of mail by surface rather than air.
       03/17/99   1244541-PA(1)   National Audit on Priority Mail - Management is developing procedures to
                                  ensure efficient and effective processing of priority mail.
       03/17/99   1255370-AF(1)   Financial Installation Audit, Oak Hill, OH - Procedures are being developed to
                                  strengthen internal controls in office accountability.
       03/26/99   1223382-AX(1)   Mail Transport Equipment Service - Management is implementing recommenda-
                                  tions regarding program planning management.




                                                                                                                      PAGE 115
087_118_jdl 4/14/00 7:32 PM Page 116




                                         APPENDIX F

                                         Summary of Inspection Service Actions
                                         Under 39 USC 3005 and 3007
                                         For the period April 1, 1999 through September 30, 1999
                                                                                                                   False   Cease &
                                         Type of Scheme                           Complaints      Consent Representation     Desist
                                         (Definitions of schemes follow)               Filed   Agreements        Orders     Orders

                                         Advance fee                                      3             3             4          5
                                         Boiler rooms/Telemarketing                       2                           1          1
                                         Contest/Sweepstakes                              1             1                        1
                                         Rebate fraud                                    19            19                       19
                                         Directory solicitations                          1             1             1          1
                                         Distributorships
                                         Employment
                                         False billings                                   5             4                        2
                                         Fraud against government agencies
                                         Fraud against USPS
                                         Insurance
                                         Investments
                                         Loans
                                         Lotteries (Foreign and Domestic)                52                          53          1
                                         Medical                                          1             1                        1
                                         Memberships
                                         Merchandise:
                                            Failure to furnish                            2             2                        2
                                            Failure to pay                                1             1                        1
                                            Misrepresentation                             4             2                        2
                                         Miscellaneous                                    4             5             2          5
                                         Solicitations                                    2             3             1          3
                                         Travel
                                         Work at home                                     5             5             1          5
                                         TOTAL                                          102            47            63         49


                                         Other Administrative Actions
                                         Administrative Action Requests                  82
                                         Temporary Restraining Orders Requested           3
                                         Temporary Restraining Orders Issued              3
                                         Civil Injunctions (1345) Requested               0
                                         Civil Injunctions (1345) Issued                  0
                                         Cases Using Direct Purchase Authority            2
                                         Refusals of Direct Purchase Authority            0
                                         Civil Penalties (Section 3012) Imposed      $7,000
                                         Expenditures Incurred for:
                                           Test Purchases                             $588
                                           Expert Testimony                           $250
                                           Witness Travel                               $0
                                         Withholding Mail Orders Issued                 98
                                         Voluntary Discontinuances                     252




                              PAGE 116   APPENDICES
087_118_jdl 4/14/00 7:32 PM Page 117




       DEFINITIONS OF SCHEMES
       Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
       Boiler rooms/Telemarketing. An office or suite of offices with banks of telephones and tele-
       phone solicitors who use high-pressure techniques to persuade consumers to respond to bogus
       offers.
       Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
       of money, gifts or other items of value. "Prizes" are either never shipped or are inferior to what
       was promised.
       Rebate fraud. Redeeming cents-off coupons or manufacturers' rebates when no merchandise was
       actually purchased; establishing fictitious stores, clearing houses or addresses; submitting counter-
       feit coupons or rebates by consumers.
       Directory solicitations. Fraudulent solicitations in the guise of invoices for advertisement or
       renewal in business directories.
       Distributorships. Pyramid schemes in which it is mathematically impossible for all participants
       to recoup their investments. The emphasis is not on the sale of the product, but on getting
       others to participate.
       Employment. Soliciting money for information or assistance in obtaining nonexistent or misrep-
       resented jobs.
       False billings. Mailing solicitations in the guise of billings.
       Fraud against government agencies. Any scheme that attempts to defraud a U.S. government
       agency except the U.S. Postal Service.
       Fraud against U.S. Postal Service. Any scheme that attempts to defraud the U.S. Postal
       Service.
       Insurance. Investigation of insurance-related fraud involving false claims, false advertising on
       the availability of insurance, or the collection of premiums for nonexistent policies.
       Investments. Misrepresented opportunities to invest in commodities, gems, metals, stocks,
       bonds, certificates of deposit, mutual funds, IRAs, coins, stamps, art, etc.
       Loans. Mailings soliciting money for information on nonexistent or misrepresented loans.
       Lottery. Advertisements seeking money or property by mail for participation in schemes to win
       prizes through chance.
       Medical. Sales by mail of misrepresented health products or services, including fraudulent
       medical degrees.
       Memberships. Failure to provide services advertised in connection with organization
       membership.
       Merchandise failure to furnish. A mail order operator that does not provide ordered
       merchandise.
       Merchandise failure to pay. Mail order merchandise that is acquired without providing payment.
       Merchandise misrepresentation. Mail order merchandise or services that are materially
       misrepresented in advertising.
       Miscellaneous. Any other scheme not described in a specific category.
       Solicitations. Fraudulent solicitation of funds through the mail for alleged charitable, religious
       minority-oriented groups and similar causes or organizations.
       Travel. Fraudulent vacation or travel opportunities.
       Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




                                                                                                               PAGE 117
087_118_jdl 4/14/00 7:32 PM Page 118




                                         APPENDIX G

                                         Criminal Statistics
                                         For the Period April 1, 1999 through September 30, 1999
                                         OFFICE OF INSPECTOR GENERAL
                                         Type of Investigation                                                         ARRESTS              CONVICTIONS1
                                         Revenue & Cost Containment
                                         Revenue Protection                                                                  5                     2
                                         Contracts                                                                                                 3
                                         OIG Total2                                                                          5                     5


                                         INSPECTION SERVICE
                                         Type of Investigation                                                         ARRESTS              CONVICTIONS1
                                         Revenue & Asset Protection Program
                                          Expenditure Investigations                                                       11                       7
                                          Financial Investigations                                                        159                     144
                                          Workers' Compensation Fraud                                                      35                      26
                                          Revenue Investigations                                                           64                      41
                                         Robbery                                                                           69                      79
                                         Burglary                                                                          75                      62
                                         Miscellaneous External Crimes
                                          (includes counterfeit and contraband postage, money order
                                           offenses, vandalism and arson)                                                 316                     295
                                         Assaults Against Employees
                                          (includes threats and assaults against on-duty postal employees)                214                     178
                                         Employee Narcotics Cases
                                          (includes employees and non-employees selling narcotics on
                                           postal property)                                                                14                      9
                                         Mail Theft by Employees
                                          (includes theft and possession of stolen mail)                                  229                     210
                                         Mail Theft by Non-Employees or Contractors
                                          (includes theft and possession of stolen mail)                                2,233                2,179
                                         Miscellaneous Employee Crimes
                                          (includes theft of postal property and sabotage of equipment)                    49                     39
                                         Bombs/Explosive Devices                                                           37                     41
                                         Mailing of Controlled Substances
                                          (includes narcotics, steroids, drug-related proceeds and drug
                                           paraphernalia)                                                                 802                     747
                                         Child Exploitation, Mailing of Obscene Matter and
                                         Sexually Oriented Advertisements                                                  96                     72
                                         Mailing of Miscellaneous Nonmailables
                                          (includes hazardous material, firearms and weapons, intoxicants,
                                           explosives other than bombs, extortion and false documents)                     68                      29
                                         Mail Fraud                                                                       775                     706

                                         Inspection Service Total2                                                      5,246               4,864

                                         GRAND TOTAL                                                                    5,251               4,869

                                         1
                                             Convictions reported in this time frame may be related to arrests made in prior reporting periods.
                                         2
                                             Arrests and convictions include joint investigations with other federal law enforcement agencies.




                              PAGE 118       APPENDICES
119_124_jdl 4/14/00 8:11 PM Page 119




                                       Exhibits




                                         DID YOU
                                         KNOW?
                                        Does the OIG investigate individual labor
                                        management complaints?
                                        The OIG generally does not review individual
                                        employee complaints. However, as a new
                                        agency, we have conducted reviews of some
                                        complaints to develop an understanding of the
                                        Postal culture and employee concerns.




                                                                                    PAGE 119
                                           This exhibit describes the
                                           designation of audit and
                                           investigative functions        Exhibit A
                                           agreed to by the OIG and
                                           Inspection Service upon
                                                                          Designation of Functions (under revision)
                                           passage of the 1996            OFFICE OF INSPECTOR GENERAL                                     INSPECTION SERVICE
                                           amendments to the
                                           Inspector General Act.           REVENUE                                                         REVENUE
                                           The designation, which         ● Bribery, Kickback, and Conflict of                            -Revenue Loss Detection
                                                                              Interest
                                           was approved by the Board
THIS PAGE TEARS OUT FOR YOUR CONVENIENCE




                                                                          ● Systemic Reviews
                                           of Governors, identifies
                                           work already transitioned;       HEALTH CARE FRAUD                                               WORKERS’ COMPENSATION
                                                                          ● Provider Fraud                                                -Recipient Cases
                                           work in transition; and        ● Workers’ Compensation Program
                                           new functions now being            Oversight
                                           performed by the OIG. This
                                                                            EMBEZZLEMENTS                                                   EMBEZZLEMENTS
                                           designation is currently
                                                                          ● Conduct/Partner on cases of $100K or More                     -Under $100 K
                                           being revised by OIG and
                                           the Inspection Service.          EXPENDITURES                                                    EXPENDITURES
                                                                          ● Bribery, Kickback and Conflict of Interest                    -As Referred by IG
                                                                          ● Systemic Reviews                                              -IMPAC Cards
                                           TRANSITION OF                                                                                  -Local Purchases/Procurements

                                           INVESTIGATIVE                  ● CONDUCT/PARTNER ON CASES INVOLVING EXECUTIVES                   EMERGENCY RESPONSE ON CASES INVOLVING EXECUTIVES

                                           FUNCTIONS                                                                                        INTERNAL/EXTERNAL CRIMES
                                                                                                                                            PROTECTION OF EMPLOYEES
                                                                                                                                            SECURITIES FRAUD AND PROHIBITED MAILINGS
                                                                          ✖ TORT CLAIMS: SERIOUS INCIDENTS                                  TORT CLAIMS
                                                                          ● INSPECTION SERVICE INTERNAL AFFAIRS                             INSPECTION SERVICE INTERNAL AFFAIRS
                                                                          ● Executives                                                    -Non-executives
                                                                          ● COMPUTER FORENSICS                                              FORENSIC AND TECHNICAL SERVICES
                                                                          ● HOTLINE


                                           TRANSITION OF                  OFFICE OF INSPECTOR GENERAL                                     INSPECTION SERVICE
                                           AUDIT                            FACILITIES                                                      FACILITIES
                                           FUNCTIONS                      ✖ New Facilities Construction
                                                                              of $10M or More
                                                                                                                                          -New Facilities Construction
                                                                                                                                            of $5M or Less
                                                                          ✖ New Facilities Right of First                                 -New Facilities Between $5 – $1 M
                                                                              Choice Between $5 – $1 M                                      if not chosen by IG
                                                                          ✖ Leases of $1M or More                                         -Leases under $1M
                                                                          ✖ Repair and Alterations of $1M or More                         -Repair and Alterations under $1M
                                                                            REVENUE FOCUSED
                                                                          ✖ International Mail
                                                                          ● FINANCIAL STATEMENT - OVERALL OPINION                           FINANCIAL STATEMENT - INSTALLATION AND DISTRICT
                                                                          ● POSTAL-WIDE PERFORMANCE                                         AREA DISTRICT AND LOCAL PERFORMANCE
                                                                          ● CONTRACTS, EXCEPT PRE-AWARD AND POST-AWARD                      SERVICE INVESTIGATION
                                                                          ● ALL DEVELOPMENTAL                                               CONTRACTS PRE-AWARD AND POST-AWARD

                                                                          OFFICE OF INSPECTOR GENERAL
                                                                          ✇ REVENUE GENERATION
                                           ADDITIONAL/
                                                                          ✇ OVERSIGHT OF INSPECTION SERVICE
                                           EXPANDED OIG
                                                                          ✇ RATE-MAKING REVIEWS
                                           FUNCTIONS
                                                                          ✇ SELF-INITIATED AND PROACTIVE WORK (CONTRACTING/PERFORMANCE)
                                                                          ✇ LABOR-MANAGEMENT
                                                                          ✇ ELECTRONIC COMMERCE
                                                                                                                                          Key: FY 1999 Status
                                                                          ✇ COMPUTER INTRUSION                                            ● Transitioned        ✖ In Transition     ✇ New Function
                                                               PAGE 120
                                                                         AL                                                PE
                                                                      NER                                            NT INS CTOR
                                                                    GE                                            ST
                                                                                                                    A STRATEGIC GE
                                                                                                                                  N
                                                                  R                                              I
                                                                 O AUDITS                                       S      PLANNING




                                                                                                                                                     ER




                                                            CT
                                                                     Richard Chambers




                                                                                                        AS
                                                                                                                      & QUALITY




                                                                                                                                                       AL




                                                          PE
                                                                     Deputy Robert Emmons                             MANAGEMENT




                                                         S
                                                                     Deputy Colleen McAntee                           Ronald Merryman
                                                                     Accepting/Processing
                                                                                                                      Deputy Wayne Goleski
                                                                     (Vacant)
                                                                                                                      Electronic Commerce
                                                                     Delivery
                                                                                                                      Robert Batta
                                                                     Bennie Cruz                                      Forensic & Technical Services
                                                                     Developmental                                    John DeMaggio
                                                                     Tracy LaPoint                                    Information Technology




                                               SISTANT IN
                                                                     Financial Audit
                                                                                                                                                                                                                      119_124_jdl 4/14/00 8:11 PM Page 121




                                                                                                                      David Sidransky
                                                                     John M. Seeba                                                                                                                        Exhibit B




                                             AS
                                                                                                                      Internal Quality
                                                                     Support                                          Jim Nugent
                                                                     Gwen Johnson                                     Quality Assurance/Internal Affairs
                                                                     Transportation                                   George Davis
                                                                     Debra Ritt                                       Strategic Planning
                                AL                                                                                    Russ Barbee
                              ER
                            EN




                               G
                                                                                                                                                    EMPLOYEE
                                   INVESTIGATIONS




                             R
                                                                                                                                                    Billy Sauls




                            O
                                   Sylvia L. Owens                                        INSPECTOR                                                 Deputy Ronnie Wainwright
                                   Deputy Ronald K. Stith                                 GENERAL                                                   Administrative Resources
                                   Deputy Richard S. Trinidad                             Karla W. Corcoran                                         Alan Lamoreaux
                                   Contracts
                                                                                          Special Assistant                                         Human Resources
                                   Kim Stroud
                                                                                          (Vacant)                                                  Connie Ambush
                                   Facilities




                   T INSPECT
                                   Anthony T. Cannarella                                  Executive Assistant                                       Information Systems
                                                                                                                                                    David I. Berran
                                                                                                                                                                                          R G E N ER AL




                                   Healthcare Fraud                                       Cindy Monahan




                 AN
                                   Katherine K. Johnson
                                                                                                                                                                                         O




                                                                                                                                                    Labor Management
                                   Revenue Generation                                                                                               Joyce Hansen




              IST
                                                                                                                                                                                      CT




                                   (Vacant)
                                                                                                                                                                                      E




                                                                                                                                                    Chris Nicoloff




            SS
                                   Revenue Protection




           A
                                                                                                                                                                                  SP




                                   Dan O'Rourke
                                   Mike Shiohama                                                                                                                                 IN
                                                                                                                                                                   NT
                                                                                                                   CUSTOMER                                ASSISTA
                                                                                                                   Norm Hancock
                                                                  GENERAL                                          Deputy Debra Pettitt
                                                                  COUNSEL TO THE                                   Computer Intrusion
                                                                  INSPECTOR                                        Howard Cox
                                                                  GENERAL                                          Consulting Services
                                                                                                                   (To be established in FY 2001)
                                                                  Thomas Coogan
                                                                                                                                                              ER AL




                                                                                                                   Executive Investigations
                                                                  Congressional                                    Tommy Hampton




PAGE 121
                                                                                                                                                             EN




                                                                  and Public Relations
                                                                  Laura A. Whitaker                                Hotline
                                                                                                                   Joe Oliva
                                                                                                                                                          RG




                                                                  Legal Services
                                                                  Kirt West                                        Oversight
                                                                                                                                                                      Office of Inspector General
                                                                                                                                                         TO




                                                                                                                   Bob Pemberton
                                                                                                                                                    EC




                                                                                                                   Quick Response                                        1735 N. Lynn Street
                                                                                                                   (To be established in FY 2001)   SP                Arlington, VA 22209-2020
                                                                                                                                  IN
                                                                                                                        ASSISTANT                                           (703) 248-2300
                                                                                                                                                                          Fax: (703)248-2291
                                                                                                                                                                      Internet: www.uspsoig.gov


                                                                                                   THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
                                                                                                                    THIS PAGE TEARS OUT FOR YOUR CONVENIENCE

                                                                                                                 including repair, renovation, and new construction.
OFFICE OF INSPECTOR GENERAL                                                                                      Health Care Team - identifies and investigates medical providers that have falsely billed the Postal
The OIG is organized consistent with the three voices of the Postal Service CustomerPerfect! Program:            Service for work-related injury claims, and conducts audits of systemic issues involving the Workers’
Voice of the Customer, Voice of the Employee, and Voice of the Business. The Inspector General,                  Compensation Program.
General Counsel, the five Assistant Inspectors General, and the seven Deputy Assistant Inspectors
General form the OIG Management Committee.                                                                       Revenue Generation Team - examines and evaluates the major sources of revenue from marketing,
                                                                                                                 advertising, stamp services, retail, and international mail business operations, and also monitors Postal
                                                                                                                 rate cases.
ASSISTANT INSPECTOR GENERAL FOR STRATEGIC PLANNING &
QUALITY MANAGEMENT                                                                                               Revenue Protection Team - investigates bribery, kickbacks, embezzlement, and other cases involving rev-
                                                                                                                 enue losses and contract fraud, such as defective pricing, product substitution, and cost mischarging.
Electronic Commerce Team - conducts reviews of Postal Service initiatives in the emerging field of elec-
tronic commerce, including areas such as information-based indicia and electronic bill payment.                  ASSISTANT INSPECTOR GENERAL FOR EMPLOYEE
Forensic and Technical Services Team - provides technical support in such areas as surveillance, evi-
                                                                                                                 Administrative Resources Team - provides the OIG staff with facility, procurement, financial, budget,
                                                                                                                                                                                                                               119_124_jdl 4/14/00 8:11 PM Page 122




dence recovery, firearms, computer forensics, and polygraph examinations; and maintains close liaison
                                                                                                                 and other services necessary to accomplish the OIG mission.
with technical experts in the law enforcement community.
                                                                                                                 Human Resources Team - delivers full-service human resources programs for the OIG in the areas of
Information Technology Team - manages computer operations and telecommunications within the OIG;
                                                                                                                 employee relations, ethics, pay and benefits, retirement awards, performance management, counseling,
operates the local and wide-area networks; provides computer security and technical support to OIG staff;
                                                                                                                 diversity opportunities, and training.
and manages agency-wide information systems.
                                                                                                                 Information Systems Team - audits major automated Postal management and information systems to
Internal Quality Team - instills continuous internal process improvement and facilitates internal com-
                                                                                                                 determine Y2K readiness, and whether applications are properly established and systems are properly
munications through orientation, teambuilding, and mentoring.
                                                                                                                 designed to provide accurate data to management; and provides computer assisted audit techniques to
Quality Assurance/Internal Affairs Team - conducts internal reviews of OIG operations and procedures             support OIG staff.
to ensure that they are effective and appropriate, provides advice on improving operations, and conducts
                                                                                                                 Labor-Management Teams - conduct audits and evaluations of labor management and employee rela-
reviews of allegations made against OIG employees.
                                                                                                                 tions issues within the Postal Service to assist in fostering and maintaining a healthy organizational cli-
Strategic Planning Team - anticipates and plans for current and future changes in the Postal Service,            mate for employees and improving operational efficiency; also audits and evaluates Postal Service systems
OIG operations, and technology by identifying workload, providing research and statistical analyses,             and operations involving violence prevention.
informing Postal Service employees and customers about the OIG mission, and promoting the vision of
the OIG.                                                                                                         ASSISTANT INSPECTOR GENERAL FOR CUSTOMER
ASSISTANT INSPECTOR GENERAL FOR AUDITS (PERFORMANCE)                                                             Computer Intrusion Team - detects and investigates “computer hacking” and other high-technology
                                                                                                                 crimes involving Postal Service computers and telecommunications systems; and assists in identifying
Accepting and Processing Team - conducts audits and reviews focusing on mail acceptance and collec-              computer systems vulnerabilities so that appropriate counter-measures may be implemented.
tion operations, and mail processing and distribution processes.
                                                                                                                 Consulting Services Team - will assist Postal Service management by identifying best practices for
Delivery Operations Team - conducts audits and reviews to enhance delivery processes and operations              improving the effectiveness of Postal Service operations. (This team will be established in FY 2001.)
and to improve customer satisfaction.
                                                                                                                 Executive Investigations Team - investigates allegations of criminal activities and misconduct involving
Developmental Team - conducts audits and reviews of new or redesigned Postal Service systems, pro-               Postal Service executives.
grams, and operations that are under development.
                                                                                                                 Hotline Team - operates the OIG Hotline to provide a vital and confidential communication link
Financial Audit Team - conducts audit work in support of the independent public accounting firm’s                between the Postal Service and the public.
annual financial audit opinion and conducts other financial-related audits to identify areas for
                                                                                                                 Oversight Team - conducts audits and evaluations of Inspection Service programs and operations.
improvement.
                                                                                                                 Quick Response Team - will evaluate critical, time-sensitive issues. This team will assist in responding
Support Team - provides investigative support to all Performance teams, and conducts audits and reviews
                                                                                                                 to requests from Congress and the Governors. (This team will be established in FY 2001.)
of the Postal Service enabling operations to include quality, government relations, and customer service.
Transportation Team - conducts audits and reviews focusing on domestic and international transporta-             GENERAL COUNSEL TO THE INSPECTOR GENERAL
tion, and logistics operations, specifically addressing Postal Service fleet operations and contracts for air-
line, highway, and rail services.                                                                                Congressional and Public Relations Team - serves as liaison to Congress, the Board of Governors, and
                                                                                                                 the media; coordinates congressional testimony and presentations; reviews legislation and regulations;
ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS (REVENUE &                                                        coordinates internal policies and procedures; and reviews and comments on Postal Service policies and
                                                                                                                 procedures.
COST CONTAINMENT)
                                                                                                                 Legal Services Team - provides legal advice to the Inspector General and OIG staff on criminal, civil,
Contract Audit Team - improves Postal Service contracting by conducting audits and investigations of             and administrative issues; processes subpoenas; responds to Freedom of Information and Privacy Act
purchasing activities and operations.                                                                            requests; and serves as liaison with the Postal Service Law Department and Department of Justice legal
Facilities Team - conducts audits, management reviews, and investigations of all aspects of facilities           staffs.
                                           119_124_jdl 4/14/00 8:11 PM Page 123




THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
119_124_jdl 4/14/00 8:11 PM Page 124




                                       Notes
US Postage Stamps
ISSUED FROM APRIL 1, 1999 THROUGH SEPTEMBER 30, 1999
PAGE
3    UNIVERSAL POSTAL UNION - recognizes the accomplishments of the
     Universal Postal Union on its 25th anniversary.
8    NIAGARA FALLS - recognizes one of the greatest natural wonders of the
     world and celebrates the long-lasting friendship between the U.S. and Canada.
13 FREDRICK LAW OLMSTED - recognizes one of the founders of American
   landscape architecture and one of America's most prolific park designers.
14 HOLLYWOOD COMPOSERS - honors the outstanding contributions made to
   the world of music and entertainment by six distinguished composers: Max
   Steiner, Dimitri Tiomkin, Alfred Newman, Bernard Hermann, Franz Waxman,
   and Erich Wolfgang Korngold.
21 DAFFY DUCK - celebrates the third Looney Tunes animated character to be
   honored on a U.S. stamp and joins Bugs Bunny, and Sylvester and Tweety.
26 ALL ABOARD - recognizes the art deco-style passenger trains of the 1930s
   and 1940s.
40 SONORAN DESERT - colorfully depicts the beautiful landscape and teeming
   wildlife of the Sonoran Desert in a pane of ten stamps that are part of a larger
   illustrative scene.
46 AYN RAND - celebrates the achievements of novelist Ayn Rand, who became
   the 16th honoree in the American Literary Arts series.
48 PROSTATE CANCER AWARENESS - helps to raise awareness about
   prostate cancer and its often devasting effects on the health of thousands of
   American men.
49 AQUARIUM FISH - pays tribute to the spectacular world of the fragile coral
   reef and depicts delicate corals, sea anemones, fish, and other species.
57 CALIFORNIA GOLD RUSH —honors the 150th anniversary of the thou-
   sands of hopeful “forty-niners” who rushed to California in the hopes of
   “striking it rich.”                                                                      ACKNOWLEDGEMENTS
63 HONORING THOSE WHO SERVED - pays tribute to the nation's military
   veterans, police officers and firefighters.                                              This report represents the out-
64 AMERICAN GLASSMAKING - showcases four of the finest American glass                       standing efforts and accomplish-
   designs and glassmaking techniques from the mid-18th century to the early 20th           ments of OIG and Inspection
   century: freeblown, mold-blown, pressed, and art glass.
                                                                                            Service staff. The production of
75 XTREME SPORTS - captures the speed and action of four competitors involved
   in BMX biking, inline skating, skateboarding, and snowboarding.                          this report would not have been
79 JAMES CAGNEY - celebrates the Oscar-winning film and stage great on the                  possible without the contribu-
   100th anniversary of the year of his birth.                                              tions and dedication of the many
80 TROPICAL FLOWERS - features the breathtaking beauty and color of four                    OIG and Inspection Service Staff
   species of tropical flowers: the bird of paradise, royal poinciana, gloriosa lily, and
   Chinese hibiscus.                                                                        who contributed to this effort,
86 JOHN AND WILLIAM BARTRAM - recognizes the work of John, and his                          particularly Wayne Goleski,
   son William, in establishing the oldest existing botanical garden in the U.S.            Karen King-Bickle and Ralph
                                                                                            Dorris of OIG and Andy
                                                                                            Clemmons of the Inspection
                                                                                            Service.
119_124_jdl 4/14/00 8:11 PM Page 124




                                       OFFICE OF INSPECTOR GENERAL
                                               1735 N. Lynn Street
                                           Arlington, VA 22209-2020
                                                 (703) 248-2300
                                              Fax: (703) 248-2291
                                            Internet: www.uspsoig.gov
